APPENDIX TABLE OF CONTENTS
OPINION AND ORDERS
Judgment of the Court of Appeals for the
First Circuit (September 11, 2020) .................... 1a
Order of the District Court
(August 28, 2020) ............................................... 4a
Order of the District Court
(August 20, 2020) ............................................. 21a
Memorandum and Order of the United States
District Court for the District of
Massachusetts (July 28, 2020) ......................... 26a
Order of the District Court Approving Notice of Sale
(July 20, 2020) .................................................. 30a
Order of the Court of Appeals for the First Circuit
(May 21, 2020) .................................................. 57a
Memorandum and Order of the United States
District Court District of Massachusetts
(January 17, 2020)............................................ 60a
Order of the United States District Court
for the District of Massachusetts
(November 22, 2019) ........................................ 91a
Order of the United States District Court
for the District of Massachusetts
(November 22, 2019) ........................................ 93a
Memorandum and Order of the United States
District Court for the District of
Massachusetts (November 20, 2019) ............... 95a

APPENDIX TABLE OF CONTENTS (Cont.)
Order of the United States District Court
for the District of Massachusetts
(November 5, 2019) .......................................... 99a
Order of the United States District Court
for the District of Massachusetts
(September 6, 2019)........................................ 102a
Final Judgment as to Defendant John J. Masiz
(August 18, 2017) ........................................... 104a
RECONSIDERATION ORDER
Memorandum and Order of the United States
District Court for the District of
Massachusetts (July 28, 2020) ....................... 112a
OTHER DOCUMENTS
Notice of Electronic Filing
(August 27, 2020) ........................................... 115a
Second Excerpt of Motion Hearing Via
Videoconference (August 27, 2020) ................ 119a
Affidavit of Mark G. DeGiacomo
(August 25, 2020) ........................................... 139a
Affidavit of John J. Aquino
(August 25, 2020) ........................................... 148a
Videoconference Motion Hearing Transcript of
Proceedings (July 10, 2020) ........................... 168a

APPENDIX TABLE OF CONTENTS (Cont.)
Declaration by John Masiz Regarding the Public
Filing of a Copy of the 9-12-19 Masiz
Disclosure Submission Provided the SEC
(Doc. #562, #567) (November 22, 2019) ......... 211a
Reply by Defendant John Masiz to Commission’s
Response (Doc. #566) to Masiz’s Regulatory
Disclosures (September 20, 2019) .................. 217a
Commission’s Response to John Masiz’s
Regulatory History Disclosures
(September 20, 2019)...................................... 220a
Affidavit of John Masiz Regarding Regulatory
History Disclosure (September 12, 2019) ...... 224a
Joint Motion for Entry of Proposed Final
Judgment Against Defendant John J. Masiz
(August 15, 2017) ........................................... 226a

App.1a
JUDGMENT OF THE COURT OF APPEALS
FOR THE FIRST CIRCUIT
(SEPTEMBER 11, 2020)
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff-Appellee,
v.
JOHN J. MASIZ,

Defendant-Appellant,
BIOCHEMICS, INC.,

Defendant-Appellee,
GREGORY S. KRONING; CRAIG MEDOFF,

Defendants.
________________________
No. 19-2206
_________________________________________
US SECURITIES & EXCHANGE COMMISSION,

Plaintiff-Appellee,
v.

App.2a
JOHN J. MASIZ,

Defendant-Appellant,
BIOCHEMICS, INC.; CRAIG MEDOFF;
GREGORY S. KRONING,

Defendants.
________________________
No. 20-1177
_________________________________________
IN RE: JOHN MASIZ,

Petitioner.
________________________
No. 20-1729
Before: TORRUELLA, THOMPSON
and BARRON, Circuit Judges.
Having considered the parties’ responses to this
court’s Order to Show Cause (“OSC”) why Appeal No.
19-2206 should not be dismissed as moot or for want
of jurisdiction, we dismiss Nos. 19-2206 and 20-1177
as moot for the reasons outlined in the OSC. The writ
of prohibition requested in No. 20-1729 is denied. The
Emergency Motion for a stay of the September 2020
joint-sale proceedings pending our resolution of the
aforementioned matters is denied as moot.
By the Court:

App.3a

Maria R. Hamilton
Clerk
cc:
Donald Campbell Lockhart
Martin F. Healey
David H. London
Kathleen Burdette Shields
Theodore Weiman
Jan Richard Schlichtmann
John A. Sten
Michael P. Angelini
Douglas Thomas Radigan
Francis J. DiMento Sr.
Keith L. Sachs
Orestes G. Brown
Peter Sabin Willett
Jonathan M. Albano
Howard M. Cooper
Elizabeth M. Bresnahan
Joseph M. Cacace
Mark G. DeGiacomo
Taruna Garg
Michael J. Fencer
Craig Medoff
Donald F. Farrell Jr.
Carol E. Schultze
Joshua S. Grinspoon
Jonathan M. Horne

App.4a
ORDER OF THE DISTRICT COURT
(AUGUST 28, 2020)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,
CRAIG MEDOFF, and GREGORY S. KRONING,

Defendants.
________________________
C.A. No. 1:12-cv-12324-MLW
Before: Mark L. WOLF, United States District Judge.
WOLF, D.J.
In his August 5, 2020 limited objection (Dkt. No.
642, the “Objection”) regarding the Receiver’s motion
for an order approving the notice of sale and for
authority to auction assets, see Dkt. Nos. 620, 632,
defendant John Masiz requested that:
[T]he District Court and Bankruptcy Court
clarify that, if Mr. Masiz participates in the
sale process, he will not be subjected to an
investigation by the District Court as to
whether he complied with 2004 and 2017

App.5a
Consent Decree injunctions obtained by the
[Securities and Exchange Commission].
Dkt. No. 642 at 20. For the reasons stated in the
excerpt of the August 27, 2020 hearing attached hereto
as Exhibit A, it is not appropriate to assure Mr.
Masiz that, whatever his conduct, the court will not
inquire concerning whether he has violated the injunctions. See also Dkt. No. 591, Securities and Exchange
Commission v. BioChemics, 435 F.Supp.3d 281 (D.
Mass. 2020). Therefore, his request and the Objection
(Dkt. No. 642) are hereby DENIED.
As also explained at the hearing, the questions
counsel for Mr. Masiz proposed to ask the Bankruptcy
Trustee for Inpellis, Inc. at the August 27, 2020
hearing were not relevant to the Objection, and any
arguable value they purportedly had was substantially
outweighed by the waste of time in a lengthy hearing
focused on other issues. Therefore, counsel was not
permitted to question the witness.
Counsel stated that Masiz intends to appeal or in
some other manner seek relief from these decisions.
As stated at the August 27, 2020, hearing, it is
hereby ORDERED that if Masiz does so, he shall
provide the Court of Appeals for the First Circuit this
Order, including the transcript attached hereto as
Exhibit A.
/s/ Mark L. Wolf
United States District Judge

App.6a
EXHIBIT A—EXCERPT OF MOTION HEARING
(AUGUST 27, 2020)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,
CRAIG MEDOFF, and GREGORY S. KRONING,

Defendants.
________________________
C.A. No. 1:12-cv-12324-MLW
Before: Mark L. WOLF, United States District Judge.

[August 27, 2020 Transcript, p.4]
(The following proceedings were held via videoconference before the Honorable Mark J. Wolf, United States
District Judge, United States District Court, District
of Massachusetts, at the John J. Moakley United
States Courthouse, 1 Courthouse Way, Boston, Massachusetts, on August 27, 2020.)
[****]
JUDGE WOLF: Judge Panos, let me do this so I can
try to get focused on what Mr. Schlichtmann
would like to question about.

App.7a
Mr. Schlichtmann, Mr. Masiz filed two objections,
and working backwards, one was filed August
25, Docket 660 in the District Court case, and
that supplemental objection regarded the free
and clear sale of Biochemics and Inpellis assets
in the 820 order converting the 8/27 hearing,
today’s hearing, on sale motions to an evidentiary
hearing.
Do you wish to question the trustee about that
objection?
MR. SCHLICTMANN: You’re referring to the objection having to do with the use of the proceedings
to somehow divest Mr. Masiz of his ownership
rights. My understanding is—I’m sure I’m clear
on this—that the Courts are not using this
proceeding to do that because the receiver and
the trustee are not doing that, so there’s no basis
to have a hearing on that. So that objection is
taken care of, there’s no question about that.
We’re satisfied that that has been addressed to
our satisfaction.
JUDGE WOLF: That’s with regard to whether Mr.
Masiz is an inventor and an owner of one or
more of the patents, just to make sure I understand and the record is clear.
MR. SCHLICTMANN: Correct.
JUDGE WOLF: Okay. So is there anything else in the
objection that you filed on August 25 that you
wish to question the receiver about—I’m sorry,
the trustee about?
MR. SCHLICTMANN: Well, the objection is a supplemental objection to our 8/5 objection—

App.8a
JUDGE WOLF: Okay, so—okay. So the objection you
filed on August 5 is Docket Number 642 in the
District Court case, and that’s the objection that
you want to question the receiver about.
MR. SCHLICTMANN: Correct.
JUDGE WOLF: And the relief that you asked for in
that objection on page 20 says, For these reasons,
so that Masiz may freely participate in the sale
process on the same terms applicable to every
other participant, Masiz respectfully requests that
the District Court and the Bankruptcy Court
clarify that if Mr. Masiz participates in the sale
process, he will not be subjected to an investigation by the District Court as to whether he
complied with the 2004 and 2017 consent decree
injunctions obtained by the SEC.
MR. SCHLICTMANN: Correct.
JUDGE WOLF: That’s the relief you’re seeking, right?
MR. SCHLICTMANN: Right. We want to participate
without threat of being investigated as explained
in that objection.
JUDGE WOLF: And I anticipated that I’d give you a
chance to discuss that further, but what would
you want to ask the trustee about that?
MR. SCHLICTMANN: Because the trustee has personal knowledge about—personal knowledge as to this
factual history, and the factual history—
everything he was asked about goes directly to
the validity of the reasons why Mr. Masiz has to
be subjected to an investigation. And I want to
be able to support my objection—he has testified,

App.9a
and that testimony is directly relevant to my
objection. I need to clarify the record—
JUDGE WOLF: Here, pause. You used an important
term, “relevant.”
MR. SCHLICTMANN: Yes.
THE COURT: The questioning has to promise to provide something relevant—
MR. SCHLICTMANN: Yes.
JUDGE WOLF:—so it’s not an undue waste of time.
Why—tell me what your objection is—and of
course I’ve read it, and it reiterates arguments
you’ve made before that I have addressed before
and are before the 1st Circuit to some extent, but
why—what is the objection and what questions
would you want to ask and why are they relevant?
MR. SCHLICTMANN: Okay. So the objection is that
the reasons that were given by the Court, by
yourself, at the July 10th hearing, you referred
back to your opinion, which you referred to
again today; and you specifically referred that it
was this collusion charge by ADEC, basically,
that the SEC settlement, okay, that resulted in
the lien which everybody’s been testifying to about
that was supposedly fraudulent is the reason
why you said, Because of ADEC’s accusations, I
don’t trust the SEC, and I don’t trust Mr. Masiz,
who’s a two-time loser; and, therefore, if he
comes in here and he wants to bid on these
assets, I’m going to treat him differently than
anyone else, and I’m going to subject him not
just to an investigation about whether he complied
with giving a disclosure, but I’m also going to

App.10a
investigate him whether he violated the securities
laws which both things are in the province of the
SEC and are inappropriate for the Court to go into,
and we believe we have a constitutional right
not to be excluded on that basis.
And since you’ve made an evidentiary hearing
on the very factual premise of our objection and
taken testimony, this is an evidentiary hearing
—and in your order both Courts said—noted our
objection and said that—
JUDGE WOLF: Which order are you referencing?
MR. SCHLICTMANN: The order that is the foundation of this evidentiary hearing. And what you
said—
JUDGE WOLF: What’s the date of the order, please?
MR. SCHLICTMANN: Okay. The date of the order is
20th, August 20, 2020, and it’s—August 20th is
the order. It’s the order that actually has brought
us to this evidentiary hearing, which converted
the approval hearing into an evidentiary hearing,
and now evidence has been taken.
JUDGE WOLF: So—okay.
Let me do the following: First, as to what was
said on July 10, the transcript will be the record.
Either you’ve misunderstood it or mischaracterized it, but, in any event, I think some clarification
may be helpful with regard to Mr. Masiz.
So, as I said, in this limited objection filed on
August 5th, Docket Number 642 in the District
Court case, Mr. Masiz requests assurances from
the District Court and the Bankruptcy Court

App.11a
that if he participates in the sales process he’ll not
be subjected to an investigation by the District
Court as to whether he complied with the 2004,
2017 consent decree injunctions obtained by the
SEC.
Mr. Masiz is not barred from participating in the
auction if we approve this so it goes forward.
If he’s affiliated with a bidder, that will have to
be disclosed.
MR. SCHLICTMANN: Correct.
JUDGE WOLF: And the sources of all funds utilized
by the successful bidder will have to be disclosed.
That’s in the notice that was given to all
potential bidders, that’s Docket 632 at page 6 of
19.
If those disclosures—if Mr. Masiz participates or
an affiliate participates—
MR. SCHLICTMANN: Let me be clear on that. There
will never be any question—if Mr. Masiz has
any connection, no matter how remote, to any
bidder, it is going to be fully and completely
disclosed to you. It will be direct and on the
record.
JUDGE WOLF: Okay. I’m listening to you. Take a
breath and continue to listen to me.
MR. SCHLICTMANN: All right.
JUDGE WOLF: Okay?
MR. SCHLICTMANN: Yes.
JUDGE WOLF: So if the—there is the possibility that
if Mr. Masiz participates that will. I ask questions.

App.12a
MR. SCHLICTMANN: Yes.
JUDGE WOLF: It’s possible he might be ordered to
provide some evidence of compliance and do that
on the public record. The reasons for that are
essentially described in my January 17, 2020
Memorandum and Order. It’s Docket 591, and
it’s 435 F.Supp.3d 281.
To the extent that Mr. Masiz would be treated
differently than other bidders, it’s because he’s
in what I hope is a unique situation.
I found that after he agreed to the injunction in
the Vaso case in 2004 I think, he at least negligently violated it in raising money for Biochemics.
And he’s now agreed to another injunction, which
is a court order, that requires certain disclosures
and, again, that he not violate the securities
laws.
The assurance that you’re seeking here in advance
that he won’t be investigated or inquired of would
essentially bind the authority of the Courts in
the following hypothetical scenario: Let’s say
Mr. Masiz is affiliated with a successful bidder,
might be the only bidder if he participates, and
the bid is $5 million, and somebody comes in
before the final hearing and says, Mr. Masiz
solicited me; he asked me to give money; he didn’t
make the disclosure required by the injunction, I
just learned of it, and I gave him a million
dollars for this venture or $5 million for this
venture based on what I believe are misrepresentations. I wouldn’t assure Mr. Masiz that I
wouldn’t investigate that.

App.13a
So I think the real—I think at the heart of this,
you haven’t been able to find anybody not associated with Mr. Masiz to buy this previously. So
if he’s still interested, if he’s able in a manner
that’s consistent with the injunction to raise funds,
to put together a group to buy this property that
he has faith in that third-parties haven’t demonstrated yet, despite the best efforts of Gordian
and others, you know, if you’re confident that
can be done lawfully and consistent with the
injunction, you just need to be prepared for the
possibility that you’ll have to provide some
evidence of that. That’s the situation.
And I don’t see that any questions to the trustee
are relevant to that, because the trustee’s interactions with Mr. Masiz are not the foundation or
haven’t contributed to the concerns that caused
me to issue my orders a year ago.
MR. SCHLICTMANN: So—
JUDGE WOLF: Go ahead.
MR. SCHLICTMANN: I want to see if—I’m calmed
down. I want to see if I can try and be helpful
here, all right.
I want to be very clear, what is the issue we are
having, all right. From our standpoint, the agency
that has the responsibility, the Article II responsibility who obtained the consent decree is the
SEC, and that is the agency to which Mr. Masiz
is in fear of. And normally, like every other
citizen, he’s got the consent decree, he knows
they obtained it, he knows they do their job, and
everyone knows the history.

App.14a
And it is the SEC’s obligation, responsibility to
carry out their authority, and under Article II, if
they do something, I have—I can deal with it in
the ordinary course.
When your Honor takes over that responsibility,
you deny me that opportunity. You’re the adjudicator, your Honor. You’re not the investigator, and
that’s the point we’re trying to make. So this has
a profound constitutional meaning to us.
I do not—there is no way, your Honor, that we are
engaging in behavior here which can be interpreted as somehow is going to prevent the SEC
from doing their job, okay. And if the SEC believes
because of this that there’s reasons to believe
that the consent decrees have been violated, it is
their obligation to deal with it so I can deal with
it in the ordinary course.
When you do it, your Honor, you are becoming
an Article II authority, not an Article III.
JUDGE WOLF: Okay—
MR. SCHLICHTMANN: Let me just—
JUDGE WOLF: Go ahead.
MR. SCHLICTMANN: I have told you as an officer of
the court Mr. Masiz wants to participate, and if
he does, he is going to be participating through
an entity, whether it has his name or not, his
company, whatever, will be fully disclosed; there
will be no question he’s participating, okay. Let’s
put that to the side.
Also, I understand this is a rule that applies to
everybody else, including Mr. Masiz, which we

App.15a
accept, there has to be a disclosure about source
of funds. And Mr. Masiz will make a disclosure
like everybody else in accordance with the terms
of the receiver and the trustees say. All right.
And we will do that. And I’m also going to tell
you, not because I have an obligation to as part
of an investigation, but I believe as an officer of
the court to see if I can remove an issue between
us that I really think is hurting everything,
hurting the estate, hurting the sale, causing all
this stuff, which is, your Honor, Mr. Masiz, has
not been raising funds, he hasn’t been, and he’s
not going to be all through this process. And he’s
not going to be using funds raised from an
investor in which he made a promise. He is not,
and I’m telling you that, not because you’re
compelling me to tell you but because I’m trying
to help you understand—but if the SEC thinks
what I just said is untrue or someone reports—
there’s a whole public record. If somebody knows
they have Mr. Masiz, you know, in a place where
very few people have, do you think—they would
go to the SEC, which would be appropriate, and
the SEC would do whatever they do, and we
would defend or concede or whatever it would
be. That’s the appropriate way.
But I can assure you I am not going to let Mr.
Masiz and Mr. Masiz is not going to let himself,
who wants to participate, do anything or raise
any money from anybody. It is going to be funds
that he has obtained within the family that are
his funds or funds generated by revenues, but it
will not be raised funds. It will not be publicly
raised funds, it will not be privately raised funds,

App.16a
it will not be inducing somebody to invest in this
operation. I’m telling you that, and the SEC can
hold me to that.
JUDGE WOLF: Okay. Here, thank you.
One, that confirms for me that there are no relevant questions for the trustee that you would
have, and I hope based on what I said you now
understand why that is better.
Two, right now there’s nothing—there’s nothing
before me. If he’s not going to do anything that
would implicate the terms of the injunction—
and I don’t want to paraphrase it—but if he’s not
going to do anything that implicates the terms of
the injunction, your concerns are moot.
To the extent you’re arguing again about the
authority that the District Court has and the
propriety of conduct, I addressed that in detail in
the January decision. I looked at it again on your
motion to reconsider, which I denied, and you
raised it with the 1st Circuit from which, of course,
I’ll take guidance when they decide the case.
Hopefully what you’ve said I think puts this all
in a more concrete context, and—but there’s
no—I’m not going to permit—I don’t even know
if you still want to question the trustee, but—
MR. SCHLICTMANN: Well, your Honor, we’re close.
I think there has to be—because I am before the
1st Circuit with an appeal and a petition for
prohibition, because we are I think we have to
be clear with each other. We’re close and maybe
we’re there. So I think the acid test would be I
have asked—officially I’ve asked for that relief,

App.17a
and the relief, you are correct, says that we
don’t—we want it clarified that he’s just going to
be subjected to the same terms as everyone else
and that he is not going to be singled out for any
kind of questioning or investigation that is not
consistent with anybody else. That’s what the
ruling—
JUDGE WOLF: The request for that relief is denied
for the reasons I explained to you a few moments
ago. That’s it.
MR. SCHLICTMANN: If you denied me the relief—
JUDGE WOLF: Yes.
MR. SCHLICTMANN: But you denied me the relief,
your Honor, which is the problem, I think,
procedurally here. You called for an evidentiary
hearing on the objections and you said in your
order—again, your Honor, I want us to resolve
this issue, trust me. But you say in your order,
Any party wishing to cross-examine the trustee
or the receiver with respect to the affidavits will
have an opportunity to do so—
JUDGE WOLF: You’re going too fast, perhaps, for
the stenographer.
MR. SCHLICTMANN: I’m sorry. It says, Any—
JUDGE WOLF: Go ahead. Say—put on the record
what you want to put on.
MR. SCHLICTMANN: Thank you, your Honor.
It says, The receiver and trustee will submit
affidavits having to do with the issues before us,
which includes our objection. Any party wishing
to cross-examine the trustee or the receiver with

App.18a
respect to the affidavits will have an opportunity to
do so at the sale and settlement approval hearing and further direct testimony may be permitted.
And then you said, If any objecting or responding party seeks to designate witnesses, identify
exhibits with respect to their objections or
responses, they shall do so and provide copies of
exhibits to opposing counsel—
JUDGE WOLF: Too fast.
MR. SCHLICTMANN: Sorry, your Honor.
It also says, If any objecting or responding party
seeks to designate witnesses or identify exhibits
with respect to their objections or responses, they
shall do so and provide copies of exhibits to
opposing counsel by the designation deadline.
Frankly, your Honor, the only one who actually
took advantage of that is Mr. Masiz, not ADEC,
not the SEC, not even the receiver and the trustee.
We have put in evidence, okay, which directly
bears—
JUDGE WOLF: Where’s the evidence?
MR. SCHLICTMANN: Mr. Masiz’s testimony accompanying the objection in support of it and the
record appendix supporting all the documents he
refers to.
JUDGE WOLF: Well, those matters are part of the
record before us and part of the case.
MR. SCHLICTMANN: That’s correct.

App.19a
JUDGE WOLF: Implicit in any order when a hearing
is established is that the parties will have an
opportunity to provide relevant evidence.
MR. SCHLICTMANN: Yes.
JUDGE WOLF: And evidence, the potential probative
value of which is not substantially outweighed
by wasting time.
And for the reasons I explained to you, the
trustee has no relevant evidence relating to the
reasons I just denied your request and has no
relevant evidence to the events that generated
the issue.
MR. SCHLICTMANN: Your Honor, may I briefly,
briefly—
JUDGE WOLF: No, no, this has got to end.
MR. SCHLICTMANN: I understand, your Honor, but
we have a procedural problem, and I have to at
least tell you the objection. It’s a due process
one, a fundamental one.
You have denied—you said in your order that we
are going to have an evidentiary hearing. You’ve
taken an evidentiary—you’ve taken evidence
which is directly relevant to my objection, and
you are denying my objection without allowing
me to put in the evidence you said I could put in
on cross-examination, and that’s a problem
procedurally.
You’ve now denied Mr. Masiz fundamental due
process. It violates your own order, and I’m trying
to prevent a procedural problem, an unnecessary
one for you, your Honor, and the proceedings.

App.20a
JUDGE WOLF: You haven’t identified any question
that would elicit relevant evidence from the
trustee, and that’s the end of that.
MR. SCHLICTMANN: Well, forgive me—
JUDGE WOLF: Stop, stop.
MR. SCHLICTMANN: Your Honor, you challenged—
you said I haven’t identified. You’ve never given
me an opportunity to do that; my documents do
that.
JUDGE WOLF: I asked you—
MR. SCHLICTMANN: I’m saying collusion. The fundamental premise—
JUDGE WOLF: Mr. Schlichtmann, I’m ordering you
to stop.
MR. SCHLICTMANN: Then I’ll stop.
JUDGE WOLF: I’m not asking you; I’m ordering you.
MR. SCHLICTMANN: All right, then I have no choice.
And I object, your Honor, and I will take whatever steps the law provides to assert Mr. Masiz’s
rights, and I think it’s very unfair and unfortunate
and it’s just and added unnecessary inconvenience
and expense. And we wanted to provide evidence
to you—
JUDGE WOLF: Stop. I ordered you to stop.
MR. SCHILCTMANN: I am stopping
JUDGE WOLF: I’ll order you to also order the transcript.

App.21a
ORDER OF THE DISTRICT COURT
(AUGUST 20, 2020)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,
CRAIG MEDOFF, and GREGORY S. KRONING,

Defendants.
________________________
C.A. No. 12-12324-MLW
_________________________________________
UNITED STATES BANKRUPTCY COURT
DISTRICT OF MASSACHUSETTS
________________________
IN RE: INPELLIS, INC.,

Debtor.
________________________
Chapter 7 Case No. 18-12844-CJP
Before: Mark L. WOLF, United States
District Judge, Christopher J. PANOS,
United States Bankruptcy Judge.

App.22a
The United States District Court for the District
of Massachusetts and the United States Bankruptcy
Court for the District of Massachusetts (the “Courts”)
having entered an Order on July 10, 2020 scheduling
a joint Zoom hearing for August 27, 2020 at 10:00 a.m.
(the “Sale and Settlement Approval Hearing”) regarding
the following motions filed in the above captioned cases
(C.A. No. 12-12324-MLW (the “BioChemics Action”)
and Case No. 18-12844-CJP (the “Inpellis Bankruptcy”), respectively): (i) the Motion for Entry of
Order Approving Stipulation By and Among Chapter
7 Trustee, Securities and Exchange Commission, and
ADEC Private Equity Investments, LLC (Inpellis
Bankr. Dkt. No. 253) (the “9019 Motion”) filed by
John J. Aquino, the duly appointed trustee (the
“Trustee”) of the Chapter 7 bankruptcy estate of
Inpellis, Inc. (“Inpellis”); (ii) the Amended Motion for
Entry of Order Authorizing Sale of Certain Personal
Property Assets by Public Sale Free and Clear of All
Liens, Claims and Encumbrances and Approving
Allocation of Sale Proceeds (Inpellis Bankr. Dkt. No.
254) (the “Inpellis Sale Motion”) filed by the Trustee;
and (iii) the Motion for the Entry of an Order
Authorizing the Sale of Assets by Public Auction
Free and Clear of Liens, Claims, Encumbrances and
Other Interests and Approving Allocation of Sale
Proceeds (Biochemics Action Dkt. No. 620) (the
“BioChemics Sale Motion”) filed by the court-appointed
receiver for BioChemics, Inc. (“BioChemics”), Mark
G. DeGiacomo (the “Receiver”) (the 9019 Motion and
Inpellis and BioChemics Sale Motions, collectively,
the “Motions”); and the Courts having established a
deadline to object to the 9019 Motion, the “50/50”
allocation of sale proceeds settlement set forth in the
Inpellis and BioChemics Sale Motions (the “Sale

App.23a
Proceeds Settlement”), and the proposed sale of assets
free and clear of liens, claims, and interests contemplated by the Inpellis and BioChemics Sale Motions,
and to respond to any objections; and Bio Strategies,
L.P. (“Bio Strategies”) having filed an omnibus objection (Inpellis Bankr. Dkt. No. 273; BioChemics Action
Dkt. No. 641) (the “Omnibus Objection”) to the Motions
and John Masiz, in addition to a prior limited objection
filed to the BioChemics Sale Motion (BioChemics
Action Dkt. No. 627), having filed an additional
limited objection (BioChemics Action Dkt. No. 642)
(the “Limited Objections,” together with the Omnibus
Objection, the “Objections”); and the Trustee (Inpellis
Bankr. Dkt. No. 277; BioChemics Action Dkt. No. 647),
the Receiver (Inpellis Bankr. Dkt. No. 278; BioChemics
Action Dkt. No. 648), and ADEC Private Equity Investments, LLC (“ADEC”)1 (Inpellis Bankr. Dkt. No. 279;
BioChemics Action Dkt. No. 649) having filed responses
to the Omnibus Objection (collectively, the “Responses”); upon consideration of the Motions, Objections,
and Responses, and in order to facilitate the conduct
of the Sale and Settlement Approval Hearing, the
Courts hereby order as follows.
(i)

The Sale and Settlement Approval Hearing
is converted to an evidentiary hearing by
Zoom video conference, at which the Courts
may consider taking evidence with respect
to the Motions.

1 The Securities and Exchange Commission also filed a joinder
in support of the Motions (Inpellis Bankr. Dkt. No. 275; BioChemics Action Dkt. No. 646).

App.24a
(ii) On or before August 25, 2020 at 11:59 p.m.,
the Trustee and Receiver shall file2 any supporting affidavits (the “Affidavits”) regarding
the 9019 Motion, the Sale Proceeds Settlement, and the proposed sale of assets free
and clear of liens, claims, and interests. The
Affidavits shall serve as direct testimony of
the Trustee and Receiver with respect to
the evidentiary burdens they must satisfy
in connection with the relief sought at the
Sale and Settlement Approval Hearing. The
Affidavits should also address whether any
bona fide dispute exists as to ownership of the
four patents and/or patent applications
regarding transdermally-delivered combination drug therapy for pain identified on
Schedule A to the Notice of Intended Public
Auction of Certain Assets Free and Clear of
Liens, Claims, Encumbrances and Other
Interests (Intellectual Property Assets)
(Inpellis Bankr. Dkt. No. 269) (collectively,
the “Disputed Assets”) such that an order
may be entered, if necessary, pursuant to 11
U.S.C. § 363(b) and (f)(4) with respect to the
Disputed Assets. Any party wishing to
cross-examine the Trustee or the Receiver
with respect to the Affidavits will have an
opportunity to do so at the Sale and Settlement Approval Hearing. Further direct
testimony may be permitted.

2 Items directed to be filed by the deadlines established in this
Order shall be filed in both cases.

App.25a
(iii) If the Trustee and Receiver intend to present
witnesses in addition to themselves or documentary exhibits not presented with the
Affidavits, they shall file any designation of
witnesses and/or exhibits, and provide copies
of exhibits to opposing counsel, on or before
August 25, 2020 at 11:59 p.m. (the “Designation Deadline”). If any objecting or responding
party seeks to designate witnesses or identify
exhibits with respect to their Objections or
Responses, they shall do so, and provide
copies of exhibits to opposing counsel, by
the Designation Deadline.
(iv) In addition, ADEC having identified in its
Response a potential conflict of interest
involving counsel to Bio Strategies, Holland
& Knight LLP (“H&K”), which firm ADEC
asserts previously represented Inpellis on
matters materially relevant to the Omnibus
Objection, Bio Strategies, H&K, and the
Trustee are directed to respond to the conflict
issues that have been raised on or before
August 24. 2020 at 11:59 p.m.
Entered this 20th day of August, 2020
/s/ Mark L. Wolf
United States District Judge
/s/ Christopher J. Panos
United States Bankruptcy Judge

App.26a
MEMORANDUM AND ORDER OF THE
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF MASSACHUSETTS
(JULY 28, 2020)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,
CRAIG MEDOFF, and GREGORY S. KRONING,

Defendants.
________________________
C.A. No. 12-12324-MLW
Before: Mark L. WOLF, United States District Judge.
WOLF, D.J.
The Securities and Exchange Commission (“SEC”)
brought this case against BioChemics, Inc. (“BioChemics”), its Chief Executive Officer John Masiz, and
others, alleging that material false and misleading
statements were made in connection with the sale of
BioChemics’ securities. In June 2017, the court granted
summary judgment for the SEC on its claims that
Masiz was negligent in making material false and
misleading statements in selling BioChemics securities.

App.27a
The court scheduled a hearing to decide whether it
should grant the SEC’s motion for summary judgment
on whether Masiz made those fraudulent representations intentionally. The parties then settled their
dispute.
In August 2017, the court entered the SEC’s and
Masiz’s jointly proposed Final Judgment against
him. See Dkt. No. 345. Among other things, Masiz
admitted negligently making false and misleading
material misrepresentations. He agreed to pay a
$120,000 fine and to an injunction prohibiting him
from violating federal securities laws in the future.
In addition, the Final Judgment required that if Masiz
solicited any investment in the future, he disclose, in
a specified manner, his history with the SEC, including
concerning this case and a 2004 injunction in another
case prohibiting him from violating federal securities
laws. Id. §§ I-IV. The court retained jurisdiction to
enforce the Final Judgment. Id. § VII.
For the reasons explained in detail in a January
17, 2020 Memorandum and Order, the court ordered
Masiz to file for the public record evidence of his
compliance with the Final Judgment and denied
Masiz’s motion to seal such evidence. Dkt. No. 591;
SEC v. BioChemics, Inc., 435 F. Supp. 3d 281 (D. Mass.
2020). Masiz has filed a Motion for Reconsideration
or in the Alternative to Alter or Amend that decision
(Dkt. No. 602, the “Motion”).
The First Circuit described the standard for
motions for reconsideration in United States v. Allen,
573 F.3d 42, 53 (1st Cir. 2009). “Motions for reconsideration are not to be used as a vehicle for a party to
undo its procedural failures or allow a party to
advance arguments that could and should have been

App.28a
presented to the district court prior to judgment.” Id.
“Instead, motions for reconsideration are appropriate
only in a limited number of circumstances: if the
moving party presents newly discovered evidence, if
there has been an intervening change in the law, or
if the movant can demonstrate that the original
decision was based on a manifest error of law or was
clearly unjust.” Id. As the First Circuit has also
stated, “reconsideration is ‘an extraordinary remedy
which should be used sparingly.’” Palmer v. Champion
Mortg., 465 F.3d 24, 30 (1st Cir. 2006) (quoting 11
Charles Alan Wright et al., Federal Practice and
Procedure § 2810.1 (2d ed. 1995)).
The court has considered the Motion, as well as
Masiz’s memorandum and affidavit filed in support
of it. See Dkt. Nos. 602, 603, 603-1. Masiz does not
submit newly discovered evidence. Nor does he
assert that there has been an intervening change in
the law. Rather, Masiz argues, in essence, that the
court’s decision was manifestly incorrect as a matter
of law and clearly unjust. These contentions rely in
part on misstatements of the court’s reasoning and,
in any event, are incorrect.
As explained in the January 17, 2020 Memorandum and Order, the court had the authority to
ensure compliance with the Final Judgment and had
a proper factual basis for exercising it. See Dkt. No.
591 at 19-23. In addition, the court had a proper
basis for requiring that the information concerning
compliance that Masiz belatedly submitted to the court
be made part of the public record. See id. at 24-27.
As the standards for the extraordinary relief
requested are not met, Masiz’s Motion for Reconsideration or in the Alternative to Alter or Amend the

App.29a
Court’s 1-17-20 Memorandum and Order (Docket No.
602) is hereby DENIED.
/s/ Mark L. Wolf
United States District Judge

App.30a
ORDER OF THE DISTRICT COURT
APPROVING NOTICE OF SALE
(JULY 20, 2020)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,
CRAIG MEDOFF, and GREGORY S. KRONING,

Defendants.
________________________
C.A. No. 12-12324-MLW
_________________________________________
UNITED STATES BANKRUPTCY COURT
DISTRICT OF MASSACHUSETTS
________________________
IN RE: INPELLIS, INC.,

Debtor.
________________________
Chapter 7 Case No. 18-12844-CJP
Before: Mark L. WOLF, United States
District Judge, Christopher J. PANOS,
United States Bankruptcy Judge.

App.31a

After a hearing conducted jointly by the United
States District Court for the District of Massachusetts and the United States Bankruptcy Court for the
District of Massachusetts (the “Courts”) on July 10,
2020 (the “Hearing”) on the following pending motions
in the above captioned cases (C.A. No. 12-12324-MLW
(the “BioChemics Action”) and Case No. 18-12844CJP (the “Inpellis Bankruptcy Case”), respectively):
(i) the Motion for Entry of Order Approving Stipulation
By and Among Chapter 7 Trustee, Securities and
Exchange Commission, and ADEC Private Equity
Investments, LLC (Inpellis Bankr. Case Dkt. No.
253) (the “9019 Motion”) filed by John J. Aquino, the
duly appointed trustee (the “Trustee”) of the Chapter
7 bankruptcy estate of Inpellis, Inc. (“Inpellis”); (ii)
the Amended Motion for Entry of Order Authorizing
Sale of Certain Personal Property Assets by Public Sale
Free and Clear of All Liens, Claims and Encumbrances
and Approving Allocation of Sale Proceeds (Inpellis
Bankr. Case Dkt. No. 254) (the “Inpellis Sale Motion”)
filed by the Trustee; and (iii) the Motion for the Entry
of an Order Authorizing the Sale of Assets by Public
Auction Free and Clear of Liens, Claims, Encumbrances and Other Interests and Approving Allocation
of Sale Proceeds (BioChemics Action Dkt. No. 620)
(the “BioChemics Sale Motion”) filed by the courtappointed receiver for BioChemics, Inc. (“BioChemics”),
Mark G. DeGiacomo (the “Receiver”) (the 9019 Motion
and Inpellis and BioChemics Sale Motions, collectively,
the “Motions”), the Courts entered orders establishing
certain deadlines with respect to the sale process
(collectively, the “Scheduling Orders”). See Ords. (BioChemics Action Dkt. No. 629 and Inpellis Bankr.
Case Dkt. No. 265). The Trustee and Receiver having

App.32a
submitted Proposed Notices of Intended Sale and
Request For Clarification of Scheduling Orders (BioChemics Action Dkt. No. 632 and Inpellis Bankr. Case
Dkt. No. 267) (the “Submissions”), and upon consideration of the Submissions and the request for
clarification regarding the objection deadlines set
forth in the Scheduling Orders, the Courts hereby
approve the modified sale notice attached hereto as
Exhibit 1 to this Order.
Entered this 20th day of July, 2020
/s/ Mark L. Wolf
United States District Judge
/s/ Christopher J. Panos
United States Bankruptcy Judge

App.33a
NOTICE OF INTENDED PUBLIC AUCTION OF
CERTAIN ASSETS FREE AND CLEAR OF
LIENS, CLAIMS, ENCUMBRANCES
AND OTHER INTERESTS
(INTELLECTUAL PROPERTY ASSETS)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,
CRAIG MEDOFF, and GREGORY S. KRONING,

Defendants.
________________________
C.A. No. 12-12324-MLW
_________________________________________
UNITED STATES BANKRUPTCY COURT
DISTRICT OF MASSACHUSETTS
________________________
IN RE: INPELLIS, INC.,

Debtor.
________________________
Chapter 7 Case No. 18-12844-CJP

App.34a
Before: Mark L. WOLF, United States
District Judge, Christopher J. PANOS,
United States Bankruptcy Judge.
Notice is hereby given, pursuant to 11 U.S.C.
§ 363, Fed. R. Bankr. P. 2002(a)(2), 6004 and 9019,
MLBR 2002-5 and 6004-1, 28 U.S.C. §§ 2001, 2002 &
2004 and the United States District Court’s equitable
receivership authority, that Mark G. DeGiacomo, the
court appointed receiver (the “Receiver”) of BioChemics, Inc (“BioChemics”) and John J. Aquino, the duly
appointed trustee (the “Trustee”) of the Chapter 7
bankruptcy estate of Inpellis, Inc. (“Inpellis”), intend
to jointly sell all of their interests in the respective
intellectual property assets of BioChemics and Inpellis
(the “Assets”) by public auction (the “Auction”) free
and clear of liens, claims, encumbrances, and other
interests as set forth in the Receiver’s Motion For the

Entry of an Order Authorizing the Sale of Assets by
Public Auction Free and Clear of Liens, Claims,
Encumbrances And Other Interests and Approving
Allocation of Sale Proceeds dated July 6, 2020, and
the Amended Motion of Chapter 7 Trustee for Entry
of an Order Authorizing Sale of Certain Personal
Property Assets by Public Sale Free and Clear of All
Liens, Claims, and Encumbrances and Approving
Allocation of Sale Proceeds dated June 25, 2020, each

motion filed in the respective above-captioned cases
(collectively, the “Sale Motions”). The Sale Motions
also seek authority to resolve certain disputes by
agreeing to evenly split the proceeds of the sale
between the receivership estate and the bankruptcy
estate. Additionally, in conjunction with his Sale
Motion, the Trustee has also filed his Motion For

App.35a

Entry of Order Approving Stipulation by and Among
Chapter 7 Trustee, Securities and Exchange Commission, and ADEC Private Equity Investments, LLC
seeking additional relief relating to the proposed
public auction sale (the “Stipulation Approval Motion”).
The Assets include all right, title and interest in
and to the intellectual property assets owned by
BioChemics and Inpellis, whether owned solely or
jointly, as described in the Sale Motions. The Assets
consist of all intellectual property rights, including,
without limitation, all know-how, patents, patent
applications, trademarks, service marks, and trade
names, and all claims to such intellectual property
rights, and including the specific patents and rights
identified on Schedule A attached hereto.
The Auction will be conducted jointly by the
Trustee and Receiver. The Auction will be held on
September 22, 2020 at 11:00 a.m. (prevailing Eastern
time) (the “Auction Date”) at the Receiver’s offices
located at Murtha Cullina LLP, 99 High Street, 20th
floor, Boston, MA 02110. Bidders may participate in
the Auction remotely via telephone or video conference, and, in light of Covid-19 concerns, the Trustee
and Receiver may, in their sole discretion, require all
bidding to be conducted remotely. The Trustee and
Receiver may, in their reasonable business judgment,
set a minimum bidding threshold/reserve at the
Auction, remove some or all of the Assets from the
Auction and/or reject any and all bids made for the
Assets at the Auction.
The following procedures shall also apply:
(i)

Deposit. A deposit of $50,000.00 (the “Deposit”) is required for bidders to participate in

App.36a
the Auction. The Deposit shall be paid to the
Trustee, in immediately available funds, no
later than seven (7) days before the scheduled
Auction Date and must also be accompanied
by documentation which, in the reasonable
discretion of the Receiver and Trustee,
satisfactorily evidences the bidder’s ability
to consummate the Sale as well as the
source of funds to be used.
(ii) Bidder Disclosures. Any bidders participating in the Auction must, no later than seven
(7) days prior to the Auction, provide the
Receiver and Trustee with:
(a) the full name and identity of the bidder
and any representative;
(b) disclosure of any relationship between
the bidder (including any affiliates of the
bidder), and BioChemics and/or Inpellis
(including any insiders or affiliates of
the foregoing);
(c) disclosure of any relationship between
the bidder (including any affiliates of the
bidder) and the Receiver and/or Trustee;
and
(d) disclosure of all sources of funds to be
utilized in connection with any successful bid.
(iii) Access To Electronic Data Room. The Trustee
shall make electronic access to due diligence
information available to prospective bidders
upon the receipt by the Trustee of an executed
acceptable non-disclosure agreement.

App.37a
(iv) Credit Bidding. Credit bidding shall not be
allowed at the Auction.
(v) Format. The Auction may be conducted in an
open cry or sealed bid format, or a combination of the two. The Trustee and Receiver
will announce the bidding format at the
start of the Auction.
(vi) Closing. The winning bidder at the Auction
shall deliver the full purchase price and close
the purchase of the Assets within fourteen
(14) business days of the entry of Orders of
the U.S. District Court and the U.S. Bankruptcy Court confirming the sales unless
extended by agreement in writing by the
Receiver and the Trustee (“Closing Date”).
In the event that the winning bidder does
not close the purchase of the Assets by the
Closing Date, the Trustee and Receiver may
sell the Assets to the next highest bidder
without delay and without the necessity of
further court approval.
The Assets will be sold free and clear of liens,
claims, encumbrances, and other interests, with all
such liens, claims, encumbrances, and other interests
attaching with equal effect and priority to the
proceeds of the Auction, subject to the “carve-out”
and proceeds allocation agreements as set forth in the
respective Sale Motions. The respective Sale Motions
provide for the allocation of gross sale proceeds on an
equal 50%-50% basis between the BioChemics
receivership estate and the Inpellis bankruptcy estate
(the “Proposed Proceeds Allocation”). The orders of
the U.S. Bankruptcy Court and the U.S. District
Court approving the sale of the Assets will also serve

App.38a
to bar the assertion against the Buyer, or such other
entity as may be the successful bidder for the Assets,
of any claims for successor liability.
If you are interested in bidding at the Auction
please contact the Receiver, the Trustee, or their
respective undersigned counsel at least seven (7)
days prior to the Auction Date, in order to (i) to
arrange for execution and delivery of a confidentiality agreement pursuant to which such additional
information regarding the assets will be provided, and
(ii) provide the required deposit and the additional
disclosures and information set forth herein, and (iii)
to arrange to appear at the Auction.
OBJECTIONS: Please take notice that any and
all objections to: (i) the Sale Motions; (ii) the Proposed Proceeds Allocation as set forth in the respective
Sale Motions; or (iii) the relief requested in the
Stipulation Approval Motion sale shall be filed in
writing in each of the above-captioned cases on or
before August 5, 2020 at 4:30 p.m. (the “Objection
Deadline”). A copy of any objection also shall be served
upon the undersigned. Any objection to the Sale
Motions, the Proposed Proceeds Allocation, or the Stipulation Approval Motion must state with particularity
the grounds for the objection and why the proposed
sale should not be authorized or the relief requested
not be granted. Objections filed in the BioChemics
receivership case shall be filed with the Clerk, United
States District Court, John Joseph Moakley U.S. Courthouse, 1 Courthouse Way, Boston, MA 02210. Objections filed in the Inpellis bankruptcy case shall be
filed with the Clerk, United States Bankruptcy Court,
John W. McCormack Post Office and Court House, 5
Post Office Square, Boston, MA 02109-3945. Responses

App.39a
to any objections shall be filed on or before August
14, 2020 at 4:30 p.m.
SALE AND SETTLEMENT APPROVAL HEARING: A joint Zoom videoconference hearing on the
relief requested in the Sale Motions, the Proposed
Proceeds Allocation and the Stipulation Approval
Motion and any objections thereto is scheduled to
take place on August 27, 2020 at 10:00 a.m. before the
Honorable Mark L. Wolf, U.S. District Court Judge,
and the Honorable Christopher J. Panos, Chief U.S.
Bankruptcy Judge, (the “Sale and Settlement Approval
Hearing”). Any party who has filed an objection must
either (i) participate at the Sale and Settlement
Approval Hearing or (ii) have a representative participate at the hearing, failing which the objection may
be overruled. If no objection to the relief requested in
the Sale Motions, the Proposed Proceeds Allocation
or Stipulation Approval Motion is timely filed, the
Courts, in their discretion, may cancel the scheduled
hearing and approve the relief requested without
hearing.
POST-AUCTION REPORT: On or before September 25, 2020, the Trustee and the Receiver shall file a
report in each respective case regarding the auction,
together with any supporting affidavits regarding
the sale and the status of the proposed purchaser as a
good faith purchaser and qualified bidder, and a proposed form of order approving the sale. Any objections
based upon the manner in which the Auction or sale
process was conducted, the propriety of the successful
bidder and qualification of the successful bidder as a
good faith purchaser, or the adequacy of the winning
bid or any back-up bid (“Auction Objections”) shall

App.40a
also be filed on or before September 25, 2020 in each
of the respective cases.
SALE CONFIRMATION HEARING: A joint evidentiary hearing is scheduled for October 2, 2020 at
2:00 p.m. before the Honorable Mark L. Wolf, U.S.
District Court Judge, and the Honorable Christopher
J. Panos, Chief U.S. Bankruptcy Judge, (the “Sale
Confirmation Hearing”). Any party who has filed an
Auction Objection must either (i) participate at the Sale
Confirmation Hearing or (ii) have a representative
participate at the hearing, failing which the objection
may be overruled. If no Auction Objections are timely
filed, the Courts, in their discretion, may cancel the
scheduled hearing and confirm the sale without
hearing.
PLEASE TAKE FURTHER NOTICE THAT copies
of the Sale Motions and/or Stipulation Approval Motion
may be obtained by making a request to undersigned
counsel to the Receiver or Trustee in writing or by
email.
MARK G. DEGIACOMO
RECEIVER OF BIOCHEMICS, INC.
By his counsel,
s/ Jonathan M. Horne
Mark G. DeGiacomo (BBO 118170)
Jonathan M. Horne (BBO 673098)
MURTHA CULLINA LLP
99 High Street

App.41a
Boston, MA 02110
617-457-4000
mdegiacomo@murthalaw.com
jhorne@murthalaw.com
JOHN J. AQUINO
CHAPTER 7 TRUSTEE
By his counsel
/s/ Donald F. Farrell, Jr.
Donald F. Farrell, Jr. (BBO 159580)
ANDERSON AQUINO LLP
240 Lewis Wharf
Boston, MA 02110
617-723-3600
dff@andersonaquino.com

App.42a
SCHEDULE A
BioChemics owns the following patents and patent
applications:
Subject

Methods and Compositions for Topical
Treatment of Medical Conditions
Including Wounds and Inflammation

Jurisdiction App Number

Filing Date

Status

US

12/358,078

22 Jan 2009

Issued

Pat Number

Issue Date

8,343,486

01 Jan 2013

Subject

Control of Blood Vessel Physiology to
Treat Skin Disorders

Jurisdiction App Number

Filing Date

Status

Canada

2,727,710

11 Jan 2009

Granted

Pat Number

Issue Date

2,727,710

01 Nov 2016

Subject

Control of Blood Vessel Physiology to
Treat Skin Disorders

Jurisdiction App Number

Filing Date

Status

US

12/483,073

11 Jun 2009

Issued

Pat Number

Issue Date

8,367,122

05 Feb 2013

App.43a

Subject

Methods and Compositions for Tattoo
Removal

Jurisdiction App Number

Filing Date

Status

France

2352543

04 Dec 2009

Granted

Pat Number

Issue Date
03 Apr 2019

Subject

Methods and Compositions for Tattoo
Removal

Jurisdiction App Number

Filing Date

Status

Germany

2352543

04 Dec 2009

Granted

Pat Number

Issue Date
03 Apr 2019

Subject

Methods and Compositions for Tattoo
Removal

Jurisdiction App Number

Filing Date

Status

UK

2352543

04 Dec 2009

Granted

Pat Number

Issue Date
03 Apr 2019

Subject

Methods and Compositions for Tattoo
Removal

Jurisdiction App Number

Filing Date

Status

US

12/631,698

04 Dec 2009

Issued

Pat Number

Issue Date

9,278,233

08 Mar 2016

App.44a

Subject

Methods and Compositions for Topical
Treatment of Medical Conditions
Including Wounds and Inflammation

Jurisdiction App Number

Filing Date

Status

US

13/693,346

04 Dec 2012

Issued

Pat Number

Issue Date

8,802,085

12 Aug 2014

Subject

Methods and Compositions for Tattoo
Removal

Jurisdiction App Number

Filing Date

Status

US

15/008,699

28 Jan 2016

Issued

Pat Number

Issue Date

10,322,077

18 Jun 2019

Subject

Control of Blood Vessel Physiology to
Treat Skin Disorders

Jurisdiction App Number

Filing Date

Status

US

15/140,801

28 Apr 2016

Abandon
ed

Subject

Topical formulation to treat muscular
dystrophy

Jurisdiction App Number
US

Filing Date

Status
Prefiling

App.45a

Subject

Transdermally-Delivered Combination
Drug Therapy for Pain

Jurisdiction App Number
PCT1

Subject

PCT
/US2018/031
729

Filing Date

Status

09 May 2018

Abandon
ed

Transdermally-Delivered Combination
Drug Therapy for Pain

Jurisdiction App Number

Filing Date

Status

EP1

18727554.0

09 May 2018

Pending

Subject

Transdermally-Delivered Combination
Drug Therapy for Pain

Jurisdiction App Number

Filing Date

Status

Canada1

3063870

09 May 2018

Pending

Subject

Transdermally-Delivered Combination
Drug Therapy for Pain

Jurisdiction App Number

Filing Date

Status

US1

15/974,796

09 May 2018

Issued

Pat Number

Issue Date

10,624,867

21 Apr 2020

1 John Masiz asserts that he is co-owner and has not assigned
his rights to BioChemics, Inc.

App.46a

Subject

Molecular Transdermal Transport
System

Jurisdiction App Number

Filing Date

Status

US

08/227,365

13 Apr 1994

Expired

Pat Number

Issue Date

5,460,821

24 Oct 1995

Subject

Molecular Transdermal Transport
System

Jurisdiction App Number

Filing Date

Status

US

08/542,068

12 Oct 1995

Expired

Pat Number

Issue Date

5,645,854

8 Jul 1997

Subject

Molecular Transdermal Transport
System

Jurisdiction App Number

Filing Date

Status

US

08/871,156

9 Jun 1997

Expired

Pat Number

Issue Date

5,853,751

29 Dec 1998

Subject

Molecular Transdermal Transport
System

Jurisdiction App Number

Filing Date

Status

Canada

2,164,109

22 Jun 1994

Expired

Pat Number

Issue Date

2,164,109

27 Sep 2005

App.47a

Subject

Molecular Transdermal Transport
System

Jurisdiction App Number

Filing Date

Status

Europe

92923196.3

22 Jun 1994

Expired

Pat Number

Issue Date

0 705 085

22 Mar 2000

Inpellis owns the following patents and patent applications:

Subject

Ibuprofen for Topical Administration

Jurisdiction App Number

Filing Date

Status

EP

10 Sept.
2009

Pending

Subject

19179229.0

Ibuprofen for Topical Administration

Jurisdiction App Number

Filing Date

Status

AU

10 Sept.
2009

Pending

Subject

2009291755

Ibuprofen for Topical Administration

Jurisdiction App Number

Filing Date

Status

CA

2749941

10 Sept.
2009

Pending

Pat Number

Issue Date

2749941

24 Apr 2018

Subject

Ibuprofen for Topical Administration

Jurisdiction App Number

Filing Date

Status

App.48a
EP

Subject

09792433.6

10 Sept.
2009

Pending

Ibuprofen for Topical Administration

Jurisdiction App Number

Filing Date

Status

PCT

10 Sept.
2009

Abandon
ed

Subject

PCT
/US2009/056
568

Ibuprofen for Topical Administration

Jurisdiction App Number

Filing Date

Status

US

13/604,040

5 Sept. 2012

Issued

Pat Number

Issue Date

9,561,174

2 Feb. 2017

Subject

Topical and Transdermal IbuprofenContaining Composition

Jurisdiction App Number

Filing Date

Status
Prefiling

BioChemics and Inpellis jointly own the following
patents and patent applications:
Subject

Transdermal Drug Delivery using an
Osmolyte and Vasoactive Agent

Jurisdiction App Number

Filing Date

Status

Canada

22 Sep 2009

Granted

2,702,604

App.49a

Subject

Pat Number

Issue Date

2,702,604

03 Dec 2013

Transdermal Drug Delivery using an
Osmolyte and Vasoactive Agent

Jurisdiction App Number

Filing Date

Status

EP

09740777.9

22 Sep 2009

Publishe
d

Subject

Transdermal Drug Delivery using an
Osmolyte and Vasoactive Agent

Jurisdiction App Number

Filing Date

Status

Mexico

MX/A/2010/0
04169

22 Sep 2009

Granted

Pat Number

Issue Date

349176

14 Jul 2017

Subject

Transdermal Drug Delivery using an
Osmolyte and Vasoactive Agent

Jurisdiction App Number

Filing Date

Status

US

12/564,841

22 Sep 2009

Issued

Pat Number

Issue Date

9,566,256

14 Feb 2017

Subject

Topical Formulation and Methods for
Drug Delivery

Jurisdiction App Number

Filing Date

Status

PCT

14 Mar 2014

Abandon
ed

PCT /US
14/29240

App.50a

Subject

Transdermal Drug Delivery using an
Osmolyte and Vasoactive Agent

Jurisdiction App Number

Filing Date

Status

US

14/980,348

28 Dec 2015

Issued

Pat Number

Issue Date

10,537,536

21 Jan 2020

Subject

Transdermal Drug Delivery using an
Osmolyte and Vasoactive Agent

Jurisdiction App Number

Filing Date

Status

US

14/996,968

15 Jan 2016

Subject

Transdermal Drug Delivery using an
Osmolyte and Vasoactive Agent

Published

Jurisdiction App Number

Filing Date

Status

Mexico

14 Jul 2017

Pending

Subject

MX/A/2017/0
09307

Solution-Based Transdermal Drug
Delivery System

Jurisdiction App Number

Filing Date

Status

Canada

2,360,590

23 Oct 2001

Granted

Pat Number

Issue Date

2,360,590

8 Jun 2010

Subject

Solution-Based Transdermal Drug
Delivery System

Jurisdiction App Number

Filing Date

Status

App.51a
US

Subject

09/698,483

27 Oct 2000

Pat Number

Issue Date

6,635,274

21 Oct 2003

Issued

Solution-Based Transdermal Drug
Delivery System

Jurisdiction App Number

Filing Date

Status

Australia

200179417

15 Oct 2001

Granted

Pat Number

Issue Date

783924

6 Apr 2006

Subject

Methods of Device-Assisted Drug
Delivery

Jurisdiction App Number

Filing Date

Status

Australia

2005286822

20 Sep 2005

Granted

Pat Number

Issue Date

2005286822

18 Aug 2011

Subject

Methods of Device-Assisted Drug
Delivery

Jurisdiction App Number

Filing Date

Status

Canada

2,569,285

20 Sep 2005

Granted

Pat Number

Issue Date

2,569,285

6 Dec 2011

Subject

Methods of Device-Assisted Drug
Delivery

Jurisdiction App Number

Filing Date

Status

App.52a
Brazil

0513446-3

Subject

Methods of Device-Assisted Drug
Delivery

20 Sep 2005

Pending

Jurisdiction App Number

Filing Date

Status

India

20 Sep 2005

Abandon
ed

Subject

7601/DELN
P/2006

Methods of Device-Assisted Drug
Delivery

Jurisdiction App Number

Filing Date

Status

Mexico

Mx/a/2007/0
01222

30 Jan 2007

Granted

Pat Number

Issue Date

300417

19 Jun 2012

Subject

Bifunctional Synthetic Molecules

Jurisdiction App Number

Filing Date

Status

US

11/820,172

18 Jun 2007

Issued

Pat Number

Issue Date

8,354,116

15 Jan 2013

Subject

Bifunctional Synthetic Molecules

Jurisdiction App Number

Filing Date

Status

Canada

2,690,357

17 Jun 2008

Granted

Pat Number

Issue Date

2,690,357

25 Mar 2014

Subject

Bifunctional Synthetic Molecules

Jurisdiction App Number

Filing Date

Status

App.53a
Europe

8768535.9

Subject

Bifunctional Synthetic Molecules

17 Jun 2008

Abandon
ed

Jurisdiction App Number

Filing Date

Status

Hong Kong

HK1142815

17 Dec 2010

Abandon
ed

Subject

Bifunctional Synthetic Molecules

Jurisdiction App Number

Filing Date

Status

India

8551/DELN
P/2009

29 Dec 2009

Abandon
ed

Subject

Bifunctional Synthetic Molecules

Jurisdiction App Number

Filing Date

Status

Mexico

Mx/a/200901
3759

15 Dec 2009

Granted

Pat Number

Issue Date

311871

31 Jul 2013

BioChemics owns the following registered trademarks:
Mark
Application Number
Filing Date
Status
Registration Number
Registration Date

DR.DOG
75/111,610
30 May 1996
Registered
2,457,502
5 Jun 2001

App.54a
Mark
Application Number
Filing Date
Status
Registration Number
Registration Date
Mark
Application Number
Filing Date
Status
Registration Number
Registration Date
Mark
Application Number
Filing Date
Status
Registration Number
Registration Date
Mark
Application Number
Filing Date
Status
Registration Number
Registration Date

DR.DOG
75/977,412
30 May 1996
Registered
2,235,427
23 Mar 1999
OSTEON
75/789,971
1 Sep 1999
Registered
2,511,038
20 Nov 2001
REPIDERM
76/311,455
11 Sep 2001
Registered
3,066,248
7 Mar 2006
DERMA-RELEASE
78/814,979
15 Feb 2006
Registered
3,684,541
15 Sep 2009

App.55a
Mark
Application Number
Filing Date
Status
Registration Number
Registration Date
Mark
Application Number
Filing Date
Status
Registration Number
Registration Date
Mark
Application Number
Filing Date
Status
Registration Number
Registration Date
Mark
Application Number
Filing Date
Status
Registration Number
Registration Date
Mark
Application Number

DERMAL ELASTICS
77/408,234
28 Feb 2008
Registered
3,743,435
26 Jan 2010
DERMAL ELASTICS
TECHNOLOGIES
77/408,263
28 Feb 2008
Registered
3,753,420
23 Feb 2010
BIO-SPECIAL TY
PRODUCTS
77/692,831
17 Mar 2009
Registered
3,861,623
12 Oct 2010
VAS-EX
77/825,932
14 Sep 2009
Registered
3,901,599
4 Jan 2011
B1O-SCRIPTIVES
77/822,554

App.56a
Filing Date
Status
Registration Number
Registration Date
Mark
Application Number
Filing Date
Status
Registration Number
Registration Date

9 Sep 2009
Registered
3,826,392
27 Jul 2010
ALO-VERIX
77/825,966
14 Sep 2009
Registered
3,871,380
2 Nov 2010

Inpellis owns the following registered trademarks:
N/A

App.57a
ORDER OF THE COURT OF APPEALS
FOR THE FIRST CIRCUIT
(MAY 21, 2020)
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff-Appellee,
v.
JOHN J. MASIZ,

Defendant-Appellant,
BIOCHEMICS, INC.,

Defendant-Appellee,
GREGORY S. KRONING; CRAIG MEDOFF,

Defendants.
________________________
No. 19-2206
Appellant John Masiz filed a notice of appeal on
November 22, 2019 (D.E. No. 585) in 1:12-cv-12324
appealing the district court order (D.E. No. 582)
which denied his request for an extension of time to
file certain unredacted documents in the public record.
The challenged order does not appear to be a
final judgment or an appealable interlocutory order,

App.58a
and therefore, this court may not have jurisdiction to
hear this appeal. See 28 U.S.C. § 1291; 1292. See also
Corporacion Insular de Seguros v. Garcia, 876 F.2d
254, 257 (1st Cir. 1989) (noting that a party “can gain
the right of appeal from the discovery order by
defying it, being held in contempt, and then appealing
from the contempt order, which would be a final
judgment as to them.”)
Additionally, the appeal appears to now be moot
in light of appellant’s January 30, 2020 filing
towards compliance with the district court’s order.
Accordingly, appellant is directed either to move
for voluntary dismissal pursuant to Fed. R. App. P.
42(b) or to show cause, in writing, why this appeal
should not be dismissed as moot. The failure to take
either action by June 4, 2020 may lead to dismissal
of the appeal for lack of diligent prosecution. 1st Cir.
R. 3.0(b).
By the Court:
Maria R. Hamilton
Clerk
cc:
Donald Campbell Lockhart
Martin F. Healey
David H. London
Kathleen Burdette Shields
Theodore Weiman
Jan Richard Schlichtmann

App.59a
John A. Sten
Michael P. Angelini
Douglas Thomas Radigan
Francis J. DiMento Sr.
Keith L. Sachs
Orestes G. Brown
Peter Sabin Willett
Jonathan M. Albano
Howard M. Cooper
Elizabeth M. Bresnahan
Joseph M. Cacace
Mark G. DeGiacomo
Taruna Garg
Michael J. Fencer

App.60a
MEMORANDUM AND ORDER OF THE
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
(JANUARY 17, 2020)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,
CRAIG MEDOFF, and GREGORY S. KRONING,

Defendants.
________________________
No. 12-12324-MLW
Before: Mark L. WOLF, United States District Judge.
I.

Summary

For the reasons explained in this Memorandum,
the court is denying the November 22, 2019 Emergency
Motion by Defendant John Masiz Requesting an
Order Staying the Court’s 11-5-19 (Doc. #574), 11-2019 (Doc. #579) & 11-22-19 (Doc. #582) Orders so that
Masiz may Immediately Appeal the Court’s Orders
Denying Masiz Relief (Dkt. No. 584) (the “Emergency
Motion”). Since September 2019, Masiz has repeatedly
failed to obey orders directing him to file, for the

App.61a
public record, evidence relating to whether he has
complied with the injunction prohibiting him from
again violating federal securities laws and to make
certain disclosures concerning his history to potential
investors that he solicits. The documents at issue
also relate to decisions the court must make in this
continuing litigation.
The court granted a temporary stay on November
22, 2019 in order to consider the arguments Masiz
could—and should—have made in response to the September 6, 2019 Order he did not obey and in response
to subsequent orders that he also did not obey.
On November 21, 2019, Masiz requested a stay
to permit him to focus on mediation of a dispute that
relates to this case of 45 days or until seven days
after the mediation concluded, which the court denied.
The temporary stay resulting from the November 22,
2019 Emergency Motion for a stay pending appeal
has been in effect for more than 45 days. The
mediation concluded unsuccessfully on December 16,
2019. Masiz’s belated, November 22, 2019 claims
that the court lacks the authority to order the
submission of documents and information relevant to
issues the court must decide and to whether Masiz
has complied with the injunction against him are
unmeritorious. In addition, he has not satisfied the
standards for extending the stay pending appeal.
Masiz reportedly did, as ordered, provide the
documents and information at issue to the Securities
and Exchange Commission (“SEC”). There is no justification for Masiz’s refusal to submit the documents
and information for the court’s consideration, and to
do so on the public record.

App.62a
Therefore, unless the First Circuit otherwise
orders, Masiz is being ordered to file, by January 30,
2020, for the public record, the documents and information he was first ordered to file by September 12,
2019, and later ordered to file by November 22, 2019.
II.

Procedural History

In 2012, the SEC brought this case against
BioChemics, Inc. (“BioChemics”), its Chief Executive
Officer John Masiz, and others, alleging that material
false and misleading statements were made in connection with the sale of BioChemics’ securities. This
was not the first time Masiz was accused of fraud in
the sale of securities.
In 2004, the SEC accused Masiz of fraud in connection with the sale of securities of Vaso Active
Pharmaceuticals, Inc. (“Vaso”). Masiz, without admitting liability, agreed to a judgment against him that
required that he pay an $80,000 civil penalty and not
serve as an officer or director of a publicly traded
company for five years. See Final Judg. as to Deft. J.
Masiz, SEC v. Vaso Active Pharm., Inc., No. 04-CV01395-RJL (D.D.C. Sept. 13, 2004), Dkt. No. 5. Masiz
was also permanently enjoined from violating federal
securities laws. See id.
In the instant case, in 2015, BioChemics agreed
not to contest liability and to pay a substantial judgment against it. The court rejected the first proposed
judgment submitted by the SEC because it questioned whether BioChemics had the means to pay
what the court determined would be an almost
$18,000,000 judgment and because the SEC had not
attempted to assure BioChemics could pay it. See Mar.
18, 2015 Hr’g Tr. 5:10 (Dkt. No. 139).

App.63a
The parties subsequently jointly presented a
revised proposed consent judgment that required
that BioChemics pay $17,897,884 to the SEC in six
instalments within the next twelve months, with the
first payment due no later than seven months after
the entry of judgment. See Docket No. 121. After a
hearing, on March 25, 2015, the court entered that
judgment. See Suppl. Judg. (Dkt. No. 123).
BioChemics timely made the first required payment of $750,000. BioChemics did not, however, make
any of the additional required payments. The SEC
informed the court that BioChemics, with Masiz as
CEO, had transferred to third parties all of the
assets it previously had to satisfy the judgment. See
Jan. 27, 2016 Hr’g Tr. 12 (Dkt. No. 174). Nevertheless, the SEC joined BioChemics in requesting that
the court provide BioChemics another twelve months
to pay the judgment. In a settlement agreement providing for a Modified Judgment, BioChemics agreed
to give the SEC a first-priority security interest in its
assets, and to cause an entity that BioChemics had
created called the Shareholder Resolution Trust (the
“Trust”), and Inpellis, Inc. (“Inpellis”), to give the SEC
a first-priority security interest in their assets. The
court entered the Modified Judgment on May 25, 2016.
See Docket No. 202. The settlement agreement was
not submitted to the court until June 5, 2017 and,
therefore, was not available to the public when the
Modified Judgment was entered. See Docket No. 3071. The parties’ April 14, 2016 joint memorandum in
support of the proposed Modified Judgment did not
indicate that the lien the SEC would obtain on the
assets of Inpellis, which was not a party in this case,

App.64a
would severely prejudice existing creditors of Inpellis.
See Docket No. 197-2.
Inpellis had been a subsidiary of BioChemics
which held a world-wide, royalty-free license to use
BioChemics’ intellectual property. In 2015, BioChemics
transferred its shares in Inpellis to the Trust, in
what the SEC suggests was a fraudulent conveyance
or at least a conveyance without consideration. See
Jan. 27, 2016 Tr. 14:17-15:3 (Dkt. No. 174). BioChemics
subsequently transferred to Inpellis ownership of its
intellectual property in exchange for the $750,000 BioChemics used to make the first payment on the judgment in this case.1
Inpellis had raised money to finance an Initial
Public Offering (“IPO”) of its stock. Among other
investors, ADEC Private Equity Investments, LLC
(“ADEC”), in 2015, loaned Inpellis $3,000,000 to
finance the IPO. The SEC was investigating Inpellis
for possible fraud in connection with the proposed
IPO. That investigation was terminated when the SEC
received its first-priority security interest in the
assets of Inpellis, and Inpellis abandoned its pursuit
of the IPO without informing its creditors.
In May 2017, ADEC moved for relief from the
Modified Judgment after Inpellis defaulted on its
obligations to pay ADEC, and ADEC learned Inpellis
1 As Inpellis had a world-wide license to use BioChemics’ intellectual property for free, questions have been raised concerning
whether ownership of the intellectual property had any value to
Inpellis and, in any event, whether it was worth $750,000. There
is, therefore, a question of whether the payment by Inpellis of
$750,000 was a fraudulent conveyance made to benefit BioChemics.

App.65a
had given a first-priority security interest in its assets
to the SEC and was no longer pursuing an IPO. See
Mot. for Relief (Dkt. No. 275). ADEC alleged that it
had loaned Inpellis $3,000,000 to finance an IPO in
reliance on Inpellis’ representation that Inpellis was no
longer affiliated with BioChemics. See Mem. Supp.
Mot. for Relief 3-4 (Dkt. No. 276); see also Ross Decl.
¶¶ 4-5 (Dkt. No. 277) (Inpellis represented it “[was]
not an affiliate of BioChemics”); Clarke Decl. ¶¶ 5-8
(Dkt. No. 278) (stating board of directors of Inpellis
had not approved the grant of the security interest to
the SEC). ADEC also alleged that the Inpellis grant
of the first-priority security interest in its intellectual
property to the SEC was a fraudulent conveyance,
and that the SEC was complicit in it because the
SEC had terminated its investigation of the proposed
Inpellis IPO only after it received that security interest.
See Mem. Supp. Mot. for Relief 4-6 (Dkt. No. 276).
On June 15, 2017, the court granted summary
judgment for the SEC on its claims that Masiz was
negligent in making material false and misleading
statements in the offering and selling of BioChemics
securities. See June 15, 2017 Hr’g Tr. 60:14-18 (Dkt.
No. 323); June 15, 2017 Order ¶ 1 (Dkt. No. 319).
The court scheduled a further hearing to address
whether it should grant the SEC’s motion for summary
judgment on the issue of whether Masiz made those
fraudulent representations intentionally. Id.
Prior to that hearing, the SEC and Masiz reported
that they had reached an agreement to resolve the
case against him. They asked the court to refrain from
ruling on the remainder of the SEC’s motion for summary judgment. See Docket No. 339. The court did so.

App.66a
On August 18, 2017, the court entered the parties’
jointly proposed Final Judgment as to Defendant John
J. Masiz. See Docket No. 345. Among other things,
Masiz admitted negligently making false and misleading material misrepresentations and agreed to pay a
$120,000 fine. He also agreed to another injunction
prohibiting him from violating federal securities laws
and, if he solicited any investment in the future, to
disclose his history with the SEC.
More specifically, the Final Judgment states, in
part, that:
I.
IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that Defendant is permanently restrained
and enjoined from violating Section 17(a)(2) and (a)(3)
of the Securities Act [15 U.S.C. §§ 77q(a)(2) and (a)(3)]
in the offer or sale of any security by the use of any
means or instruments of transportation or communication in interstate commerce or by use of the mails,
directly or indirectly:
(a) to obtain money or property by means of
any untrue statement of a material fact or
any omission of a material fact necessary in
order to make the statements made, in light
of the circumstances under which they were
made, not misleading; or
(b) to engage in any transaction, practice, or
course of business which operates or would
operate as a fraud or deceit upon the purchaser.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that, as provided in Federal Rule of Civil

App.67a
Procedure 65(d)(2), the foregoing paragraph also binds
the following who receive actual notice of this Final
Judgment by personal service or otherwise: (a) Defendant’s officers, agents, servants, employees, and attorneys; and (b) other persons in active concert or participation with Defendant or with anyone described in (a).
II.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that Defendant is permanently restrained
and enjoined from providing information to, soliciting,
or accepting investments or funds from, any investor
or potential investor regarding the offer or sale of
any securities issued by any entity that Defendant
directly or indirectly owns, controls, consults for, or
is employed by, without first providing such person with
the following written disclosure regarding Defendant’s prior regulatory history, and keeping a written
record that he provided such written disclosure to
that person:
“I, John Masiz, make the following disclosure
concerning my regulatory history:
1.

SEC v. Vaso Active Pharmaceuticals, Inc. and
John Masiz, No. 04-CV-1395-RJL (D.D.C.).

See SEC Litigation Release No. 18834, dated
August 17, 2004, with additional statement, that
is attached hereto.2
2.

SEC v. BioChemics, Inc., et al., No. 12-cv12324-MLW (D. Mass.).

2 The SEC Litigation Release No. 18834, dated August 17, 2004,
is attached to this Memorandum as Exhibit A.

App.68a
On December 14, 2012, the Commission filed a
lawsuit against BioChemics, Inc., Masiz, and two
others, charging them with securities fraud in
violation of Section 10(b) of, and Rule 10b-5 under,
the Exchange Act and Section 17(a) of the Securities Act. See SEC v. BioChemics, Inc. et al., No.
12-12324-MLW (D. Mass.). On 8/18/18 the Commission dismissed the claims against Masiz under
Section 10(b) of, and Rule 10b-5 under, the Exchange Act and Section 17(a)(1) of the Securities
Act. The remainder of the Commission’s claims
against Masiz were resolved by Settlement entered
as a Final Judgment on 8/18/17. Pursuant to this
Final Judgment, Masiz admitted that he violated
Sections 17(a)(2) and (a)(3) of the Securities Act.
The Final Judgment enjoined Masiz from future
violations of these provisions, prohibited Masiz
from acting as an officer or director of a public
company, and ordered him to pay a $120,000
civil penalty. The Final Judgment also enjoined
Masiz from providing information to, soliciting,
or accepting investments or funds from, any
investor or potential investor regarding the offer
or sale of any securities issued by any entity
Masiz directly or indirectly owns, controls, consults
for, or is employed by, without first providing this
written disclosure and keeping a written record
that he provided this disclosure to that person.”
III.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that, pursuant to Section 20(e) of the
Securities Act [15 U.S.C. § 77t(e)],

App.69a
Defendant is prohibited from acting as an
officer or director of any issuer that has a class
of securities registered pursuant to Section
12 of the Securities Exchange Act of 1934
(“Exchange Act”) [15 U.S.C. § 781] or that is
required to file reports pursuant to Section
15(d) of the Exchange Act [15 U.S.C. § 78o(d)].

Id. §§ I-III (emphasis added).
In summary, Masiz was accused of making fraudulent statements in the sale of Vaso securities, paid
an $80,000 penalty to settle that charge, and was
permanently enjoined from making fraudulent statements in any future solicitation of investments. This
court subsequently found, in effect, that Masiz violated
that injunction by at least negligently making material
misrepresentations in connection with the offering
and selling of BioChemics’ securities. The court did not
decide whether Masiz had made those misrepresentations intentionally. The court did, however, issue
another injunction prohibiting Masiz from making
fraudulent statements in connection with soliciting
investments. It also ordered Masiz to make full disclosure to any potential investor of that injunction,
the charges against him and the penalties imposed
on him in the Vaso and BioChemics cases, and directed Masiz to keep a written record of each required
disclosure.
Despite being afforded additional time to attempt
to do so, by October 2018 BioChemics had been unable
to find a buyer for its intellectual property and, therefore, had paid only about $1,000,000 of the almost
$18,000,000 judgment against it, which was accruing
interest. See Pl. Status Rpt. 1 (Dkt. No. 420). Therefore,
on October 9, 2018, on motion of the SEC, the court

App.70a
appointed a receiver for BioChemics. See Docket No.
452. The Receiver was given “exclusive jurisdiction
and possession of all [BioChemics] property,” id. ¶ 1,
and directed to “marshal, pursue, and preserve the
Receivership Assets with the objective of maximizing
the recovery of assets,” id. ¶ 2.
On July 31, 2019, the Receiver moved for approval
of a process to sell BioChemics’ intellectual property.
See Mot. for Approval of Bidding Procedures ¶ 13 (Dkt.
No. 542). The Receiver proposed an auction that would
start with a bid to sell BioChemics’ assets to BioPhysics
Pharma, Inc. (“Biophysics”) for $17,500,000, with
$4,000,000 to be paid in cash at closing. See Receiver’s
Mot. for Sale 1 (Dkt. No. 541). The Receiver characterized BioPhysics as a company owned and controlled
by Masiz that was formed in June 2017. See Mot. for
Approval of Bidding Procedures ¶ 13 (Dkt. No. 542);
ADEC Opp’n to Mot. for Sale 15 (Dkt. No. 548). It
reportedly occupies Inpellis’ former lab space and
employs former employees of Inpellis, including
Inpellis’ chief scientist. See Sept. 5, 2019 Hr’g Tr. 60:1319 (Dkt. No. 563); ADEC Opp’n to Mot. for Sale 15;
Dec. 19, 2018 Inpellis Creditors Mtg. Tr. 111:16-22,
112:3-4, 113:12-15, 114:21-115:1, 135:12-20 (Dkt. No.
548-4).
At a September 5, 2019 hearing, the court raised
questions about the proposed “auction.” More specifically, it questioned what, if anything, the Receiver had
done to determine whether BioPhysics had $4,000,000.
It also questioned whether Masiz was being held out
as an officer or director of Biophysics; whether Masiz
had played a role in raising money for BioPhysics;
whether Masiz had made the disclosures to potential
investors required by the judgment against him in

App.71a
this case; whether Masiz had maintained the required
written record of any such disclosures; and whether
BioPhysics intends to raise money publicly in a
manner that could implicate the judgment against
Masiz. See Sept. 5, 2019 Hr’g Tr. 7 (Dkt. No. 563). As
the court was not satisfied with the responses to these
questions, it denied without prejudice the Receiver’s
request to sell BioChemics’ intellectual property in
an auction, Docket Nos. 541, 542, 543, at which it
was foreseeable that BioPhysics, controlled by Masiz,
would likely be the only bidder. See Sept. 5, 2019
Hr’g Tr. 87-88 (Dkt. No. 563); Sept. 6, 2019 Order ¶ 2
(Dkt. No. 559).
In view of Masiz’s history, including the court’s
finding that Masiz had in essence violated the
injunction in the Vaso case by negligently making
material false and misleading statements in raising
money for BioChemics, ADEC’s charges that fraud
had been committed in raising money for an Inpellis
IPO, and that, as the controlling shareholder of BioChemics, Masiz had engineered a fraudulent conveyance by Inpellis of its intellectual property to secure
the SEC’s judgment against BioChemics, the court
was concerned that if Masiz had successfully participated in raising $4,000,000 for BioPhysics, he may have
failed to make the disclosures to investors required by
the judgment against him, and that any such misconduct might be continuing. Therefore, on September
6, 2019, the court ordered that:
Defendant John Masiz shall, by September
12, 2019, file an affidavit providing: (a) a
list of investors and potential investors from
whom he has solicited funds for Biophysics
Pharma, Inc. or any other entity since the

App.72a
entry of Final Judgment on August 18, 2017;
(b) the written disclosure that he provided
to each investor and potential investor he
solicited; and (c) the contemporaneous written
record of such disclosures required by Section
II of the Final Judgment as to Defendant
John J. Masiz (Dkt. No. 345). The SEC shall,
by September 19, 2019, review Mr. Masiz’s
affidavit and report whether it believes Mr.
Masiz has complied with the relevant requirements of the Final Judgment.
Sept. 6, 2019 Order ¶ 5 (Dkt. No. 559).
On September 12, 2019, Masiz filed a brief affidavit. He did not, as ordered, file a list of actual or
potential investors he had solicited for BioPhysics,
the written disclosure provided to each, or any contemporaneous records of such disclosures. See Docket
No. 562-1. Nor did Masiz request relief from the
order that he do so. However, on September 16, 2019,
Masiz moved to file under seal the required documents, which he represented had been delivered to
the SEC. See Docket No. 565. He stated that the SEC
assented to the motion to seal. See id. Masiz did not,
however, file an affidavit or memorandum in support
of the motion to seal as required by Rule 7.1(b)(1) of
the Local Rules of the United States District Court
for the District of Massachusetts.
On September 19, 2019, the SEC reported that it
had received the documents Masiz had been ordered
to file. See Docket No. 566. It stated that: Masiz had
participated in 80 solicitations of investments in
BioPhysics; Masiz represented that the required written
disclosures had been provided directly to potential
investors 73 times; in the other seven instances the

App.73a
disclosures were included in a drop box linked to an
email, which for the SEC “raised concerns that an
important written disclosure like that required by
the final judgment could be buried by simply providing
a link to a much larger collection of documents. . . . ” Id.
In a November 5, 2019 Order, the court questioned
whether the sealing belatedly requested by Masiz
was justified in view of the common law presumption
that the public should have access to documents upon
which a court relies in determining the substantive
rights of litigants “and in performing its adjudicatory
function.” Dkt. No. 574 (citing and quoting FTC v.
Standard Fin. Mgmt. Corp., 830 F.2d 404, 410 (1st Cir.
1987)). As the court explained, “[p]ublic access is particularly appropriate where, as here, the government is
a party.” Id. at 2. Therefore, “‘[o]nly the most compelling
reasons can justify non-disclosure of judicial records,’
and the burden of proof is on the party seeking confidentiality.” Id. (quoting Standard Fin. Mgmt. Corp.,
830 F.2d at 410-11). “Although certain justifications
such as the protection of documents subject to attorney-client privilege or privacy rights ‘can limit the
presumptive right of access to judicial records,’ Ark.
Teacher Ret. Sys. v. State Street Bank & Tr. Co., 391 F.
Supp. 3d 167, 169 (D. Mass. 2018) (quoting Standard
Fin. Mgmt. Corp., 830 F.2d at 411), even selective
sealing ‘must be based on a particular factual
demonstration of potential harm, not on conclusory
statements.’’’ Id. (quoting United States v. Kravetz,
706 F.3d 47, 60 (1st Cir. 2013)).
The court noted that Masiz had not filed the
affidavit or memorandum in support of the motion to
seal required by the Local Rules. See id. Nor had he
articulated any reason why evidence concerning

App.74a
whether he had complied with the disclosure requirements of the judgment against him, which consists of
documents provided to third parties, should not be
part of the public record. See id. Nevertheless, the court
provided Masiz an opportunity to attempt to do so.]
More specifically, on November 5, 2019, the court
ordered that, by November 14, 2019:
1.

Masiz shall either (a) file a statement that
sealing of the evidence of compliance is no
longer requested and file a full, unredacted
copy of the evidence of compliance for the
public record; or (b) file an affidavit and
memorandum in support of the request to
seal his evidence of compliance which, among
other things, addresses the fact that the evidence contains material that was disclosed
to third parties.

2.

If Masiz wishes to maintain his motion to
seal the evidence of compliance, Masiz shall
both (a) file a redacted version of the evidence
of compliance for the public record, and (b)
submit to the court a full, unredacted copy
of the evidence of compliance, which shall
be sealed, at least temporarily, to preserve
its confidentiality if the sealing of it proves
to be justified.

Id.
Masiz did not respond to that order by November
14, 2019. Rather, on November 15, 2019, Masiz filed
a “Notice” “request[ing] the court’s temporary indulgence” because “he believed the parties had entered
into an agreement as to how the parties should proceed
regarding filings in this and other matters.” Dkt. No.

App.75a
578. In a November 20, 2019 Order, the court stated
that “[i]t is axiomatic that the parties do not have the
authority to alter court orders by agreement.” Dkt.
No. 579. Moreover, Masiz had still not filed a memorandum or affidavit in support of the motion to seal.
Nor had he, as ordered, filed even redacted versions
of the required documents for the public record.
Because the court intended to decide whether Masiz
had complied with the disclosure requirements of the
Final Judgment, and because there is a “presumed
common law right of public access to information on
which judicial decisions are made,” id., the court
ordered that:
1.

By November 22, 2019, Masiz shall file on
the public record a full, unredacted copy
of all of the evidence on which he relies in
representing that he has complied with his
obligations under § II of the Final Judgment.

2.

Any failure to comply with this Order may
be deemed a civil and/or criminal contempt.

Id.
On November 21, 2019, Masiz filed a motion to
stay for 45 days proceedings relating to ADEC because
they had agreed to mediation of their dispute. See
Docket No. 580. He also filed an “Emergency” Motion
to extend the November 22, 2019 deadline for the
filings required by the November 20, 2019 Order so
he could focus on settling the dispute with ADEC.
See Docket No. 581. Masiz requested leave to make the
required submissions seven days after the mediation
was completed. See id. Finding that “the issue of
whether Masiz has complied with the requirements
of the Final Judgment is independent of the dispute

App.76a
between ADEC and Masiz,” the court promptly denied
Masiz’s request for an extension. See Docket No. 582.
Masiz did not make the required filings on
November 22, 2019. Rather, on that day, Masiz filed
the Emergency Motion requesting a stay of the order
that he make filings for the public record “while
Masiz immediately applies to a single justice of the
1st Circuit Court of Appeals” for relief. Dkt. No. 584.
Masiz argued for the first time that the court lacks
the authority to order, sua sponte, the submission of
documents relevant to whether he has complied with
the judgment against him and that requiring such
documents be filed for the public record would be an
impermissible penalty in the form of “public shaming”
of him. Id. at 2, 5.
Later on November 22, 2019, while expressing
doubt that Masiz’s appeal would be found meritorious,
the court stated it would consider Masiz’s arguments,
which could and should have been made in response
to the September 6, 2019 Order. See Docket No. 586.
Therefore, the court stayed temporarily Masiz’s obligation to make the submissions required by the November
19, 2019 Order. See id.
Also on November 22, 2019, Masiz filed an “Emergency Notice of Appeal” of the orders at issue. See
Docket No. 585. According to the First Circuit docket,
he has not requested any action by a single judge of
the First Circuit or any other action on his appeal.
See SEC v. Masiz, No. 19-2206 (1st Cir. filed Nov. 22,
2019).
On January 14, 2020, the Receiver reported that
after a mediation on December 16, 2019, BioChemics
and ADEC had not settled their dispute. See Docket

App.77a
No. 589. The Receiver also reported that he had not
identified a potential purchaser for BioChemics’ intellectual property other than Biophysics and is considering
the best way to auction that asset. See id. Therefore,
the court expects to receive soon a renewed motion to
approve an “auction” of BioChemics assets in which it
is foreseeable that BioPhysics would be the only bidder.
III. Analysis
A. The Claim That the Court’s Orders Exceed
Its Authority Is Unmeritorious.
The court has considered Masiz’s belated
contentions in his November 22, 2019 Emergency
Motion that the court lacks the authority to order,
sua sponte, that he file evidence relevant to whether
it should authorize a process that would result in a sale
of BioChemics’ assets to BioPhysics and to whether
Masiz has complied with the judgment against him.3
Those contentions are incorrect and unpersuasive.

3 As indicated earlier, the arguments Masiz made for the first
time on November 22, 2019 could and should have been made
in response to the September 6, 2019 Order and subsequent
orders. Arguments made only in a perfunctory manner may
properly be denied. See, e.g., United States v. Zannino, 895 F.2d
1, 17 (1st Cir. 1990); De Giovanni v. Jani-King Int’l, Inc., 968 F.
Supp. 2d 447, 450 (D. Mass. 2013); Coopersmith v. Lehman Bros.,
Inc., 344 F. Supp. 2d 783, 790 n.5 (D. Mass. 2004); Pacamor
Bearings, Inc. v. Minebea Co., Ltd., 892 F. Supp. 347, 355 n.8
(D.N.H. 1995). For months, Masiz made no arguments at all to
support his refusal to obey the court’s orders. The court could
have denied his requests for relief on this ground alone. Nevertheless, it has analyzed the arguments made by Masiz on
November 22, 2019, and finds them to be without merit.

App.78a
The documents that Masiz has been ordered to file
relate to the Receiver’s recently reiterated interest in
selling BioChemics’ assets to BioPhysics and decisions
the court will have to make concerning the “auction”
that will be proposed. Masiz and BioChemics repeatedly represented that BioChemics would pay almost
$18,000,000, plus interest, to satisfy the judgment
against BioChemics and never did. The documents
that Masiz has been ordered to produce relate, among
other things, to whether Biophysics has $4,000,000 to
purchase BioChemics’ assets. If it does not, allowing the
Receiver to pursue a process expected to result in the
sale of BioChemics’ assets to BioPhysics at an auction
would be a time-consuming, costly, and ultimately futile
exercise.
If BioPhysics has $4,000,000 to consummate a
purchase of BioChemics’ assets, it will be prudent and
appropriate for the court to consider how these funds
were obtained and whether they can properly be used
to acquire BioChemics’ intellectual property. The
SEC reports that Masiz states that he participated in
80 solicitations of funds for BioPhysics. This court found
that he at least negligently violated the 2004 injunction
in the Vaso case by making fraudulent misrepresentations in raising money for BioChemics. In addition,
Masiz may have caused fraudulent conveyances to
occur in transferring BioChemics’ intellectual property
to Inpellis and later causing Inpellis to give the SEC
a first-priority security interest in intellectual property
BioChemics claimed was owned by Inpellis. There is,
therefore, reason to question whether Masiz made
the disclosures required by the judgment against him
in raising, or attempting to raise, money for BioPhysics.
The fact that the SEC has reviewed the documents

App.79a
Masiz refuses to provide to the court and expressed
concern about the adequacy of only some of his disclosures to potential investors is not sufficient to resolve
these questions as the court has in this case at times
disagreed with the SEC, and ADEC has raised issues
concerning the propriety of the SEC’s own conduct.
If money was raised improperly by Masiz, or was
raised for purposes other than acquiring BioChemics’
assets, it is important that this be discovered before
the funds are used by BioPhysics to purchase those
assets. The alleged misapplication of funds lent by
ADEC to Inpellis for an IPO, and alleged fraudulent
conveyance of Inpellis’ assets to pay part of the judgment against BioChemics have spawned complicated
and expensive litigation. The court wishes to minimize
the risk that this will recur.
In addition, as the Supreme Court has stated, “a
federal court [has] inherent power to enforce its judgments.” Peacock v. Thomas, 516 U.S. 349, 356, 116 S.
Ct. 862, 133 L.Ed.2d 817 (1996). “Consent decrees [such
as the consent judgment in the instant case] are subject to continuing supervision and enforcement by the
court. ‘[A] court has an affirmative duty to protect
the integrity of its decree.’’’ Berger v. Heckler, 771 F.2d
1556, 1568 (2d Cir. 1985) (citation omitted). Therefore:
“[B]ecause a district court has a significant
administrative interest in securing compliance
with its orders, it ‘may take such [remedial]
steps as are appropriate. . . . ’ And, though a
court cannot randomly expand or contract
the terms agreed upon in a consent decree,
judicial discretion in flexing its supervisory
and enforcement muscles is broad.

App.80a
Where equitable remedies which exceed the
confines of the consent decree are reasonably
imposed in order to secure compliance of the
parties, the court has not overstepped its
bounds, and its orders must be obeyed.

EEOC v. Local 580, Int’l Ass’n of Bridge, Structural
& Ornamental Ironworkers, 925 F.2d 588, 593 (2d
Cir. 1991) (quoting Berger, 771 F.2d at 1569).4
4 The cases mentioned by Masiz in his First Circuit docketing
statement are distinguishable from the instant case. See Docketing
Statement 4, SEC v. Masiz, No. 19-2206 (filed Nov. 25, 2019)
(Dkt. No. 00117520272). Ricci v. Patrick, 544 F.3d 8 (1st Cir. 2008),
involved a district court’s decision to reopen a case and modify
the consent decree by issuing new remedial orders following an
investigation into whether the Commonwealth of Massachusetts
had complied with a consent decree. See id. at 11. “The district
court’s authority to investigate [ ] allegations of violation [was]
not at issue.” Id. In Ricci, the court’s final order closing the case
had allowed for re-opening of the case only upon fulfilment of
specified conditions, none of which had occurred. See id. at 1314. The Supreme Court case on which Ricci relies similarly
involved a final order in which the district court did not retain
general jurisdiction to enforce the settlement. See Kokkonen v.
Guardian Life Ins. Co. of Am., 511 U.S. 375, 376-77, 114 S. Ct.
1673, 128 L.Ed.2d 391 (1994). Neither Ricci nor Kokkonen is
comparable to the instant case, as the Final Judgment against
Masiz states that “this [c]ourt shall retain jurisdiction of this
matter for the purposes of enforcing the terms of this Final
Judgment.” Final Judg. § VII (Dkt. No. 345). Kokesh v. SEC,
___ U.S. ___, 137 S. Ct. 1635, 1645, 198 L.Ed.2d 86 (2017), and
SEC v. Liu, 754 F. App’x 505, 509 (9th Cir. 2018), cert. granted,
Liu v. SEC, ___ U.S. ___, 140 S. Ct. 451, 205 L.Ed.2d 265 (2019)),
are also inapposite. Each concerned the court’s equitable power
to order disgorgement of profits. In Liu, the Supreme Court will
consider whether a disgorgement penalty can properly be imposed
pursuant to the judicial equitable power. In both cases, the
disgorgement remedies at issue were imposed by a court over the
petitioner’s objection. See Kokesh, 137 S. Ct. at 1641 (disgorge-

App.81a
Therefore, it is permissible and appropriate for
the court to have issued its orders and the required
documents must be filed.
B. The Claim That Masiz’s Response to the Court’s
Orders Should Be Sealed Is Unmeritorious.
The documents at issue have also been properly
ordered to be filed on the public record. The court
recognizes that Masiz has represented, without contradiction, that the SEC has assented to the sealing
of them. However, again, the SEC’s conduct is also
subject to question in this case. For example, as
described earlier, the court refused to approve the
SEC’s initial proposed judgment against BioChemics
because the SEC had failed to assure that there was
a reasonable prospect that BioChemics would be able
to pay it. In addition, ADEC has raised a meaningful
question concerning whether the SEC colluded with
BioChemics in what may have been a fraudulent conveyance of a first-priority security interest in Inpellis’
assets that has harmed ADEC and other creditors.
As explained earlier, there is a common law presumption that the public should have access to judicial
records, meaning documents that are filed and play a
part in the process of adjudication. See Standard Fin.
Mgmt. Corp., 830 F.2d at 408. “Public access to judicial
records and documents allows the citizenry to monitor
ment judgment entered following jury trial on liability); Liu, 754
F. App’x at 507 (disgorgement judgment entered at resolution of
case upon summary judgment). These cases are distinguishable
because the question in the instant case concerns whether
Masiz has complied with the terms of a consent decree to which
Masiz agreed to settle the case and avoid adjudication of serious
allegations.

App.82a
the functioning of our courts, thereby insuring quality,
honesty and respect for our legal system. The appropriateness of making court files accessible is accentuated
in cases where [as here] the government is a party: in
such circumstances, the public’s right to know what
the executive branch is about coalesces with the
concomitant right of the citizenry to appraise the
judicial branch.” Id. at 410 (internal quotation and
citation omitted). Therefore, while “the public’s right
to access is not absolute . . . only the most compelling
reasons can justify non-disclosure of judicial records.”
Id. (internal quotation and citation omitted).
In this case, placing in the public record the disclosures that Masiz represents he made to potential
investors in BioPhysics is particularly important. As
described earlier, the failure of BioChemics and the
SEC to inform the court, and therefore the public,
that the first-priority security interest in Inpellis’
assets given to the SEC to benefit BioChemics would
severely prejudice its creditors prompted ADEC to
seek relief from the Modified Judgment when it
belatedly discovered that transaction. Anyone solicited
by Masiz should have the opportunity to review the
disclosures claimed to have been made to him or her,
and to present promptly to the court any disputes
concerning whether they were properly made before
the court relies on Masiz’s representations in decisions
it must make.
Masiz, however, argues that the public filing of
the disclosures he made to potential investors would
be an unjustified form of “public shaming” that would
not protect investors, but would make Masiz a “pariah
in the marketplace.” See Docket No. 584-1, at 3. This
contention is unconvincing. The description of both

App.83a
Masiz’s alleged and demonstrated violations of federal
securities laws that he is required to disclose are in
the judgment and, therefore, already in the public
record. Therefore, the public filings Masiz has been
ordered to make will not divulge any confidential
information or any information injurious to Masiz that
is not already available to the public.
If the required disclosures have indeed been made
to potential investors, the public filing of them will
provide them with no disparaging information about
Masiz that they do not already have. However, if public
filing does provide them with additional information,
that will serve to protect potential investors. As
explained earlier, the SEC reports that Masiz represents that in seven instances he made the required
disclosures by providing them in a drop box linked to an
email, which also contained other documents. Therefore, potential investors may not have known about the
disclosures and read them. Accordingly, there is reason
to be concerned that at least some potential investors
did not receive, in proper form, the information Masiz
was required to disclose. Public filing may rectify
that problem and give any actual investors, particularly, information that may be material concerning
how they wish to proceed. If, as Masiz suggests, the
information in the public filings causes others to be
wary of doing business with Masiz, the judgment will
have served its intended purpose of assuring that
potential investors are provided material information
concerning Masiz as they decide whether to invest
with or in him.
It is not clear whether Masiz is claiming that
public filing of the disclosures he made to private
investors would violate their personal privacy interests.

App.84a
The court recognizes that the privacy interests of
third-parties can limit the presumptive right of public
access to judicial records. See United States v. Kravetz,
706 F.3d 47, 62 (1st Cir. 2013); Standard Fin. Mgmt.
Corp., 830 F.2d at 411. However, Masiz does not
claim that he promised potential investors confidentiality. In any event, he did not have the authority to
do so. In addition, if the disclosures required by the
judgment were made, a reasonable potential investor
would have realized that his or her communications
with Masiz might become public in litigation concerning whether Masiz had performed as ordered
and, therefore, would not have had a reasonable expectation of privacy.
In any event, as explained earlier, the burden is
on Masiz to prove that sealing is justified. See id. at
410-11. Even selective sealing “must be based on a
particular factual demonstration of potential harm,
not on conclusory statements.” Kravetz, 706 F.3d at
60 (quoting Standard Fin. Mgmt. Corp., 830 F.2d at
412). Masiz has not satisfied his burden of proving
that complete sealing of the documents he has been
ordered to file, or the filing of redacted versions of
them, are justified.
In summary, it was permissible and appropriate
for the court to issue its orders, and to require that
Masiz’s submissions in response to those orders be
on the public record. He is, therefore, again being
ordered to file the required documents and information
on the public record.

App.85a
C. The Motion for a Further Stay Is Unmeritorious.
As described earlier, Masiz filed his Emergency
Motion for a stay pending an immediate appeal on
November 22, 2019. See Docket No. 584. He asked that
the court stay its orders directing the public filing of
evidence that he had made the disclosures required
by the judgment against him in soliciting potential
investors for BioPhysics “while Masiz immediately
applies to a single justice of the 1st Circuit Court of
Appeals.” Id. at 1.5 The First Circuit docket indicates
that Masiz has not requested relief from a single
judge of the First Circuit, or done anything to expedite
or advance his appeal in the almost two months that
this court has stayed its orders. The question, therefore,
is whether a further stay should be granted pending
appeal.6
5 In his supporting memorandum, Docket No. 584-1, Masiz added
that he was requesting an extension of time to respond to the
Orders until seven days after the completion of the ADEC
mediation. See id. On January 14, 2020, the Receiver informed
the court that the mediation concluded unsuccessfully on
December 16, 2019. See Docket No. 589.
6 The court assumes, without finding, that the November 20,
2019 order directing Masiz to file on the public record the documents he provided to the SEC is an appealable order under the
collateral order doctrine. The collateral order rule permits appeal
where the appellant demonstrates “that an order (1) conclusively
determine the disputed question, (2) resolve an important issue
completely separate from the merits of the action, and (3) be
effectively unreviewable on appeal from a final judgment.” Will
v. Hallock, 546 U.S. 345, 349, 126 S. Ct. 952, 163 L.Ed.2d 836
(2006) (internal citations omitted). The First Circuit has interpreted the second prong of the Will test to require that the
appeal involve “an important and unsettled question of controlling
law, not merely a question of the exercise of the trial court’s dis-

App.86a
As this court has previously written:
The Supreme Court has stated that the
factors regulating the issuance of a stay
pending appeal “are generally the same” for
a district court and for a court of appeals.
Hilton v. Braunskill, 481 U.S. 770, 776, 107
S. Ct. 2113, 95 L.Ed.2d 724 (1987). These
factors are:
(1) whether the stay applicant has made
a strong showing that he is likely to succeed
on the merits; (2) whether the applicant
will be irreparably injured absent a stay;
(3) whether issuance of the stay will substantially injure the other parties interested
in the proceeding; and (4) where the public
interest lies.

Id.
The first prong of this test has not been interpreted
or applied literally, even by the Courts of Appeals.
Rather, it has been held that:
on motions for stay pending appeal the
movant need not always show a “probability of
success” on the merits; instead, the movant
need only present a substantial case on the
cretion.” U.S. Fid. & Guar. Co. v. Arch Ins. Co., 578 F.3d 45, 55
n.15 (1st Cir. 2009) (emphasis added) (internal quotation marks
and citation omitted). As explained below, Standard Financial
Management, supra, settled the sealing question Masiz presents,
and reiterated that a district court’s sealing decision is reviewed
“only for abuse of discretion.” 830 F.2d at 411. Therefore, it is
questionable whether the First Circuit will find that the collateral
order rule applies. The First Circuit, however, must decide that
issue.

App.87a
merits when a serious legal question is
involved and show that the balance of the
equities weighs heavily in favor of granting
the stay.

Ruiz v. Estelle, 650 F.2d 555, 565 (5th Cir. 1981) (citing
Providence Journal Co. v. Federal Bureau of Investigation, 595 F.2d 889, 890 (1st Cir. 1979) (“Where . . .
the denial of a stay will utterly destroy the status
quo, irreparably harming appellants, but the
granting of a stay will cause relatively slight harm to
appellee, appellants need not show an absolute
probability of success in order to be entitled to a
stay.”)) See also Garcia-Mir v. Meese, 781 F.2d 1450,
1453 (11th Cir. 1986); 11 Wright, Miller & Kane,
Federal Practice and Procedure § 2904, at 503 & n.11
(2d ed. 1995 & Supp. 1997).
When the request for a stay is made to a district
court, common sense dictates that the moving party
need not persuade the court that it is likely to be
reversed on appeal.
Rather, with regard to the first prong of the Hilton
test, the movant must only establish that the appeal
raises serious and difficult questions of law in an
area where the law is somewhat unclear. See Exxon
Corp. v. Esso Worker’s Union, Inc., 963 F. Supp. 58,
60 (D. Mass. 1997); Gay Lesbian Bisexual Alliance v.
Sessions, 917 F. Supp. 1558, 1561 (M.D. Ala. 1996);
Mamula v. Satralloy, Inc., 578 F. Supp. 563, 580
(S.D. Ohio 1983); Evans v. Buchanan, 435 F. Supp.
832, 844 (D. Del. 1977). Canterbury Liquors & Pantry
v. Sullivan, 999 F. Supp. 144, 149-52 (D. Mass.
1998).

App.88a
Masiz has satisfied the second prong of the Hilton
test. If required to file on the public record the disclosures that he was required by the judgment to make
in connection with soliciting potential investors for
BioPhysics, the harm done to him will be substantially irreversible if this court’s directives are ultimately found to be erroneous. See Standard Fin. Mgmt.
Corp., 830 F.2d at 407. However, Masiz has failed to
satisfy any of the three other prongs of the Hilton
test and the interests they address outweigh the risk
of unjustified irreparable harm to him.
Masiz’s appeal does not present any serious legal
issue. As explained earlier, the court has reason to
question whether Masiz has made the disclosures required by the judgment, and it has the authority to
order Masiz to submit to it the documents necessary
to resolve that question. See Peacock, 516 U.S. at 356,
116 S. Ct. 862; Local 580, 925 F.2d at 593; Berger,
771 F.2d at 1568.
In addition, as also explained earlier, the documents Masiz has been ordered to file for the public
record are relevant to whether the court should
approve the renewed request the Receiver reports he
is preparing to make for an “auction” in which
Biophysics will almost certainly be the only bidder. In
1987, the First Circuit characterized some of the issues
concerning sealing presented in Standard Financial
Management as “somewhat novel.” 830 F.2d at 407.
However, those issues were in that case settled based
on the strong common law presumption of public
access to records on which judicial decisions are
made, particularly where, as here, the conduct of the
government—the SEC—is an issue. Id. at 410. The
First Circuit has applied those principles in subsequent

App.89a
cases. See, e.g., Kravetz, 706 F.3d at 60-62 (presumption applies to sentencing memoranda and sentencing
letters); Nat’l Org. for Marriage v. McKee, 649 F.3d
34, 70-72 (1st Cir. 2011) (district court did not err in
unsealing trial records where organization had “failed
to make a compelling case” that the privacy rights of
third parties mentioned in its submissions outweighed
the presumption of public access).
A further stay will impede the Receiver’s progress
and the delay will likely result in the dissipation of the
assets he has been ordered to marshal for the benefit
of BioChemics’ creditors. BioPhysics is, realistically,
the only potential buyer for BioChemics’ assets and
has offered to pay at least $4,000,000 for them. In view
of its long history with BioChemics and Masiz in this
case, the court is unwilling to approve a process that
will lead to a sale of BioChemics’ assets to BioPhysics
without proof that BioPhysics has funds necessary to
make the required payment. In addition, the court
has found, in effect, that Masiz violated the injunction
in Vaso that prohibited him from making material false
and misleading representations in soliciting investments. If BioPhysics has raised $4,000,000, or any
other substantial sum, the court wants to be reasonably
assured that Masiz did not in soliciting that violate
the comparable injunction in the judgment against
him in this case, including by failing to make the required disclosures to potential investors. Masiz’s
repeated refusal to provide the necessary documents
to the court is, therefore, injuring the ability of the
Receiver to conclude his work and thus injuring
BioChemics’ creditors.
The public interest will not be served if this case
is further stayed and delayed. If the court determines

App.90a
that Masiz has made the disclosures required by the
judgment, the case will proceed—hopefully to a final
conclusion. If the submissions that the court has
ordered raise questions, the court will act promptly
to address them. If the court determines that Masiz
has violated the injunction in this case, the public
interest will be served by the orders the court will
enter to end such violations.
In view of the foregoing, the Emergency Motion
to stay is being denied. However, the court is providing
Masiz until January 30, 2020 to attempt to obtain a
stay from the First Circuit.
IV. Order
Accordingly, it is hereby ORDERED that:
1. The Emergency Motion (Dkt. No. 584) is
DENIED and the temporary stay ordered on November
22, 2019 (Dkt. No. 586) is LIFTED.
2. Unless otherwise ordered by the First Circuit,
Masiz shall, by January 30, 2020, file on the public
record a full, unredacted copy of all of the evidence on
which he relies in representing that he has complied
with his obligations under § II of the Final Judgment.
Such evidence shall include: (a) a list of investors
and potential investors from whom he has solicited
funds for BioPhysics Pharma, Inc. or any other entity
since the entry of Final Judgment on August 18, 2017;
(b) the written disclosure that he provided to each
investor and potential investor he solicited; and (c) the
contemporaneous written record of such disclosures
required by Section II of the Final Judgment as to
Defendant John J. Masiz (Dkt. No. 345).

App.91a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE
DISTRICT OF MASSACHUSETTS
(NOVEMBER 22, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,
v.
BIOCHEMICS, INC ET AL.
________________________
C.A. No. 1:12-cv-12324-MLW
Notice of Electronic Filing
WARNING: CASE CLOSED on 08/22/2017
Document Number: 586 (No document attached)
Docket Text:
Judge Mark L. Wolf: “The court doubts that the
orders at issue are now appealable and, in any event,
that any appeal will be found to be meritorious.
However, it does wish to consider this belatedly filed
submission. Therefore, Masiz’ obligation to make the
submission required by November 19, 2019 Order
(Docket No. [579]) is hereby STAYED temporarily until
further Order of the court.”
ELECTRONIC ORDER entered re: [584] Emergency MOTION for Injunctive Relief For An Immediate

App.92a
Stay So Defendant Can Appeal the Court's Orders
Regarding the public filing of the submission at issue
filed by John J. Masiz. (Bono, Christine)
1:12−cv−12324−MLW
Notice has been electronically mailed to:
Mark G. DeGiacomo
mdegiacomo@murthalaw.com, jbabula@murthalaw.com
Howard M. Cooper
hcooper@toddweld.com, lmahoney@toddweld.com
Martin F Healey
healeym@sec.gov, #brodocket@sec.gov
Michael P. Angelini
mangelini@bowditch.com, cdocketing@bowditch.com,
sriley@bowditch.com
Francis J. DiMento
fjd@dimentosullivan.com, pat@dimentosullivan.com
Peter Sabin Willett
sabin.willett@bingham.com
Donald F. Farrell, Jr
DFF@andersonaquino.com
Jonathan M. Albano
jonathan.albano@morganlewis.com
Jan R. Schlichtmann
jan@schlichtmannlaw.com

App.93a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE
DISTRICT OF MASSACHUSETTS
(NOVEMBER 22, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,
CRAIG MEDOFF, and GREGORY S. KRONING,

Defendants.
________________________
C.A. No. 12-12324-MLW
Before: Mark L. WOLF, United States District Judge.
WOLF, D.J.
On the evening of November 21, 2019, defendant
John Masiz filed an “emergency” motion requesting
an extension of time to respond to the November 5 and
19, 2019 Orders (Docket Nos. 574 and 579) directing
that Masiz, by November 22, 2019, file for the public
record, a full unredacted copy of all of the evidence
on which he relies in representing that he has complied
with his disclosure obligations under § II of the Final
Judgment against him (the “Motion”). The Motion

App.94a
relies, in part, on a November 21, 2019 motion for
entry of a limited stay of proceedings between ADEC
Private Investments, LLC (“ADEC”) and Masiz only
(Docket No. 580). However, the issue of whether Masiz
has complied with the requirements of the Final Judgment is independent of the disputes between ADEC
and Masiz. The Motion represents that Masiz has, as
required by Local Rule 7.1(b)(2), submitted an affidavit
and supporting memorandum, but neither has been
filed.
In any event, the Motion (Docket No. 581) is not
meritorious and, therefore, is hereby DENIED.
/s/ Mark L. Wolf
United States District Judge

App.95a
MEMORANDUM AND ORDER OF THE
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF MASSACHUSETTS
(NOVEMBER 20, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,
CRAIG MEDOFF, and GREGORY S. KRONING,

Defendants.
________________________
C.A. No. 12-12324-MLW
Before: Mark L. WOLF, United States District Judge.
WOLF, D.J.
In the August 18, 2017 Final Judgment as to
defendant John Masiz, Masiz was ordered to make
certain written disclosures regarding his regulatory
history to anyone from whom he solicited or accepted
funds, and to keep a written record of such disclosures.
See Docket No. 345, § II. On September 6, 2019, the
court ordered Masiz to file an affidavit detailing his
compliance with that Final Judgment, the documents
constituting the required disclosures, and his contem-

App.96a
poraneous record of them. See Docket No. 559, ¶ 5. In
response, on September 16, 2019, Masiz filed a motion,
to which plaintiff Securities and Exchange Commission
(the “SEC”) assented, seeking leave to file under seal
his evidence of compliance with the Final Judgment
See Docket No. 565.1
In a November 5, 2019 Order, the court questioned
whether the requested sealing is justified in view of
the common law presumption that the public should
have access to documents upon which a court relies in
determining the substantive rights of litigants “and
in performing its adjudicatory function.” Docket No. 574
(quoting F.T.C. v. Standard Fin. Mgmt. Corp., 830
F.2d 404, 410 (1st Cir. 1987)). As the court explained,
public access is particularly appropriate where, as
here, the government is a party. Id. Thus, “‘[o]nly the
most compelling reasons can justify non-disclosure of
judicial records,’’’ and the burden of proof is on the
party seeking confidentiality. Standard Fin. Mgmt.
Corp., 830 F.2d at 410-11 (quoting In re Knoxville
News-Sentinel Co., 723 F.2d 470, 476 (6th Cir. 1983)).
Although certain justifications such as the protection
of documents subject to attorney-client privilege or
privacy rights “‘can limit the presumptive right of
access to judicial records,’’’ Ark. Teacher Ret. Sys. v.
1 According to an affidavit filed by Masiz on September 12,
2019, the evidence of compliance consists of disclosures Masiz
believes he was required to provide pursuant to the Final Judgment; a list of the disclosures, and the people to whom Masiz
made those disclosures since August 2017; and a list of the
people, who are not insiders, from whom BioPhysics Pharma,
Inc., has received investment since August 2017, as well as the
disclosure provided to these investors. See Sept. 12, 2019 Masiz
Aff. (Docket No. 562-1) ¶ 2. Masiz has provided these documents
to the SEC, see id. ¶ 3, but not to the court.

App.97a

State Street Bank & Trust Co., 391 F. Supp. 3d 167,
169 (D. Mass. 2018) (quoting Standard Fin. Mgmt.
Corp., 830 F.2d at 411), even selective sealing “must
be based on a particular factual demonstration of
potential harm, not on conclusory statements.” United
States v. Kravetz , 706 F.3d 47, 60 (1st Cir. 2013)
(citation omitted).
Masiz had not filed an affidavit or memorandum
in support of the motion to seal. Nor had he articulated
any reason why evidence of his compliance with the
disclosure requirements of the Final Judgment, which
consists of documents provided to third parties, should
not be part of the public record. Nevertheless, the
court provided Masiz an opportunity to do so.
More specifically, on November 5, 2019, the court
ordered that, by November 14, 2019:
1.

Masiz shall either (a) file a statement that
sealing of the evidence of compliance is no
longer requested and file a full, unredacted
copy of the evidence of compliance for the
public record; or (b) file an affidavit and
memorandum in support of the request to
seal his evidence of compliance which, among
other things, addresses the fact that the evidence contains material that was disclosed
to third parties.

2.

If Masiz wishes to maintain his motion to
seal the evidence of compliance, Masiz shall
both (a) file a redacted version of the evidence
of compliance for the public record, and (b)
submit to the court a full, unredacted copy
of the evidence of compliance, which shall
be sealed, at least temporarily, to preserve

App.98a
its confidentiality if the sealing of it proves
to be justified.

Id.
Masiz did not respond to the Order by November
14, 2019. Nor has he yet complied with it. Rather, on
November 15, 2019, Masiz filed a “Notice” “request[ing]
the court’s temporary indulgence” because “he believed
the parties had entered into an agreement as to how
the parties should proceed regarding filings in this
and other matters.” Docket No. 578.
It is axiomatic that the parties do not have the
authority to alter court orders by agreement. In any
event, Masiz still has not filed a response to the
November 5, 2019 Order.
Therefore, in view of the court’s intention to
decide whether Masiz has complied with the disclosure
requirements of the Final Judgment and the presumed
common law right of public access to information on
which judicial decisions are made, it is hereby
ORDERED that:
1. By November 22, 2019, Masiz shall file on the
public record a full, unredacted copy of all of the evidence on which he relies in representing that he has
complied with his obligations under § II of the Final
Judgment.
2. Any failure to comply with this Order may be
deemed a civil and/or criminal contempt.
/s/ Mark L. Wolf
United States District Judge

App.99a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE
DISTRICT OF MASSACHUSETTS
(NOVEMBER 5, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,
CRAIG MEDOFF, and GREGORY S. KRONING,

Defendants.
________________________
C.A. No. 12-12324-MLW
Before: Mark L. WOLF, United States District Judge.
WOLF, D.J.
On September 6, 2019, the court ordered Masiz
to file an affidavit detailing his compliance with the
Final Judgment against him in this case (Dkt. No.
559). In response, on September 16, 2019, Masiz filed
an assented-to motion to file under seal his evidence
of compliance with the Final Judgment (Dkt. No. 565).1
1 According to an affidavit filed by Masiz on September 12, 2019,
the evidence of compliance consists of disclosures Masiz believes
he was required to provide pursuant to the Final Judgment; a

App.100a
The court questions whether sealing is justified.
The common law presumes that the public may access
documents upon which a district court relies in
determining the substantive rights of litigants “and
in performing its adjudicatory function.” F.T.C. v.
Standard Fin. Mgmt. Corp., 830 F.2d 404, 410 (1st Cir.
1987). Public access is particularly appropriate where,
as here, the government is a party. Id. Thus, “‘[o]nly
the most compelling reasons can justify non-disclosure of judicial records,’’’ and the burden of proof is
on the party seeking confidentiality. Id. at 410-11
(quoting In re Knoxville News-Sentinel Co., 723 F.2d
470, 476 (6th Cir. 1983)). Although certain
justifications such as the protection of documents
subject to attorney-client privilege or privacy rights
“can limit the presumptive right of access to judicial
records,” Ark. Teacher Ret. Sys. v. State Street Bank
& Trust Co., 391 F. Supp. 3d 167, 169 (D. Mass. 2018)
(quoting Standard Fin. Mgmt. Corp., 830 F.2d at
411), even selective sealing “must be based on a particular factual demonstration of potential harm, not
on conclusory statements.” United States v. Kravetz,
706 F.3d 47, 60 (1st Cir. 2013) (citation omitted).
Masiz has not filed an affidavit in support of the
motion to seal. Nor has he articulated any reason
why his evidence of compliance, which consists of disclosures already made to third parties, should not be
list of the disclosures and the people to whom Masiz made those
disclosures since August, 2017; and a list of the people, who are
not insiders, from whom BioPhysics Pharma, Inc., has received
investment since August 2017, as well as the disclosure provided
to these investors. See Masiz Aff. ¶ 2, Dkt. No. 562-1. Masiz has
apparently already provided these appendices to the SEC, see
id. ¶ 3, but not to the court.

App.101a
part of the public record. The court is providing Masiz
an opportunity to do so.
Accordingly, it is hereby ORDERED that, by
November 14, 2019:
1. Masiz shall either (a) file a statement that
sealing of the evidence of compliance is no longer
requested and file a full, unredacted copy of the evidence of compliance for the public record; or (b) file an
affidavit and memorandum in support of the request
to seal his evidence of compliance which, among other
things, addresses the fact that the evidence contains
material that was disclosed to third parties.
2. If Masiz wishes to maintain his motion to seal
the evidence of compliance, Masiz shall both (a) file a
redacted version of the evidence of compliance for the
public record, and (b) submit to the court a full,
unredacted copy of the evidence of compliance, which
shall be sealed, at least temporarily, to preserve its
confidentiality if the sealing of it proves to be justified.
/s/ Mark L. Wolf
United States District Judge

App.102a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE
DISTRICT OF MASSACHUSETTS
(SEPTEMBER 6, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,
CRAIG MEDOFF, and GREGORY S. KRONING,

Defendants.
________________________
C.A. No. 12-12324-MLW
Before: Mark L. WOLF, United States District Judge.
WOLF, D.J.
For the reasons stated in court on September 5,
2019, it is hereby ORDERED that:
1. The Receiver’s Motion to Approve Liquidation
Plan (Dkt. No. 484) is MOOT.
2. The Receiver’s Motions for Order of Sale (Dkt.
No. 541), to Approve Bidding Procedures (Dkt. No.
542), and to Employ Gordian Group, LLC (Dkt. No.
543) are DENIED without prejudice.

App.103a
3. ADEC Private Equity Investments, LLC’s
(“ADEC”) request for attorneys’ fees under Mass. Gen.
Laws ch. 231, § 59H (Dkt. No. 508) is DENIED.
4. ADEC’s Motion for Stay of Litigation (Dkt. No.
480) is ALLOWED with respect to claims that do not
belong to Inpellis, Inc. (“Inpellis”), and ADEC’s Motion
for Leave to Serve Rule 2004 Subpoena on the Receiver
(Dkt. No. 551) is ALLOWED. In addition, ADEC may
assist the Inpellis Bankruptcy Trustee in pursuing
claims of Inpellis. However, this Order does not alter
the automatic stay resulting from the Inpellis bankruptcy action. See In re Inpellis, Inc ., 18-bk-12844
(Bankr. D. Mass.).
5. Defendant John Masiz shall, by September 12,
2019, file an affidavit providing: (a) a list of investors
and potential investors from whom he has solicited
funds for Biophysics Pharma, Inc. or any other entity
since the entry of Final Judgment on August 18, 2017;
(b) the written disclosure that he provided to each
investor and potential investor he solicited; and (c) the
contemporaneous written record of such disclosures
required by Section II of the Final Judgment as to
Defendant John J. Masiz (Dkt. No. 345). The SEC shall,
by September 19, 2019, review Mr. Masiz’s affidavit
and report whether it believes Mr. Masiz has complied
with the relevant requirements of the Final Judgment.
6. The Receiver’s Motions for Compensation and
Expenses (Dkt. Nos. 532 and 537) are ALLOWED.
7. The participants in the September 5, 2019 hearing shall order a transcript of it on an expedited basis.
/s/ Mark L. Wolf
United States District Judge

App.104a
FINAL JUDGMENT AS TO
DEFENDANT JOHN J. MASIZ
(AUGUST 18, 2017)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,
CRAIG MEDOFF, and GREGORY S. KRONING,

Defendants.
________________________
Civil Action No. 12-12324-MLW
Before: Mark L. WOLF, United States District Judge.
The Securities and Exchange Commission having
filed a Complaint and Defendant John J. Masiz
(“Defendant” or “Masiz”) having entered a general
appearance; consented to the Court’s jurisdiction over
Defendant and the subject matter of this action; consented to entry of this Final Judgment; waived findings
of fact and conclusions of law; and waived any right
to appeal from this Final Judgment; and Defendant
having admitted that his conduct violated Section
17(a)(2) and (a)(3) of the Securities Act of 1933 (the
“Securities Act”) [15 U.S.C. § 77q(a)(2) and (a)(3)], as
set forth in the Consent of Defendant John J. Masiz:

App.105a
I.
IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that Defendant is permanently restrained
and enjoined from violating Section 17(a)(2) and (a)(3)
of the Securities Act [15 U.S.C. § 77q(a)(2) and (a)(3)]
in the offer or sale of any security by the use of any
means or instruments of transportation or communication in interstate commerce or by use of the mails,
directly or indirectly:
(a) to obtain money or property by means of any
untrue statement of a material fact or any
omission of a material fact necessary in order
to make the statements made, in light of the
circumstances under which they were made,
not misleading; or
(b) to engage in any transaction, practice, or
course of business which operates or would
operate as a fraud or deceit upon the purchaser.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that, as provided in Federal Rule of Civil
Procedure 65(d)(2), the foregoing paragraph also binds
the following who receive actual notice of this Final
Judgement by personal service or otherwise: (a)
Defendant’s officers, agents, servants, employees, and
attorneys; and (b) other persons in active concert or
participation with Defendant or with anyone described
in (a).
II.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that Defendant is permanently restrained
and enjoined from providing information to, soliciting,

App.106a
or accepting investments or funds from, any investor
or potential investor regarding the offer or sale of
any securities issued by any entity that Defendant
directly or indirectly owns, controls, consults for, or
is employed by, without first providing such person
with the following written disclosure regarding Defendant’s prior regulatory history, and keeping a written
record that he provided such written disclosure to that
person:
I, John Masiz, make the following disclosure concerning my regulatory history:
1.

SEC v. Vaso Active Pharmaceuticals, Inc. and
John Masiz, No. 04-cv-1395-RJL (D.D.C.).

See SEC Litigation Release No. 18834, dated
August 17, 2004, with additional statement, that
is attached hereto.
2.

SEC v. BioChemics, Inc., et al., No. 12-cv12324-MLW (D. Mass.).

On December 14, 2012, the Commission filed a
lawsuit against BioChemics, Inc., Masiz, and two
others, charging them with securities fraud in violation
of Section 10(b) of, and Rule 10b-5 under, the Exchange
Act and Section 17(a) of the Securities Act. See SEC
v. BioChemics, Inc. et al., No. 12-12324-MLW (D.
Mass.). On 8/18/18 the Commission dismissed the
claims against Masiz under Section 10(b) of, and Rule
10b-5 under, the Exchange Act and Section 17(a)(1) of
the Securities Act. The remainder of the Commission’s
claims against Masiz were resolved by Settlement
entered as a Final Judgment on 8/8/17. Pursuant to
this Final Judgment, Masiz admitted that he violated
Sections 17(a)(2) and (a)(3) of the Securities Act. The
Final Judgment enjoined Masiz from future viola-

App.107a
tions of these provisions, prohibited Masiz from acting
as an officer or director of a public company, and
ordered him to pay a $120,000 civil penalty. The
Final Judgment also enjoined Masiz from providing
information to, soliciting, or accepting investments or
funds from “any investor or potential investor regarding the offer or sale of any securities issued by any
entity Masiz directly or indirectly owns, controls,
consults for, or is employed by, without first providing this written disclosure and keeping a written
record that he provided this disclosure to that person.”
III.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that, pursuant to Section 20(e) of the
Securities Act [15 U.S.C. § 77t(e)], Defendant is prohibited from acting as an officer or director of any issuer
that has a class of securities registered pursuant to
Section 12 of the Securities Exchange Act of 1934
(“Exchange Act”) [15 U.S.C. § 781 or that is required
to file reports pursuant to Section 15(d) of the Exchange
Act [15 U.S.C. § 78o(d)].
IV.
IT IS HEREBY FURTHER ORDERED, ADJUDGED,
AND DECREED that Defendant is liable for a civil

penalty in the amount of $120,000 pursuant to Section
20(d) of the Securities Act [15 U.S.C. § 77t(d)]. Defendant shall satisfy this obligation by paying $120,000
to the Securities and Exchange Commission within
180 days after entry of this Final Judgment.
Defendant may transmit payment electronically
to the Commission, which will provide detailed ACH
transfer/Fedwire instructions upon request. Payment

App.108a
may also be made directly from a bank account via Pay.
gov through the SEC website at http://www.sec.gov/
about/offices/ofm.htm. Defendant may also pay by
certified check, bank cashier’s check, or United States
postal money order payable to the Securities and
Exchange Commission, which shall be delivered or
mailed to
Enterprise Services Center
Accounts Receivable Branch
6500 South MacArthur Boulevard
Oklahoma City, OK 73169
and shall be accompanied by a letter identifying the
case title, civil action number, and name of this Court;
Masiz’s name as a defendant in this action; and specifying that payment is made pursuant to this Final
Judgment.
Defendant shall simultaneously transmit photocopies of evidence of payment and case identifying
information to the Commission’s counsel in this action.
By making this payment, Defendant relinquishes all
legal and equitable right, title, and interest in such
funds and no part of the funds shall be returned to
Defendant.
Defendant shall pay post judgment interest on
any delinquent amounts pursuant to 28 U.S.C. § 1961.
The Commission shall hold the funds, together with
any interest and income earned thereon (collectively,
the “Fund”), pending further order of the Court.
The Commission shall hold the funds (collectively,
the “Fund”) and may propose a plan to distribute the
Fund subject to the Court’s approval. Such a plan
may provide that the Fund shall be distributed pursuant to the Fair Fund provisions of Section 308(a) of

App.109a
the Sarbanes-Oxley Act of 2002. The Court shall retain
jurisdiction over the administration of any distribution
of the Fund. If the Commission staff determines that
the Fund will not be distributed, the Commission shall
send the funds paid pursuant to this Final Judgment
to the United States Treasury.
Regardless of whether any such Fair Fund distribution is made, amounts ordered to be paid as civil
penalties pursuant to this Judgment shall be treated
as penalties paid to the government for all purposes,
including all tax purposes. To preserve the deterrent
effect of the civil penalty, Defendant shall not, after
offset or reduction of any award of compensatory
damages in any Related Investor Action based on
Defendant’s payment of disgorgement in this action,
argue that he is entitled to, nor shall he further benefit
by, offset or reduction of such compensatory damages
award by the amount of any part of Defendant’s
payment of a civil penalty in this action (“Penalty
Offset”). If the court in any Related Investor Action
grants such a Penalty Offset, Defendant shall, within
30 days after entry of a final order granting the Penalty
Offset, notify the Commission’s counsel in this action
and pay the amount of the Penalty Offset to the United
States Treasury or to a Fair Fund, as the Commission directs. Such a payment shall not be deemed an
additional civil penalty and shall not be deemed to
change the amount of the civil penalty imposed in
this Final Judgment. For purposes of this paragraph,
a “Related Investor Action” means a private damages
action brought against Defendant by or on behalf of
one or more investors based on substantially the
same facts as alleged in the Complaint in this action.

App.110a
V.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that the Consent is incorporated herein
with the same force and effect as if fully set forth
herein, and that Defendant shall comply with all of the
undertakings and agreements set forth therein.
VI.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that, for purposes of exceptions to discharge
set forth in Section 523 of the Bankruptcy Code, 11
U.S.C. § 523, the allegations in the complaint are
true and admitted by Defendant, and further, any debt
for disgorgement, prejudgment interest, civil penalty
or other amounts due by Defendant under this Final
Judgment or any other judgment, order, consent order,
decree or settlement agreement entered in connection with this proceeding, is a debt for the violation
by Defendant of the federal securities laws or any
regulation or order issued under such laws, as set
forth in Section 523(a)(19) of the Bankruptcy Code,
11 U.S.C. § 523(a)(19).
VII.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that this Court shall retain jurisdiction of
this matter for the purposes of enforcing the terms of
this Final Judgment.
VIII.
There being no just reason for delay, pursuant to
Rule 54(b) of the Federal Rules of Civil Procedure,
the Clerk is ordered to enter this Final Judgment
forthwith and without further notice.

App.111a

/s/ Mark L. Wolf
United States District Judge
Dated: August 18, 2017

App.112a
MEMORANDUM AND ORDER OF THE
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF MASSACHUSETTS
(JULY 28, 2020)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,
CRAIG MEDOFF, and GREGORY S. KRONING,

Defendants.
________________________
C.A. No. 12-12324-MLW
Before: Mark L. WOLF, United States District Judge.
The Securities and Exchange Commission (“SEC”)
brought this case against BioChemics, Inc. (“BioChemics”),
its Chief Executive Officer John Masiz, and others,
alleging that material false and misleading statements
were made in connection with the sale of BioChemics’
securities. In June 2017, the court granted summary
judgment for the SEC on its claims that Masiz was
negligent in making material false and misleading
statements in selling BioChemics securities. The court
scheduled a hearing to decide whether it should grant
the SEC’s motion for summary judgment on whether
Masiz made those fraudulent representations intentionally. The parties then settled their dispute.

App.113a
In August 2017, the court entered the SEC’s and
Masiz’s jointly proposed Final Judgment against him.
See Dkt. No. 345. Among other things, Masiz admitted
negligently making false and misleading material
misrepresentations. He agreed to pay a $120,000 fine
and to an injunction prohibiting him from violating
federal securities laws in the future. In addition, the
Final Judgment required that if Masiz solicited any
investment in the future, he disclose, in a specified
manner, his history with the SEC, including concerning
this case and a 2004 injunction in another case
prohibiting him from violating federal securities laws.
Id. §§ I-IV. The court retained jurisdiction to enforce
the Final Judgment. Id. § VII.
For the reasons explained in detail in a January
17, 2020 Memorandum and Order, the court ordered
Masiz to file for the public record evidence of his compliance with the Final Judgment and denied Masiz’s
motion to seal such evidence. Dkt. No. 591; SEC v. BioChemics, Inc., 435 F. Supp. 3d 281 (D. Mass. 2020).
Masiz has filed a Motion for Reconsideration or in the
Alternative to Alter or Amend that decision (Dkt. No.
602, the “Motion”).
The First Circuit described the standard for
motions for reconsideration in United States v. Allen,
573 F.3d 42, 53 (1st Cir. 2009). “Motions for reconsideration are not to be used as a vehicle for a party to undo
its procedural failures or allow a party to advance
arguments that could and should have been presented
to the district court prior to judgment.” Id. “Instead,
motions for reconsideration are appropriate only in a
limited number of circumstances: if the moving
party presents newly discovered evidence, if there has
been an intervening change in the law, or if the movant

App.114a
can demonstrate that the original decision was based
on a manifest error of law or was clearly unjust.” Id.
As the First Circuit has also stated, “reconsideration
is ‘an extraordinary remedy which should be used
sparingly.’’’ Palmer v. Champion Mortg., 465 F.3d 24, 30
(1st Cir. 2006) (quoting 11 Charles Alan Wright et al.,
Federal Practice and Procedure § 2810.1 (2d ed. 1995)).
The court has considered the Motion, as well as
Masiz’s memorandum and affidavit filed in support
of it. See Dkt. Nos. 602, 603, 603-1. Masiz does not
submit newly discovered evidence. Nor does he assert
that there has been an intervening change in the law.
Rather, Masiz argues, in essence, that the court’s
decision was manifestly incorrect as a matter of law
and clearly unjust. These contentions rely in part on
misstatements of the court’s reasoning and, in any
event, are incorrect.
As explained in the January 17, 2020 Memorandum and Order, the court had the authority to ensure
compliance with the Final Judgment and had a proper
factual basis for exercising it. See Dkt. No. 591 at 19-23.
In addition, the court had a proper basis for requiring
that the information concerning compliance that Masiz
belatedly submitted to the court be made part of the
public record. See id. at 24-27.
As the standards for the extraordinary relief
requested are not met, Masiz’s Motion for Reconsideration or in the Alternative to Alter or Amend the
Court’s 1-17-20 Memorandum and Order (Docket No.
602) is hereby DENIED.
/s/ Mark L. Wolf
United States District Judge

App.115a
NOTICE OF ELECTRONIC FILING
(AUGUST 27, 2020)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
The following transaction was entered on 8/27/2020
at 4:02 PM EDT and filed on 8/27/2020
Case Name:

Securities and Exchange Commission v.
Biochemics, Inc et al

Case Number: 1:12-cv-12324-MLW
WARNING: CASE CLOSED on 08/22/2017
Document Number: 666 (No document attached)

Docket Text:
Electronic Clerk’s Notes for proceedings held in a
joint session before Judge Mark L. Wolf and Chief
Judge Christopher J. Panos of the US Bankruptcy
Court for the Dist. of MA, Court Case No. 18-12844,
Inpellis, Inc.–Debtor. Granting [620] Motion for Order
of Sale; denying [653] Motion to Continue; granting
[657] Motion to Withdraw as Attorney. Attorney John
J. Monaghan terminated. Evidentiary Hearing held on
8/27/2020 via videoconference. Affidavit of John Aquino,
Chapter 7 Trustee of Inpellis, Inc. (Docket No. 658)
and Affidavit of Receiver, Mark G. DeGiacomo (Docket
No. 659) admitted into evidence. Witness, John Aquino,
sworn and gives testimony. Cross-examination of
Aquino by Attorney Bennett. Witness, Mark G. DeGia-

App.116a
como, sworn and gives testimony. Cross-examination
of DeGiacomo by Attorney Bennett. Attorney Schlichtmann states objections for the record, moves to stay
sale. Attorney Schlichtmann shall order excerpt of
transcript. Closing arguments made. Rulings made
from the bench by Judge Panos (sale motions in the
bankruptcy action are hereby allowed) and by Judge
Wolf (Motion for Sale, allowed; Emergency Motion to
Continue, denied without prejudice; Motion to Withdraw, allowed.). (Court Reporter: Debra Joyce at
joycedebra@gmail.com.) (Attorneys present: Shields,
London, Aquino, Horne, Schlichtmann, DeGiacomo,
Cacace, Farrell, Scheuer, Galletta, Monaghan, Parker,
Bennett) (Loret, Magdalena)
1:12-cv-12324-MLW Notice has been electronically
mailed to:
Charles R. Bennett, Jr
cbennett@murphyking.com,
ecf-ca5a5ac33a04@ecf.pacerpro.com,
ecf-d62020bcf26e@ecf.pacerpro.com,
imccormack@murphyking.com
Mark G. DeGiacomo
mdegiacomo@murthalaw.com,
jbabula@murthalaw.com
Howard M. Cooper
hcooper@toddweld.com,
lmahoney@toddweld.com
John J. Monaghan
bos-bankruptcy@hklaw.com
Martin F Healey
healeym@sec.gov, #brodocket@sec.gov

App.117a
Michael P. Angelini
mangelini@bowditch.com,
cdocketing@bowditch.com,
sriley@bowditch.com
Francis J. DiMento
fjd@dimentosullivan.com,
pat@dimentosullivan.com
Peter Sabin
Willett sabin.willett@bingham.com
Donald F. Farrell, Jr
DFF@andersonaquino.com
Jonathan M. Albano
jonathan.albano@morganlewis.com
Jan R. Schlichtmann
jan@schlichtmannlaw.com
David H. London
londond@sec.gov,
#BRODOCKET@SEC.GOV
Keith L. Sachs
ksachs@ddsklaw.com
John A. Sten
jsten@atllp.com, prankin@atllp.com
Kathleen Burdette Shields
shieldska@sec.gov,
#BRODOCKET@SEC.GOV
Michael J. Fencer
fencer@casneredwards.com

App.118a
Taruna Garg
tgarg@murthalaw.com,
mdegiacomo@murthalaw.com,
mgarcia@murthalaw.com
Douglas T. Radigan
dradigan@bowditch.com,
cdocketing@bowditch.com,
dgrasis@bowditch.com, sperry@bowditch.com
Orestes G. Brown
obrown@metaxasbrown.com
Joshua S. Grinspoon
grinspoonj@sec.gov
Joseph M. Cacace
jcacace@toddweld.com, ejoyce@toddweld.com
Jonathan M. Horne
jhorne@murthalaw.com,
lmulvehill@murthalaw.com
Elizabeth M. Bresnahan
elizabeth.bresnahan@morganlewis.com,
BOCalendarDepartment@morganlewis.com
Carol E. Schultze
schultzec@sec.gov, caroleschultze@gmail.com,
masseym@sec.gov, willoughbyd@sec.gov
Craig Medoff
craigmedoff@yahoo.com

App.119a
SECOND EXCERPT OF MOTION HEARING
VIA VIDEOCONFERENCE
(AUGUST 27, 2020)
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,

Defendants.
________________________
Civil Action No. 12-12324-MLW
Before: Mark L. WOLF, United States District Judge.

[August 27, 2020 Transcript, p.4]
(The following proceedings were held via videoconference before the Honorable Mark J. Wolf, United
States District Judge, United States District Court,
District of Massachusetts, at the John J. Moakley
United States Courthouse, 1 Courthouse Way, Boston,
Massachusetts, on August 27, 2020.)
[****]
JUDGE PANOS: May I ask, Judge Wolf, whether Mr.
Farrell intends to redirect the trustee and whether
any other parties contemplate examining the
trustee?

App.120a
MR. SCHLICHTMANN: Mr. Masiz is contemplating
taking the advantage of the opportunity of crossexamination as stated in the order for the
hearing, absolutely.
JUDGE WOLF: I’m going to have a question about
what objection you’ve raised on which you would
question, but—so don’t take that for granted.
MR. SCHLICHTMANN: I’ll be happy to address it,
your Honor, when you wish me to do so.
JUDGE WOLF: All right, because you have—as I
understand—okay. In fact, if we discuss it—
MR. SCHLICHTMANN: Sure.
JUDGE WOLF: We will, and I just encourage you, if
it’s on the issue that Judge Panos talked about—
MR. SCHLICHTMANN: That’s taken off the table,
as I understand it.
JUDGE WOLF: You’re satisfied.
MR. SCHLICHTMANN: I am.
JUDGE WOLF: All right. Just so I can think about it
in the next ten minutes, what would be the
issues you would cross-examine on?
MR. SCHLICHTMANN: The issue of Mr. Masiz—our
issue is that Mr. Masiz is being wrongly excluded
and not allowed to participate based on certain
assumptions which go directly to what the trustee
has been examined on.
So we need to elicit information to—because it goes
directly to our case. It’s the same factual basis.
JUDGE WOLF: Then that’s not going to be, I think,
in the context of this questioning. I’ll think about

App.121a
this. We have that—I have that on the agenda.
If there’s a proper basis for any further questions
to Mr. Aquino, we’ll come back to it or maybe
we’ll hear from you then.
All right. We’ll take that 10-minute break.
According to my clock it’s now 12:20 almost,
we’ll resume at 12:30. Thank you.
[****]
JUDGE PANOS: And, Mr. Schlichtmann, I understand you’d like the opportunity to cross-examine
the trustee, which we can take up after Mr.
Bennett is finished and we understand the
intentions of Mr. Farrell.
MR. SCHLICHTMANN: Yes, I’m doing it pursuant to
the order that both Judges issued, and I just
demand my rights under that order that you
issued, unless the Court—the Courts are now
amending or have amended, that I’m not aware
of, their order. I am going to conform to orderly
process in accordance with the order that both
Courts issued.
JUDGE PANOS: Why don’t we take that up, Mr.
Schlichtmann, when it’s your turn to speak.
MR. SCHLICHTMANN: I look forward to it.
[****]
JUDGE PANOS: And the only other party that has
indicated an interest in examining the trustee is
Mr. Schlichtmann.
JUDGE WOLF: Judge Panos, let me do this so I can
try to get focused on what Mr. Schlichtmann
would like to question about.

App.122a
Mr. Schlichtmann, Mr. Masiz filed two objections,
and working backwards, one was filed August 25,
Docket 660 in the District Court case, and that
supplemental objection regarded the free and
clear sale of BioChemics and Inpellis assets in
the 820 order converting the 8/27 hearing, today’s
hearing, on sale motions to an evidentiary hearing.
Do you wish to question the trustee about that
objection?
MR. SCHLICHTMANN: You’re referring to the objection having to do with the use of the proceedings
to somehow divest Mr. Masiz of his ownership
rights. My understanding is—I’m sure I’m clear on
this—that the Courts are not using this proceeding
to do that because the receiver and the trustee
are not doing that, so there’s no basis to have a
hearing on that. So that objection is taken care
of, there’s no question about that. We’re satisfied
that that has been addressed to our satisfaction.
JUDGE WOLF: That’s with regard to whether Mr.
Masiz is an inventor and an owner of one or more
of the patents, just to make sure I understand
and the record is clear.
MR. SCHLICHTMANN: Correct.
JUDGE WOLF: Okay. So is there anything else in the
objection that you filed on August 25 that you
wish to question the receiver about—I’m sorry,
the trustee about?
MR. SCHLICHTMANN: Well, the objection is a
supplemental objection to our 8/5 objection—
JUDGE WOLF: Okay, so—okay. So the objection you
filed on August 5 is Docket Number 642 in the

App.123a
District Court case, and that’s the objection that
you want to question the receiver about.
MR. SCHLICHTMANN: Correct.
JUDGE WOLF: And the relief that you asked for in
that objection on page 20 says, For these reasons,
so that Masiz may freely participate in the sale
process on the same terms applicable to every
other participant, Masiz respectfully requests
that the District Court and the Bankruptcy Court
clarify that if Mr. Masiz participates in the sale
process, he will not be subjected to an investigation by the District Court as to whether he
complied with the 2004 and 2017 consent decree
injunctions obtained by the SEC.
MR. SCHLICHTMANN: Correct.
JUDGE WOLF: That’s the relief you’re seeking, right?
MR. SCHLICHTMANN: Right. We want to participate
without threat of being investigated as explained
in that objection.
JUDGE WOLF: And I anticipated that I’d give you a
chance to discuss that further, but what would
you want to ask the trustee about that?
MR. SCHLICHTMANN: Because the trustee has
personal knowledge about—personal knowledge
as to this factual history, and the factual
history—everything he was asked about goes
directly to the validity of the reasons why Mr.
Masiz has to be subjected to an investigation. And
I want to be able to support my objection—he has
testified, and that testimony is directly relevant
to my objection. I need to clarify the record—

App.124a
JUDGE WOLF: Here, pause. You used an important
term, “relevant.”
MR. SCHLICHTMANN: Yes.
THE COURT: The questioning has to promise to
provide something relevant—
MR. SCHLICHTMANN: Yes.
JUDGE WOLF: —so it’s not an undue waste of time.
Why—tell me what your objection is—and of course
I’ve read it, and it reiterates arguments you’ve
made before that I have addressed before and
are before the 1st Circuit to some extent, but
why—what is the objection and what questions
would you want to ask and why are they
relevant?
MR. SCHLICHTMANN: Okay. So the objection is
that the reasons that were given by the Court,
by yourself, at the July 10th hearing, you referred
back to your opinion, which you referred to
again today; and you specifically referred that it
was this collusion charge by ADEC, basically,
that the SEC settlement, okay, that resulted in
the lien which everybody’s been testifying to
about that was supposedly fraudulent is the reason
why you said, Because of ADEC’s accusations, I
don’t trust the SEC, and I don’t trust Mr. Masiz,
who’s a two-time loser; and, therefore, if he
comes in here and he wants to bid on these
assets, I’m going to treat him differently than
anyone else, and I’m going to subject him not
just to an investigation about whether he complied
with giving a disclosure, but I’m also going to
investigate him whether he violated the securities

App.125a
laws which both things are in the province of the
SEC and are inappropriate for the Court to go
into, and we believe we have a constitutional
right not to be excluded on that basis.
And since you’ve made an evidentiary hearing
on the very factual premise of our objection and
taken testimony, this is an evidentiary hearing
—and in your order both Courts said—noted our
objection and said that—
JUDGE WOLF: Which order are you referencing?
MR. SCHLICHTMANN: The order that is the
foundation of this evidentiary hearing. And what
you said—
JUDGE WOLF: What’s the date of the order, please?
MR. SCHLICHTMANN: Okay. The date of the order
is 20th, August 20, 2020, and it’s—August 20th
is the order. It’s the order that actually has
brought us to this evidentiary hearing, which
converted the approval hearing into an evidentiary hearing, and now evidence has been taken.
JUDGE WOLF: So—okay.
Let me do the following: First, as to what was
said on July 10, the transcript will be the record.
Either you’ve misunderstood it or mischaracterized it, but, in any event, I think some clarification
may be helpful with regard to Mr. Masiz.
So, as I said, in this limited objection filed on
August 5th, Docket Number 642 in the District
Court case, Mr. Masiz requests assurances from
the District Court and the Bankruptcy Court
that if he participates in the sales process he’ll not

App.126a
be subjected to an investigation by the District
Court as to whether he complied with the 2004,
2017 consent decree injunctions obtained by the
SEC.
Mr. Masiz is not barred from participating in the
auction if we approve this so it goes forward.
If he’s affiliated with a bidder, that will have to
be disclosed.
MR. SCHLICHTMANN: Correct.
JUDGE WOLF: And the sources of all funds utilized by
the successful bidder will have to be disclosed.
That’s in the notice that was given to all potential bidders, that’s Docket 632 at page 6 of 19.
If those disclosures—if Mr. Masiz participates or
an affiliate participates—
MR. SCHLICHTMANN: Let me be clear on that.
There will never be any question—if Mr. Masiz
has any connection, no matter how remote, to
any bidder, it is going to be fully and completely
disclosed to you. It will be direct and on the
record.
JUDGE WOLF: Okay. I’m listening to you. Take a
breath and continue to listen to me.
MR. SCHLICHTMANN: All right.
JUDGE WOLF: Okay?
MR. SCHLICHTMANN: Yes.
JUDGE WOLF: So if the—there is the possibility that
if Mr. Masiz participates that will I ask questions.
MR. SCHLICHTMANN: Yes.

App.127a
JUDGE WOLF: It’s possible he might be ordered to
provide some evidence of compliance and do that
on the public record. The reasons for that are
essentially described in my January 17, 2020
Memorandum and Order. It’s Docket 591, and it’s
435 F. Supp. 3d 281.
To the extent that Mr. Masiz would be treated
differently than other bidders, it’s because he’s
in what I hope is a unique situation.
I found that after he agreed to the injunction in
the Vaso case in 2004 I think, he at least negligently violated it in raising money for BioChemics.
And he’s now agreed to another injunction, which
is a court order, that requires certain disclosures
and, again, that he not violate the securities
laws.
The assurance that you’re seeking here in advance
that he won’t be investigated or inquired of
would essentially bind the authority of the
Courts in the following hypothetical scenario:
Let’s say Mr. Masiz is affiliated with a successful
bidder, might be the only bidder if he participates,
and the bid is $5 million, and somebody comes in
before the final hearing and says, Mr. Masiz
solicited me; he asked me to give money; he
didn’t make the disclosure required by the
injunction, I just learned of it, and I gave him a
million dollars for this venture or $5 million for
this venture based on what I believe are
misrepresentations. I wouldn’t assure Mr. Masiz
that I wouldn’t investigate that.
So I think the real—I think at the heart of this, you
haven’t been able to find anybody not associated

App.128a
with Mr. Masiz to buy this previously. So if he’s
still interested, if he’s able in a manner that’s
consistent with the injunction to raise funds, to put
together a group to buy this property that he has
faith in that third-parties haven’t demonstrated
yet, despite the best efforts of Gordian and
others, you know, if you’re confident that can be
done lawfully and consistent with the injunction,
you just need to be prepared for the possibility
that you’ll have to provide some evidence of that.
That’s the situation.
And I don’t see that any questions to the trustee
are relevant to that, because the trustee’s interactions with Mr. Masiz are not the foundation or
haven’t contributed to the concerns that caused
me to issue my orders a year ago.
MR. SCHLICHTMANN: So—
JUDGE WOLF: Go ahead.
MR. SCHLICHTMANN: I want to see if—I’m calmed
down.
I want to see if I can try and be helpful here, all
right.
I want to be very clear, what is the issue we are
having, all right. From our standpoint, the agency
that has the responsibility, the Article II responsibility who obtained the consent decree is the
SEC, and that is the agency to which Mr. Masiz is
in fear of. And normally, like every other citizen,
he’s got the consent decree, he knows they
obtained it, he knows they do their job, and
everyone knows the history. And it is the SEC’s
obligation, responsibility to carry out their

App.129a
authority, and under Article II, if they do something, I have—I can deal with it in the ordinary
course.
When your Honor takes over that responsibility,
you deny me that opportunity. You’re the adjudicator, your Honor. You’re not the investigator, and
that’s the point we’re trying to make. So this has
a profound constitutional meaning to us.
I do not—there is no way, your Honor, that we
are engaging in behavior here which can be
interpreted as somehow is going to prevent the
SEC from doing their job, okay. And if the SEC
believes because of this that there’s reasons to
believe that the consent decrees have been
violated, it is their obligation to deal with it so I
can deal with it in the ordinary course.
When you do it, your Honor, you are becoming
an Article II authority, not an Article III.
JUDGE WOLF: Okay—
MR. SCHLICHTMANN: Let me just—
JUDGE WOLF: Go ahead.
MR. SCHLICHTMANN: I have told you as an officer
of the court Mr. Masiz wants to participate, and if
he does, he is going to be participating through
an entity, whether it has his name or not, his
company, whatever, will be fully disclosed; there
will be no question he’s participating, okay. Let’s
put that to the side.
Also, I understand this is a rule that applies to
everybody else, including Mr. Masiz, which we
accept, there has to be a disclosure about source

App.130a
of funds. And Mr. Masiz will make a disclosure
like everybody else in accordance with the terms
of the receiver and the trustees say. All right.
And we will do that. And I’m also going to tell
you, not because I have an obligation to as part
of an investigation, but I believe as an officer of
the court to see if I can remove an issue between
us that I really think is hurting everything,
hurting the estate, hurting the sale, causing all
this stuff, which is, your Honor, Mr. Masiz, has
not been raising funds, he hasn’t been, and he’s
not going to be all through this process. And he’s
not going to be using funds raised from an
investor in which he made a promise. He is not,
and I’m telling you that, not because you’re
compelling me to tell you but because I’m trying
to help you understand—but if the SEC thinks
what I just said is untrue or someone reports—
there’s a whole public record. If somebody knows
they have Mr. Masiz, you know, in a place where
very few people have, do you think—they would
go to the SEC, which would be appropriate, and
the SEC would do whatever they do, and we
would defend or concede or whatever it would
be. That’s the appropriate way.
But I can assure you I am not going to let Mr.
Masiz and Mr. Masiz is not going to let himself,
who wants to participate, do anything or raise
any money from anybody. It is going to be funds
that he has obtained within the family that are
his funds or funds generated by revenues, but it
will not be raised funds. It will not be publicly
raised funds, it will not be privately raised funds,
it will not be inducing somebody to invest in this

App.131a
operation. I’m telling you that, and the SEC can
hold me to that.
JUDGE WOLF: Okay. Here, thank you.
One, that confirms for me that there are no
relevant questions for the trustee that you would
have, and I hope based on what I said you now
understand why that is better.
Two, right now there’s nothing—there’s nothing
before me. If he’s not going to do anything that
would implicate the terms of the injunction—
and I don’t want to paraphrase it—but if he’s not
going to do anything that implicates the terms of
the injunction, your concerns are moot.
To the extent you’re arguing again about the
authority that the District Court has and the
propriety of conduct, I addressed that in detail
in the January decision. I looked at it again on
your motion to reconsider, which I denied, and
you raised it with the 1st Circuit from which, of
course, I’ll take guidance when they decide the
case.
Hopefully what you’ve said I think puts this all
in a more concrete context, and—but there’s
no—I’m not going to permit—I don’t even know
if you still want to question the trustee, but—
MR. SCHLICHTMANN: Well, your Honor, we’re
close. I think there has to be—because I am
before the 1st Circuit with an appeal and a
petition for prohibition, because we are I think
we have to be clear with each other. We’re close
and maybe we’re there. So I think the acid test
would be I have asked—officially I’ve asked for

App.132a
that relief, and the relief, you are correct, says
that we don’t—we want it clarified that he’s just
going to be subjected to the same terms as
everyone else and that he is not going to be
singled out for any kind of questioning or
investigation that is not consistent with anybody
else. That’s what the ruling—
JUDGE WOLF: The request for that relief is denied for
the reasons I explained to you a few moments
ago. That’s it.
MR. SCHLICHTMANN: If you denied me the relief—
JUDGE WOLF: Yes.
MR. SCHLICHTMANN: But you denied me the relief,
your Honor, which is the problem, I think, procedurally here. You called for an evidentiary
hearing on the objections and you said in your
order—again, your Honor, I want us to resolve
this issue, trust me. But you say in your order,
Any party wishing to cross-examine the trustee
or the receiver with respect to the affidavits will
have an opportunity to do so—
JUDGE WOLF: You’re going too fast, perhaps, for
the stenographer.
MR. SCHLICHTMANN: I’m sorry. It says, Any—
JUDGE WOLF: Go ahead. Say—put on the record
what you want to put on.
MR. SCHLICHTMANN: Thank you, your Honor.
It says, The receiver and trustee will submit
affidavits having to do with the issues before us,
which includes our objection. Any party wishing
to cross-examine the trustee or the receiver with

App.133a
respect to the affidavits will have an opportunity
to do so at the sale and settlement approval
hearing and further direct testimony may be
permitted.
And then you said, If any objecting or responding party seeks to designate witnesses, identify
exhibits with respect to their objections or
responses, they shall do so and provide copies
of exhibits to opposing counsel—
JUDGE WOLF: Too fast.
MR. SCHLICHTMANN: Sorry, your Honor.
It also says, If any objecting or responding party
seeks to designate witnesses or identify exhibits
with respect to their objections or responses,
they shall do so and provide copies of exhibits to
opposing counsel by the designation deadline.
Frankly, your Honor, the only one who actually
took advantage of that is Mr. Masiz, not ADEC, not
the SEC, not even the receiver and the trustee.
We have put in evidence, okay, which directly
bears—
JUDGE WOLF: Where’s the evidence?
MR. SCHLICHTMANN: Mr. Masiz’s testimony accompanying the objection in support of it and the
record appendix supporting all the documents he
refers to.
JUDGE WOLF: Well, those matters are part of the
record before us and part of the case.
MR. SCHLICHTMANN: That’s correct.

App.134a
JUDGE WOLF: Implicit in any order when a hearing
is established is that the parties will have an
opportunity to provide relevant evidence.
MR. SCHLICHTMANN: Yes.
JUDGE WOLF: And evidence, the potential probative
value of which is not substantially outweighed
by wasting time.
And for the reasons I explained to you, the
trustee has no relevant evidence relating to the
reasons I just denied your request and has no
relevant evidence to the events that generated
the issue.
MR. SCHLICHTMANN: Your Honor, may I briefly,
briefly—
JUDGE WOLF: No, no, this has got to end.
MR. SCHLICHTMANN: I understand, your Honor,
but we have a procedural problem, and I have to
at least tell you the objection. It’s a due process
one, a fundamental one.
You have denied—you said in your order that we
are going to have an evidentiary hearing. You’ve
taken an evidentiary—you’ve taken evidence
which is directly relevant to my objection, and
you are denying my objection without allowing
me to put in the evidence you said I could put in
on cross-examination, and that’s a problem
procedurally.
You’ve now denied Mr. Masiz fundamental due
process. It violates your own order, and I’m trying
to prevent a procedural problem, an unnecessary
one for you, your Honor, and the proceedings.

App.135a
JUDGE WOLF: You haven’t identified any question
that would elicit relevant evidence from the
trustee, and that’s the end of that.
MR. SCHLICHTMANN: Well, forgive me—
JUDGE WOLF: Stop, stop.
MR. SCHLICHTMANN: Your Honor, you challenged—
you said I haven’t identified. You’ve never given
me an opportunity to do that; my documents do
that.
JUDGE WOLF: I asked you—
MR. SCHLICHTMANN: I’m saying collusion. The fundamental premise—
JUDGE WOLF: Mr. Schlichtmann, I’m ordering you
to stop.
MR. SCHLICHTMANN: Then I’ll stop.
JUDGE WOLF: I’m not asking you; I’m ordering you.
MR. SCHLICHTMANN: All right, then I have no
choice. And I object, your Honor, and I will take
whatever steps the law provides to assert Mr.
Masiz’s rights, and I think it’s very unfair and
unfortunate and it’s just an added unnecessary
inconvenience and expense. And we wanted to
provide evidence to you—
JUDGE WOLF: Stop. I ordered you to stop.
MR. SCHLICHTMANN: I am stopping.
JUDGE WOLF: I’ll order you to also order the transcript.
[****]

App.136a
JUDGE PANOS: Thank you. Any other party that filed
an objection have any anything for Mr. DeGiacomo
subject to Judge Wolf’s ruling already on Mr.
Schlichtmann?
MR. SCHLICHTMANN: So I take objection, your
Honor, for the record, but I understand from the
order I cannot further argue this issue.
JUDGE WOLF: That’s correct.
MR. SCHLICHTMANN: Okay, and I’m complying with
your order.
[****]
JUDGE PANOS: We’re back on the record?
JUDGE WOLF: Yes.
One threshold matter, unless there is some objection from Mr. Schlichtmann, I’m ordering that he
order the excerpt of this three-hour-plus transcript
on an expedited basis from the court reporter.
And if there’s any kind of—if he files something
in the Court of Appeals or elsewhere that he
append the transcript to the submission, and I’ll
memorialize that order in writing later. Okay?
MR. SCHLICHTMANN: Your Honor, on that point,
not on—I’m complying with your order, I’m not
arguing my point, but just procedurally—and
thank you for that, I am ordering, I will request
immediately to do that, and that will be fast
because that will be the excerpt part.
The other thing, your Honor, because we are
going to be appealing it and because we have a
petition from before, which is related to this, I
would ask can I make a motion now to you pro-

App.137a
cedurally to stay the proceedings pending the
outcome of our appeal so you’d have an opportunity now to act on it so it would be—
JUDGE WOLF: Stay what proceedings?
MR. SCHLICHTMANN: To stay these proceedings
about the sale, because Mr. Masiz is—while I take
your order on appeal.
JUDGE WOLF: The order prohibiting you from questioning the trustee?
MR. SCHLICHTMANN: The denial of my objection,
exactly, as—
JUDGE WOLF: The denial of your objection.
MR. SCHLICHTMANN: The denial of my objection.
JUDGE WOLF: Okay. So you’re making an oral motion
for a stay.
MR. SCHLICHTMANN: Yes, because I’m going to be
appealing your order today having—you’ve denied
me the relief specified in my objection.
JUDGE WOLF: On page 20 that I read.
MR. SCHLICHTMANN: Okay, yes.
JUDGE WOLF: There’s not—well, let’s see. I don’t
want to get diverted on this.
The standards for stay require—I addressed in
my Canterbury Liquors case in 1998, you can
look at it. If you want to file a motion for stay,
you may, but at the moment I doubt it would be
meritorious and—I don’t think we should get
diverted with that.
Anyway, okay. I’ll turn it back to Judge Panos.

App.138a
[****]
JUDGE PANOS: Thank you.
Mr. Schlichtmann, you don’t have an objection
other than the one you have discussed with
Judge Wolf. I understand your rights are on the
record on that one, so I’m assuming you don’t
want to argue because that would be the only
thing you’re arguing.
MR. SCHLICHTMANN: Well, am I being given the
opportunity to argue?
JUDGE PANOS: Not those points. I think I heard
Judge Wolf order you not to argue those points any
longer. Those issues are preserved on the record.
MR. SCHLICHTMANN: Okay. But I’m not allowed to
make a statement about our position regarding
our objection.
JUDGE PANOS: Not if it’s the same position that
Judge Wolf ordered no further argument on.
MR. SCHLICHTMANN: Well, I don’t believe it is, but
I will just state very simply, if you’ll allow me, so
it’s clear, we stand on our objection as filed based
on our filing and object, of course, to being denied
our opportunity as granted by the order to deal
with the evidence—to cross-examine as ordered.
On that basis, we will be appealing our rights here
and asking that these—the sale be stayed because
Mr. Masiz is being denied, unconstitutionally
denied his right to freely participate and his due
process rights in the proceedings itself. And with
that I will conclude my remarks.
JUDGE PANOS: Thank you. [ * * * * ]

App.139a
AFFIDAVIT OF MARK G. DEGIACOMO
(AUGUST 25, 2020)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,
CRAIG MEDOFF, and GREGORY S. KRONING,

Defendants.
________________________
C.A. No. 12-12324-MLW
_________________________________________
UNITED STATES BANKRUPTCY COURT
DISTRICT OF MASSACHUSETTS
________________________
IN RE: INPELLIS, INC.,

Debtor.
________________________
Chapter 7 Case No. 18-12844-CJP
I, Mark G. DeGiacomo, hereby depose and say
upon my own personal knowledge:

App.140a
1. I am a partner with the law firm of Murtha
Cullina LLP and am licensed to practice law in the
Commonwealth of Massachusetts and the Federal
District Court for the District of Massachusetts.
2. I am the Court-appointed receiver of BioChemics, Inc. (“BioChemics”) and have personal knowledge
of the facts set forth in this Affidavit.
3. Since 1995, I have been a Chapter 7 bankruptcy panel trustee in the District of Massachusetts.
In that role I have been appointed as the Chapter 7
trustee in thousands of bankruptcy cases, and have
conducted hundreds of asset sales in Chapter 7
proceedings, including many sales of intellectual
property assets.
4. I am submitting this affidavit in support of

the Motion for the Entry of an Order Authorizing the

Sale of Assets by Public Auction Free and Clear of
Liens, Claims, Encumbrances and Other Interests and
Approving Allocation of Sale Proceeds [C.A. No. 1212324-MLW, Docket No. 620] (the “Sale Motion”), and
in response to the objection to the Sale Motion
filed by Bio Strategies, L.P. [Docket No. 641].
5. On October 9, 2018, the Court entered an Order
appointing me as the receiver of BioChemics, Inc.
[Dkt. No. 452] (the “Receiver Order”).
6. The Receiver Order provides that “[t]he Receiver shall assume control of all Receivership Assets.”
Receiver Order ¶ 5. The Receiver Order defines “Receivership Assets” as “all property of whatever kind and
wherever situated, of defendant BioChemics, Inc., as
well as property of the Shareholder Resolution Trust
in which the Commission has first-priority security
interests.” Receiver Order ¶ 1.

App.141a
7. The Receiver Order further provides in relevant part that:
Until further Order of this Court, Mark
DeGiacomo is hereby appointed to serve without bond as the receiver to assume control
of, marshal, pursue, and preserve the Receivership Assets with the objective of maximizing the recovery of assets, and, to the
extent that assets recovered are inadequate
to make defrauded investors whole, ensuring
that the distribution of those assets is as
just and equitable as practicable; . . .
Receiver Order, ¶ 2.
8. Prior to my appointment, BioChemics specialized in the research and development of a patented
transdermal drug delivery technology known as VALE
(Vaso-active Lipid Encapsulated), which aimed to allow
drugs to be efficiently administered through the skin
with the promise to transform orally administered
drugs into transdermals that were safer, less expensive
and potentially faster acting.
9. Those research and development efforts resulted
in an intellectual property portfolio consisting of dozens
of registered trademarks, patents and patent applications (the “BioChemics Assets”). The Assets include
intellectual property relating to the VALE delivery
system itself, as well as specific applications of the
VALE technology including, among other things, for
cosmetic and veterinary purposes.
10. In addition, BioChemics jointly owns certain
intellectual property with Inpellis, Inc. (“Inpellis”)
which has ownership rights in the jointly-owned intel-

App.142a
lectual property for use with respect to several specified
products (the “Joint Patents”).
11. Inpellis obtained its interests in the Joint
Patents pursuant to an Intellectual Property Purchase
Agreement dated October 24, 2015 (the “IP Purchase
Agreement”).
12. The BioChemics Assets are encumbered by a
first priority security interest held by the Securities
and Exchange Commission (the “Commission”) which
secures an outstanding judgment in the amount of
$17,897,884.
13. The Commission also holds a first priority
security interest securing the same judgment in all of
Inpellis’s intellectual property (the “Inpellis Assets”).
14. ADEC Private Equity Investments, LLC
(“ADEC”) asserts a security interest in the Inpellis
Assets, and asserts that the security interest granted
to the Commission in the Inpellis Assets was a
fraudulent transfer subject to avoidance by the
Inpellis bankruptcy trustee (the “Trustee”).
15. The Commission asserts that it provided
reasonably equivalent value in exchange for its security interest in the Inpellis Assets, and it has raised
the possibility that the original transfer to Inpellis
pursuant to the IP Purchase Agreement itself was a
fraudulent transfer.
16. Mr. Masiz is listed as an inventor and joint
owner with respect to a certain patent and patent
applications pertaining to a Transdermally-Delivered
Combination Drug Therapy for Pain.
17. Based on my discussions with intellectual
property counsel, it is my understanding that as joint

App.143a
owners both BioChemics and Mr. Masiz may make, use,
offer to sell, or sell the patented invention within the
United States, or import the patented invention into
the United States, without the consent of and without
accounting to the other owners. I have also determined
that BioChemics may have a claim that Masiz is obligated to assign his rights to BioChemics on the basis
that he may have conceived of the invention while
conducting work in his role at BioChemics, used materials and resources that were supplied by and owned
by BioChemics, and that the inventions were within
the scope of Masiz’s responsibilities at BioChemics.
Additionally, Masiz was named as inventor in other
BioChemics’ owned patent assets, so a pattern had
been established whereby he assigned his rights to
BioChemics for presumably all other inventions; it is
unclear why the invention in the above-mentioned
patent assets is different and would not also be
assigned to BioChemics.
18. However, given the uncertainty, delay and
expense in pursuing this issue I have determined that
it is not in the best interests of BioChemics to pursue
claims against Mr. Masiz in connection with the
assets he asserts are jointly owned with him, or
attempt to sell the assets free and clear of his ownership interest. Instead I have decided to sell only BioChemics interest in the jointly owned assets, while
disclosing the interest Mr. Masiz asserts to potential
buyers. See Sale Notice, Fn. 1. I understand the successful buyer would have the right to challenge the
ownership claim asserted by Mr. Masiz.
19. Prior to the receivership, the investment
banking firm The Gordian Group (“Gordian”) had been

App.144a
engaged to market the BioChemics Assets and the
Inpellis Assets for sale and/or to raise capital.
20. Upon my appointment as receiver I consulted
with representatives of Gordian who were familiar with
these assets. Based on those discussions, I learned
that given the interrelatedness of the BioChemics
Assets and Inpellis Assets, it was likely that a joint
sale would likely yield a better overall price for the
assets, then the sum of two sales conducted separately.
21. Based on my experience selling intellectual
property assets in bankruptcy cases it is often very
difficult to separately value intellectual property assets
prior to a sale, especially where the assets are interrelated and do not have an established history of
generating commercial revenue.
22. Since my appointment, I have investigated
options available to sell the BioChemics’s Assets for
the highest and best price, including both a private
sale and public auction, jointly with the Trustee and
separately.
23. After receiving a competitive private offer
for the BioChemics Assets from BioPhysics Pharma,
Inc. (“BPI”), an entity affiliated with Mr. Masiz, I
sought approval to sell the BioChemics Assets to BPI
via a private sale, subject to higher and better offers.
24. ADEC Private Equity Investments (“ADEC”)
objected to the proposed sale and argued that some of
the BioChemics Assets proposed to be sold actually
belonged to Inpellis. The Court ultimately denied the
proposed sale without prejudice.
25. Following document and depositions discovery, ADEC, BPI, the Trustee and I participated in

App.145a
full-day mediation before the Hon. Joan N. Feeney
(Ret.). One of my aims at the mediation was to negotiate a private sale of the BioChemics Assets to BPI
that could ultimately obtain Court approval. Following
mediation, it became clear to me that a private sale of
the BioChemics Assets was not feasible.
26. Thereafter, I discussed with the Trustee the
possibility of conducting a joint public auction of both
the BioChemics Assets and Inpellis Assets.
27. I believe that a joint sale is in the best interests of the receivership estate because having the
intellectual property of both estates sold together (a)
is likely to bring a higher price than if they were sold
separately and (b) a joint sale avoids issues concerning
whether some of the BioChemics Assets are actually
property of the Inpellis bankruptcy estate.
28. However, in light of the requirements of 11
U.S.C. 363(f) a public auction of the Inpellis Assets free
and clear of all liens, claims and encumbrances is
only possible if both the Commission and ADEC
assented to the sale.
29. Ultimately, the Commission and ADEC negotiated an agreement whereby they would both assent
to the sale, but only if: (i) the Commission agreed to
release its lien on the Inpellis Assets, and (ii) the
Trustee and Receiver agreed to split any proceeds
from the sale 50-50.
30. I believe that the proposed 50-50 split of
sale proceeds is reasonable and in the best interests
of the BioChemics receivership estate for many reasons,
including: (i) the Commission, the sole beneficiary of
the sale, has agreed to the proposed split; (ii) the
mutual value enhancement from conducting the joint

App.146a
sale; (iii) the inherent difficulty in separately valuing
any particular item of intellectual property on its
own; and (iv) the fact that a joint sale is not possible
absent the Commission and ADEC’s assent.
[remainder of page left blank]

App.147a
Signed under the penalties of perjury this 25th
day of August, 2020.
/s/ Mark G. DeGiacomo
Court Appointed Receiver
of BioChemics, Inc.

App.148a
AFFIDAVIT OF JOHN J. AQUINO
(AUGUST 25, 2020)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,
CRAIG MEDOFF, and GREGORY S. KRONING,

Defendants.
________________________
C.A. No. 12-12324-MLW
_________________________________________
UNITED STATES BANKRUPTCY COURT
DISTRICT OF MASSACHUSETTS
________________________
IN RE: INPELLIS, INC.,

Debtor.
________________________
Chapter 7 Case No. 18-12844-CJP
I, John J. Aquino, being duly sworn, and in support
of the allowance of the relief requested in (i) the

Amended Motion Of Chapter 7 Trustee For Entry Of

App.149a

Order Authorizing Sale Of Certain Personal Property
Assets By Public Sale Free And Clear Of All Liens,
Claims, And Encumbrances And Approving Allocation
Of Sale Proceeds (Intellectual Property Assets) (the
“Inpellis Sale Motion”), and (ii) the Chapter 7 Trustee’s
Motion For Entry Of Order Approving Stipulation
By and Among Chapter 7 Trustee, Securities and
Exchange Commission and ADEC Private Equity
Investments, LLC (the “9019 Motion”), hereby depose
and state as follows:
Background
1. I am an attorney with the law firm Anderson
Aquino LLP, 240 Lewis Wharf, Boston, Massachusetts.
2. I am the duly appointed trustee (“Trustee”) of
the Chapter 7 bankruptcy estate of Inpellis, Inc.
(“Inpellis” or the “Debtor”).
3. Inpellis was formed in or about March 2012,
under Delaware law, as a wholly-owned subsidiary of
BioChemics, Inc. (“BioChemics”)1. In or about January
2015, BioChemics transferred all of its shares in
Inpellis to the Shareholder Resolution Trust (“SRT”),
a settlement trust purportedly established to resolve
controversies among BioChemics shareholders relating
to certain actions of BioChemics.
4. On July 26, 2018, ADEC Private Equity Investments, LLC (“ADEC”) and certain affiliated entities
and persons filed an involuntary Chapter 7 bankruptcy
petition against Inpellis in the U.S. Bankruptcy
Court for the District of Massachusetts. An order for
1 The Debtor was formerly known as “Alterix, Inc.”

App.150a
relief under Chapter 7 of the Bankruptcy Code was
entered on November 1, 2018. On November 5, 2018, I
was appointed as the Chapter 7 trustee of the Inpellis
bankruptcy estate and I continue to serve in such
capacity.
5. In connection with litigation instituted by the
Securities and Exchange Commission (“SEC”) against
BioChemics and other related parties (the “Receivership Proceeding”)2, on
October 9, 2018, the United States District Court
for the District of Massachusetts entered an order
appointing Mark G. DeGiacomo as receiver (“Receiver”)
and authorizing him to assume control of receivership
assets, including all assets of BioChemics as well as
assets of SRT in which the SEC maintained a first
priority security interest.
6. Prior to the entry of the order for relief, the
Debtor was a specialty pharmaceutical company developing transdermal product candidates for treating
pain resulting from musculoskeletal disorders and peripheral neuropathy. The Debtor acquired from BioChemics full or joint ownership of formulations which utilize
transdermal drug delivery systems for non-dermal
pain, and to patents, patent applications, and knowhow related to such transdermal delivery systems.
7. Upon information and belief, Inpellis owns,
either solely or jointly, the intellectual property interests identified in Paragraphs 9 and 10 of the Inpellis
Sale Motion.

2 Securities and Exchange Comm ‘n v. BioChemics, Inc., et al.,
Dist. Mass. Civil Action No. 12-12324-MLW.

App.151a
8. On June 26, 2020, the Inpellis Sale Motion and
the 9019 Motion were filed on my behalf. Pursuant to
the Inpellis Sale Motion, I requested authority to sell
the intellectual property interests held by the estate
(the “Inpellis IP Assets”) by means of a public auction
sale to be conducted jointly with the Receiver. Pursuant
to his Motion for the Entry of an Order Authorizing

the Sale of Assets by Public Auction Free and Clear
of Liens, Claims, Encumbrances and Other Interests
and Approving Allocation of Sale Proceeds (the

“BioChemics Sale Motion”), the Receiver has requested
similar authority in the Receivership Proceeding for
the sale of intellectual property interests held by the
Receiver (the “BioChemics IP Assets”). At the proposed
public auction sale, both the Inpellis IP Assets and
the BioChemics IP Assets will be offered for sale,
including intellectual property assets owned solely
by Inpellis and BioChemics respectively, as well as
assets owned together jointly.
9. With respect to the 9019 Motion, I seek approval of a Stipulation which provides for the agreements
and consents necessary as prerequisites for approval
of both the Inpellis Sale Motion and the BioChemics
Sale Motion.
10. Limited objections to the relief requested in
the BioChemics Sale Motion, the Inpellis Sale Motion,
and the 9019 Motion were filed by Bio Strategies,
L.P. (“Bio Strategies”) and John Masiz (“Masiz”).
11. I have reviewed the aforesaid limited objections, and I do not believe that any of the asserted
objections constitute grounds for the denial of the
relief requested in the respective motions.

App.152a
The Inpellis Sale Motion
12. Pursuant to the Inpellis Sale Motion,
authority is requested for the sale of all of the estate’s
right, title and interest in the Inpellis IP Assets at
public auction sale. The Inpellis IP Assets consist of
all intellectual property rights, including, without
limitation, all know-how, patents, patent applications,
trademarks, service marks, and trade names, and all
claims to such intellectual property rights. The Inpellis
IP Assets will be sold free and clear of any and all
liens, claims and encumbrances and as is, where is,
without any warranties or representations of any
nature whatsoever, with any and all valid liens
attaching to the proceeds of the sale in the respective
order of priority that existed as of the commencement
of the case.
13. Authority is also requested for the conduct
of a joint auction with the Receiver at which the we
shall offer for sale all intellectual property assets wholly
owned by the respective estates as well as intellectual
property assets jointly owned.
14. Pursuant to the Inpellis Sale Motion, I also
seek approval of the allocation of joint sale proceeds
on a 50%-50% basis with the BioChemics receivership
estate (the “50/50 Allocation”).
15. In conjunction with the preparation of the
Inpellis Sale Motion, I conducted a review of the claims
in the case. My review of the proofs of claim on file
with the U.S. Bankruptcy Court, and a review of UCC
financing statements on file in the State of Delaware,
indicate that the following are asserted as secured
claims in the Inpellis bankruptcy case:

App.153a
(a) The SEC asserts a perfected security interest
in the IP Assets to secure a judgment against
BioChemics in the approximate amount of
$17,897,884.00. The Debtor granted the SEC
a security interest in the IP Assets on May
10, 2016. Any claim that the SEC may have
against the Debtor’s estate is non-recourse in
nature as the Debtor has no direct obligation
owed to the SEC. An objection to the SEC
claim has been filed by ADEC, and that
contested matter is presently pending before
the Court.
(b) ADEC is the holder of a security interest in
the IP Assets on its own behalf and as
collateral agent for certain similarly situated
noteholders (collectively, the “Noteholders”).
The security interest allegedly secures an
asserted indebtedness in the approximate
aggregate amount of $8,724,339.58. The security interest was granted by the Debtor on or
about December 7, 2016, in conjunction with
a forbearance agreement among the Noteholders and the Debtor.
The Noteholders have asserted secured claims
as follows:
ADEC
The BTR Trust
The PRK Trust
Armory Ross
JABCO LP
Nxxt Step Funding
Mark & Phyllis Waxman

$5,842,211.72
255,077.05
255,077.05
255,077.05
62,500.00
1,250,000.00
173,125.21

App.154a
Molly Hsu

609,504.92

(c) Additional secured claims have been filed
by Bio Strategies, L.P. (“Bio Strategies”) in
the amount of $5,799,532.12, and by Sunstein
Kann Murphy & Timbers LLP (“Sunstein”)
in the amount of $156,091.28. I dispute both
the Bio Strategies claim and the Sunstein
claim on the grounds that any claims held
by Bio Strategies and Sunstein are claims
against BioChemics solely, and that neither
party possesses a valid and perfected lien
against Inpellis assets. I have already filed
an objection to the Bio Strategies proof of
claim. An objection to the Sunstein proof of
claim has not yet been filed, however, the
supporting documentation filed by Sunstein
indicates that the basis of the asserted
claim is an alleged attorneys’ lien arising in
connection with services rendered to BioChemics rather than the Debtor. As a result,
liability of the Inpellis estate for the claim
asserted by Sunstein is disputed.
16. The SEC and ADEC have assented to the
relief requested in the Sale Motion predicated and
conditioned upon the allowance of the relief requested
in the 9019 Motion and the equal allocation of joint
sale proceeds as set forth in the Sale Motion. Thus, it
is my belief that, assuming satisfaction of those
prerequisites, the SEC and ADEC consent to the
proposed sale, and the sale free and clear of liens
those liens may be approved as the consents satisfy
the requirements set forth in 11 U.S.C. § 363(f)(2).
17. Bona fide disputes exist with respect to the
Bio Strategies claim and the Sunstein claim as set

App.155a
forth in Paragraph 17(c) above. I also note that Sunstein has not objected to the relief requested in the
Inpellis Sale Motion or the 9019 Motion. In light of
the foregoing, it is my belief that the requirements set
forth in 11 U.S.C. § 363(f)(4) have been satisfied with
respect to the alleged Bio Strategies and Sunstein
claims.
18. Pursuant to the Inpellis Sale Motion, authority is requested for the conduct of a joint sale of
intellectual property assets by the Inpellis bankruptcy
estate and the BioChemics receivership estate. The
Receiver and I believe, and have agreed, that selling
the assets jointly enhances the value of the intellectual
property of both estates. The foregoing belief is based
upon consultation with an investment banker which
actively marketed the subject intellectual property
prior to the institution of the bankruptcy case. In
light of the related nature of the intellectual property of
BioChemics and Inpellis, and the fact that many of
the respective assets are co-owned by BioChemics
and Inpellis, it is reasonable to conclude (and was
the opinion of the aforementioned investment banker)
that the subject assets are likely to command greater
value if sold together. Indeed, the marketing materials
prepared by the investment banker anticipated a
joint sale of the intellectual property assets. Thus, it
is my opinion that a joint sale of intellectual property
assets by Inpellis and BioChemics is appropriate and
warranted in the circumstances, and is in the best
interests of the Inpellis bankruptcy estate.
19. In the Sale Motion, approval of the allocation of gross joint sale proceeds equally between the
Inpellis bankruptcy estate and BioChemics receivership
estate is also requested. I believe that the proposed

App.156a
allocation is appropriate for several reasons. First, after
consultation with the Receiver, and with the benefit
of the opinion of the investment banker familiar with
the subject assets, it is my understanding and belief
that not only are the values of the intellectual property assets of the respective estates enhanced by a
joint sale, but valuation of the intellectual property
assets as separate items would be wholly speculative,
if not impossible. It is also impossible to assess how
much of any ultimate sale price would be attributable
to the enhancement of value created by the joint sale,
and how to allocate that enhancement of value between
the estates.
20. In light of the inter-related nature of the
majority of the respective intellectual property rights,
the co-ownership of a significant number of the assets,
and the assertions by various parties to these proceedings that the respective rights in the subject assets
may not be accurately reflected by how title is held, I
believe that the equal allocation of joint sale proceeds
is fair and equitable.
21. Even more significantly, the 50/50 Allocation
is the product of extensive negotiation among the
parties, failing approval of which, the proposed sale
will not be feasible. Without the support of the SEC,
the Receiver will not be in a position to proceed with
a sale of the BioChemics assets. Without the approval
of ADEC, the Inpellis estate is not in a position to
proceed with a sale of the Inpellis IP Assets. In order
to gain ADEC’s consent, the SEC agreed to waive its
first priority lien against Inpellis assets (above the
$150,000 Carve-Out provided in the Inpellis Sale
Motion and 9019 Motion). In order to agree to the
waiver of its lien claim against the Inpellis IP Assets,

App.157a
the SEC required assurance that fifty percent of the
joint sale proceeds be received by the BioChemics
receivership estate. The 50/50 Allocation is an essential
and inextricable term of the agreement among the
SEC, ADEC, the Receiver and the Inpellis estate
upon which the proposed sale is predicated.
22. Absent a viable avenue for the sale of the
Inpellis IP Assets for the benefit of the bankruptcy
estate, the likely result is the abandonment of the
Inpellis IP Assets. The maintenance costs relating to
the Inpellis IP Assets are significant. I currently
estimate that the annual maintenance costs will be
$30,000 at a minimum, and potentially much higher.
The bankruptcy estate has very limited assets available,
and the continuing diminution of funds without any
reasonable prospect of sale is untenable.
23. I have reviewed the objection to the proposed 50/50 Allocation filed by Bio Strategies. I do
not believe Bio Strategies has the requisite standing to
object the Inpellis Sale Motion or to the 9019 Motion
as I do not believe that Bio Strategies is the holder of
an allowable claim against the Inpellis estate. I
further note that no other creditor of the Inpellis
estate filed an objection to the proposed sale.
24. Leaving aside the issue of standing, I do not
believe that the objection submitted by Bio Strategies
relating to the proposed 50/50 Allocation is meritorious.
In the first instance, Bio Strategies resorts to
inapposite hypotheticals and ignores the facts plainly
set forth in the Inpellis Sale Motion. The estates
cannot proceed to conduct a joint sale of the respective
intellectual property without the approval of the 50/50
Allocation and other provisions set forth in the
Inpellis Sale Motion and in the 9019 Motion.

App.158a
25. I believe that the proposed 50/50 Allocation
easily satisfies the standards established in Jeffrey v.
Desmond, 70 F.3d 183 (1st Cir. 1995). Absent approval
of the 50/50 Allocation, the sale cannot proceed.
There will be no allocation of proceeds between the
estates, because there will be no proceeds whatsoever.
The Inpellis IP Assets will be abandoned and will
produce no value for creditors (absent whatever foreclosure value is ultimately available to the SEC
and/or ADEC). On the other hand, a sale of the
assets will result in a reduction of administrative
claims of the estate, will hopefully reduce ADEC’s
claims against the estate, which in turn will reduce
any deficiency claim that ADEC may have, which
will in turn reduce the dilution of other holders of
allowed claims with respect to the remaining unencumbered assets of the estate. Moreover, every
hypothetical scenario envisioned by Bio Strategies to
challenge the 50/50 Allocation is essentially an
argument which favors a lesser portion of the proceeds
being allocated to the Inpellis estate. I do not agree
with Bio Strategies’ analysis, and believe that good
and valid reasons exist to support the fairness of our
agreement to share all IP proceeds equally. Nevertheless, to the extent that Bio Strategies is arguing
that the 50/50 Allocation will result in a windfall to
Inpellis, there can be no concerns raised that the
proposed allocation fails to comply with the standards
set out in Jeffrey v. Desmond.
26. I further believe that the paramount interest
of creditors is served by proceeding with the proposed
sale for such benefits as may be reaped by the estate.
The SEC, the largest creditor of BioChemics, is
prepared to waive the majority of its claim against

App.159a
the Inpellis IP Assets in consideration of the end of
litigation and the approval of the 50/50 Allocation.
ADEC, who, together with the similarly situated
Noteholders, holds the largest claims against the
Inpellis bankruptcy estate support the proposed sale
and the 50/50 Allocation. As has been previously
cited in pleadings, ADEC and the Noteholders hold
approximately 82% of the non-SEC claims in the
Chapter 7 case (disregarding the claim asserted by Bio
Strategies which I believe should be disallowed in
the entirety). Thus, I believe the paramount interest
of creditors and a proper deference to their reasonable
views is served by approval of the 50/50 Allocation
and the approval of the relief requested in the Inpellis
Sale Motion. Again, the only objecting “creditor” is
one with doubtful standing.
27. As noted in the Inpellis Sale Motion, the
proposed auction sale is presented after approximately
two years of attempting to negotiate an acceptable
private sale offer for the purchase of the intellectual
property assets owned by BioChemics and Inpellis.
Throughout the course of this bankruptcy and the
related receivership case, the Receiver and I have
expended substantial efforts in investigating the
respective estate assets, the competing claims among
creditors, and in assessing the best method of liquidating assets for the benefit of creditors. The Receiver
and I initially believed that a private sale of the
respective assets, subject to marketing and competitive
bidding, would maximize the value of the subject
assets. We engaged in lengthy and tedious sale
negotiations with a prospective stalking horse offeror.
In an effort to resolve strongly held positions of multiple
constituents, we participated in a full day of mediation

App.160a
and continued to work with the mediator for some
time thereafter in an effort to resolve outstanding
issues, to no avail. At this time, I believe that a joint
auction sale of the IP Assets and the Biochemics
intellectual property is the only viable option remaining
short of abandonment of the assets. The Receiver
also believes that the proposed joint sale is the only
reasonable option for liquidating BioChemics’ assets. In
light of the foregoing, I submit that a sale by public
auction subject to the terms set forth herein is now
the most reasonable available method for liquidation
of the IP Assets for the benefit of the bankruptcy estate.
28. In the exercise of my reasonable business
judgment, I believe that the approval of the relief
requested in the Inpellis Sale Motion, including the
provisions for the Carve-Out and the 50/50 Allocation
are in the best interests of the bankruptcy estate and
comport with all applicable provisions of the Bankruptcy Code and relevant decisional law.
The 9019 Motion
29. Pursuant to the 9019 Motion, approval is
sought of a stipulation by and among the Trustee,
the SEC, and ADEC (the “Stipulation”) relating to
conditions precedent to the consent of the SEC and
ADEC to the provisions of the Inpellis Sale Motion.
30. The pertinent provisions of the Stipulation
may be summarized as follows:
(a) Upon approval of the Stipulation, the SEC
and ADEC assent to the terms of the proposed
Auction set forth in the Sale Motion,
including the proposed allocation of proceeds

App.161a
between the bankruptcy estate and the
receivership estate (the 50/50 Allocation).
(b) Upon approval of the Stipulation and consummation of joint sale as set forth in the Sale
Motion, the SEC shall assign $150,000.00 of
its lien against the Inpellis IP to the Trustee
as a carve-out for payment of administrative
expenses (the “Carve-Out”), and shall release
any and all claims against the Trustee and
the Chapter 7 estate in excess of the CarveOut.
(c)

Upon approval of the Stipulation and consummation of joint sale as set forth in the Sale
Motion, the Trustee and ADEC shall release
the SEC from any and all claims in any way
arising in connection with Inpellis, BioChemics and their affiliates.

(d) Upon approval of the Stipulation and consummation of joint sale as set forth in the Sale
Motion, the SEC shall release ADEC from
any and all claims in any way arising in
connection with Inpellis, BioChemics and
their affiliates.
31. I have reviewed the objection filed by Bio
Strategies with respect to the 9019 Motion. As stated in
Paragraph 26 above, I do not believe that Bio Strategies possesses the requisite standing to object to the
relief requested in the 9019 Motion. Furthermore, I
do not believe that the objection sets forth adequate
grounds for the denial of the relief requested in the
9019 Motion. Bio Strategies’ objection presumes: (i)
that it can compel the Trustee to litigate an expensive
and speculative claim contrary to the Trustee’s reason-

App.162a
able business judgment (and apparently at the Trustee’s personal expense), and (ii) that it can cherry
pick the terms of an agreement and accept the terms
which it finds acceptable, and simply discard terms it
dislikes. The facts of this case simply do not allow
for those alternatives.
32. The gravamen of Bio Strategies’ objection
relates to the proposed waiver of the majority of the
$17,000,000 SEC lien claim. Rather than accept a
waiver of the claim, Bio Strategies asserts that I
should litigate an avoidance action against the SEC so
that the SEC lien would be preserved for unsecured
creditors in the event that I obtained a judgment
avoiding the lien.
33. An action to avoid the SEC first priority
lien was not instituted previously on behalf of the
estate because an analysis of the benefits of such an
action did not appear to justify the expense and risk
of litigation, and the end result did not in itself
provide a pathway to selling the subject assets and
monetizing the lien. My considerations at the time
included the following:
(i)

Obtaining a favorable judgment in the fraudulent conveyance litigation is by no means a
certainty. There are complicating issues relating to the grant of the SEC lien, including,
as noted by Judge Wolf in prior proceedings,
the fact that the lien itself was purportedly
intended to remedy an alleged fraudulent
conveyance of assets from BioChemics to
Inpellis. Thus, there may be viable defenses
to an avoidance action; certainly at least
complicating factors to consider in an analysis
of the strength of the case. Even if there

App.163a
were a 60%-70% chance of success on the
merits, that would also mean that there is a
30%-40% risk of adverse judgment, and
considerable expense in prosecution of the
litigation.
(ii) Any fraudulent conveyance litigation against
the SEC would be time consuming, fact
intensive, and very expensive. It is not
unreasonable to project that such litigation
would cost several tens of thousands of dollars
to prosecute. The Inpellis estate has very
limited resources available to fund the
preservation of estate assets, let alone fund
speculative litigation. As ADEC points out
in its response to the Bio Strategies objection,
“very little” actual work has been done with
respect to the ADEC objection to the SEC
lien claim, so I reasonably estimate that
prosecution of such a claim would cost several
tens of thousands of dollars, and would take
at least one year to litigate.
(iii) Even if successful in avoiding the SEC lien,
absent additional agreements with ADEC and
resolution of asset ownership issues between
the estates, a sale of assets would still not
be feasible. Thus, the estate would have
expended considerable resources without a
clear avenue of monetizing the estate assets.
The importance of this consideration cannot
be overstated. Absent the agreements of the
SEC and ADEC, no sale would be feasible.
Thus, without such agreements, it makes
little sense to prosecute a complicated and
expensive lien avoidance action if the end

App.164a
result is a significant amount of accrued
expense and a lien that cannot be reduced
to money for distribution to creditors.
(iv) Equally important, my review of claims
against the estate resulted in the conclusion
that the expense of litigation and the risk of
adverse determination was not justified by
the potential benefits of preserving the SEC
lien for the benefit of the estate. Disregarding the Bio Strategies claim (which I believe
should be disallowed), ADEC and the related
secured noteholders comprise approximately
82% of the claims filed in the Inpellis case.
Thus, the junior lienholder, ADEC, would be
the primary beneficiary of any lien preservation action. Without a clear path available
for monetizing the estate assets, and with
the junior lienholder likely to be the primary
beneficiary of the action, the perceived
benefits were not deemed worthy of the
excessive expense and litigation risk that
would be entailed in prosecuting such
avoidance litigation.
34. The foregoing analysis regarding the prospects
of lien avoidance litigation carries over to my analysis
of the benefits of the terms of the Stipulation under
the standards set forth in Jeffrey v. Desmond, supra.
As stated in Jeffrey v. Desmond, in determining
whether a compromise satisfies the applicable standard of reasonableness, courts consider the following
factors: “(i) the probability of success in the litigation
being compromised; (ii) the difficulties, if any, to be
encountered in the matter of collection; (iii) the
complexity of the litigation involved, and the expense,

App.165a
inconvenience and delay attending it; and (iv) the
paramount interest of the creditors and a proper
deference to their reasonable views in the premise.”
Jeffrey, supra at 185; In re Anolik, 107 B.R. 426, 429
(D. Mass. 1989). In the instant case, to the extent
that the “litigation being compromised” is the potential
claim against the SEC to avoid its lien, it is my belief
that the standards set forth in Jeffrey v. Desmond
are clearly satisfied.
35. As discussed in Paragraph 34 above, with
respect to the first prong of the Jeffrey analysis, the
potential SEC lien avoidance is not without complications, and obtaining a judgment avoiding the lien
is far from a foregone conclusion. Even if there is a
better than even chance of obtaining a judgment,
undertaking the litigation is still a poor option unless
there is an avenue to reduce a judgment to money for
distribution to creditors. Winning a judgment alone
is insufficient to produce a benefit for the estate. In
the rather unique circumstances of this case, that
avenue is only provided by the agreements of the SEC
and ADEC set forth in the Stipulation. The Stipulation
provides the waiver of the majority of the SEC lien
claim without additional litigation, cost, and uncertainty of outcome.
36. The second prong of the Jeffrey test, difficulties in matters of collection, is not applicable in
the sense that avoidance of a lien is automatic upon
obtaining a judgment, however, in the broader sense
of whether the value of the avoided lien can be
monetized for the benefit of the estate, the “collection”
analysis is of great significance. In that broader sense,
the difficulties in “collection” in this case are effectively
insurmountable. Only the agreements of the parties

App.166a
as set forth in the Stipulation allow for the pathway
to liquidation for the benefit of the estate. The
consents to the sale contained in the Stipulation
provide the only avenue for the estate to realize
value from the Inpellis IP Assets.
37. As has been stated in my response to the
Bio Strategies objection, I estimate that litigation of
an avoidance action against the SEC would require
the expenditure of tens of thousands of dollars, and
would require at least one year to litigate, with a
significant risk of adverse judgment. Again, the time
and effort would be fruitless without a pathway to a
sale.
38. As to the fourth prong of the Jeffrey analysis,
I believe that the Stipulation itself sets forth the
reasonable views of creditors is in the best interests
of all creditors of the bankruptcy estate. Together,
the SEC and ADEC hold approximately $26,000,000
of claims backed by properly perfected liens. Leaving
aside the SEC claims (which are non-recourse to the
estate), and the Bio Strategies alleged claim (which
should be disallowed in its entirety), ADEC holds
approximately 82% of the value of the claims filed in
the Inpellis case. The Stipulation is agreed upon by
the Receiver, the Inpellis estate, the SEC and ADEC.
The SEC and ADEC are the most significant creditors
in each case, and support the relief requested in the
9019 Motion and the Inpellis Sale Motion. Without
the approval and implementation of the terms of the
Stipulation, there is no sale that can be approved by
the Courts. No sale results in no sale proceeds for
distribution to any creditor. It is not correct to
suggest that the Stipulation provides no benefit to the
estate beyond ADEC. First, pursuant to the Carve-Out,

App.167a
administrative expenses of the estate will be reduced.
Second, to the extent that ADEC’s claims are reduced,
its deficiency claim in the estate will be reduced, and
other legitimate creditors will be less diluted with
respect to the proceeds of unencumbered non-IP assets
of the bankruptcy estate. The estate holds a number
of litigation claims which are unencumbered and
which will be prosecuted. Thus, I believe that the
relief requested in the 9019 motion is consistent with
the reasonable views of the holders of the majority of
claims against the estate, and is in the best interest
of all creditors of the estate.
39. In summary, I respectfully submit that the
relief requested in the 9019 Motion is in the best
interests of the bankruptcy estate, and meets all
applicable statutory and decisional law standards for
approval. The approval of the relief requested in the
9019 Motion, including the 50/50 Allocation set forth in
both the Stipulation and in the Inpellis Sale Motion,
provides the consents necessary to meet the requirements of Section 363(f) for the allowance of the
proposed sale. The Stipulation provides tangible
benefits for the bankruptcy estate which would not
be otherwise available. As such, it is my business
judgment as the Chapter 7 trustee of the Inpellis
bankruptcy estate that the relief requested in both
motions should be granted by the Court, and I
recommend and request the allowance of both motions.
Signed under the pains and penalties of perjury
this 25th day of August, 2020.
/s/ John J. Aquino
Chapter 7 Trustee

App.168a
VIDEOCONFERENCE MOTION HEARING
TRANSCRIPT OF PROCEEDINGS
(JULY 10, 2020)
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,

Defendants.
________________________
Civil Action No. 12-12324-MLW
________________________
IN RE:
INPELLIS, INC.,

Debtor.
________________________
Chapter 7 Case No. 18-12844-CJP
Before: The Hon. Mark L. WOLF, United States
District Judge., The Hon. Christopher J. PANOS,
United States Bankruptcy Judge.

App.169a

[July 10, 2020, Transcript p. 3]
THE COURT: Will the deputy clerk call the two cases,
please.
COURTROOM CLERK: This is Civil Action 12–12324,
SEC v. Biochemics, et al., jointly with the U.S.
Bankruptcy Court for the District of Massachusetts, Case number 18–12844, Inpellis, Inc.,
Debtor.
JUDGE WOLF: Good morning. Would counsel, starting
with counsel for the receiver and the trustee,
please identify themselves for the court and for
the stenographer.
MR. HORNE: Good morning, Your Honor. Jonathan
Horne, counsel for the receiver, Mark DeGiacomo.
MR. FARRELL: Donald Farrell, counsel for Chapter
7 Trustee of Inpellis, John Aquino.
JUDGE WOLF: All right. I see Mr. DeGiacomo is on
the line, on the Zoom videoconference. And let’s
see, Mr. Farrell, you are representing—
MR. FARRELL: Mr. Aquino.
THE COURT: Is he on the videoconference as well?
MR. FARRELL: He is, Your Honor. He’s listed as John.
JUDGE WOLF: Okay. And who do we have for the
Securities and Exchange Commission?
MR. LONDON: Good morning, Your Honor. David
London for the SEC.
MS. SHIELDS: Good morning, Your Honor. Kathleen
Shields for the SEC.

App.170a
MS. SCHEUER: Good morning, Your Honor. Therese
Scheuer for the SEC.
JUDGE WOLF: And for ADEC?
MR. CACACE: Good morning, Your Honor. Joseph
Cacace on behalf of ADEC.
JUDGE WOLF: Okay. And is there somebody appearing for Bio Strategies?
MR. MONAGHAN: Yes, Your Honor. Thank you. John
Monaghan, Holland & Knight, counsel for Bio
Strategies.
JUDGE WOLF: And is there somebody appearing for
Mr. Masiz?
MR. SCHLICTMANN: Yes, Your Honor. Jan
Schlictmann for Mr. Masiz. Good morning.
JUDGE WOLF: Good morning. And is he on the call?
MR. SCHLICTMANN: No.
JUDGE WOLF: Okay. We’re here in these two cases
pursuant to the July 6, 2020 order that I entered
and that Judge Panos entered in the bankruptcy
proceeding concerning Inpellis.
I understand that the receiver and trustee asked
Judge Panos to ask me whether he and I, in my
view, should coordinate with regard to the proposed settlement of these two cases and the
proposed public auction of certain assets. We do
want to coordinate and intend to.
In general, I will say that a settlement would be
desirable, but that is as long as the sale is conducted in good faith, and if an entity associated
with Mr. Masiz is the highest or only bidder, as

App.171a
long as we’re satisfied that the injunction I issued
as well as the injunction issued in 2004 concerning
Mr. Masiz has not been violated in raising money.
Judge Panos and I have talked. He’ll amplify this,
but our tentative view is that it would be desirable
to conduct the auction, but it should be subject
to the parties coming back for confirmation of the
sale. That view is tentative. We’re interested in
hearing from you about it.
And I understand or possibly misunderstand that
that confirmation process would resolve the
objection of Bio Strategies, which claims a security
interest in certain IP. In other words, I myself at
the moment perceive Bio Strategies’ objection to
be one of procedure.
I will say because it should be addressed and—
Mr. Cacace, the way your computer is, all I see
is your fingers tapping, and it’s distracting me,
so you can—
MR. CACACE: Apologies, Your Honor.
JUDGE WOLF: You can either turn off your video
or—so I can just see your face, not your fingers.
MR. CACACE: Got it.
JUDGE WOLF: I’ve had this case since 2012. I’ve
conducted innumerable hearings since I approved
the settlement against Biochemics, and a word
search of the voluminous documents doesn’t indicate that Bio Strategies has ever been mentioned
in any hearing before me. Bio Strategies now says
it has an almost I think $6 million security
interest in intellectual property of Biochemics.

App.172a
I believe somewhere Bio Strategies is characterized
as an affiliate of Biochemics. I don’t know what
the word “affiliate” means in this context. I do
understand from recent submissions that Biophysics is owned and controlled by Mr. Masiz. It’s my
understanding that it was formed in June 2017.
In June 2017, I found Mr. Masiz—I granted
summary judgment for the SEC on its motion
that Mr. Masiz negligently violated the relevant
securities laws, and I scheduled a hearing on
their motion for summary judgment concerning
whether Mr. Masiz intentionally violated, but it
appears that at the same time or in the same
time period Biophysics was created. I don’t know
if the SEC knew about the existence of Biophysics
or knew about this alleged security interest,
which may have impaired security that should
have gone to compensate the class as a result of
the Biochemics settlement. But these are matters
that can be addressed in the hearing today.
And then I have some general questions, which
would be I think primarily for the trustee and
the receiver, concerning whether there’s a reasonable expectation that anyone other than Mr.
Masiz or a company that he controls will bid. I
gave the parties essentially I think an extra year
to try to accomplish a private sale of the intellectual property, and that didn’t succeed.
And I have a question as to why our tentative view
that there should be a process of confirmation
that I understand is usual in the bankruptcy court
should not be employed here. And then I have
some specific questions.

App.173a
I still have two related cases, the dismissal—one
appealing the decision for Rule 2004 examination
and one for a partial withdrawal of the reference
to the bankruptcy court, but the motions relating
to those cases have been withdrawn, so I’m
inclined to dismiss them. But if Mr. Schlictmann
wants to be heard on why they shouldn’t be dismissed, I’ll hear that.
We’re interested in hearing from the trustee and
the receiver, as I said, and then I think probably
the SEC and ADEC, Bio Strategies and Mr. Masiz’
counsel. I will say that I’ve decided to deny his
motion to reconsider my ruling and expect I’ll
issue a written order on that.
But with that, I’ll turn it over to Judge Panos.
There may be questions that I’ll interject or raise
at the end, and when we’ve finished or substantially finished this hearing, he and I will confer
and we’ll let you know where we are and where
we’re going.
JUDGE PANOS: Thank you, Judge Wolf. So the primary questions that I have initially relate to the
process. And just a couple of observations that,
you know, in terms of moving forward, obviously
the first step that would allow the trustees to
move forward towards what the parties believe
to be the best option to sell the intellectual property that is owned by the receivership estate and
the bankruptcy estate is by auction, but the first
step would be the approval of a notice of sale.
And there seems to be a little confusion in our
minds and maybe some discrepancies between
the two asset lists. So just as a technical point,

App.174a
any notice of sale that goes out should have an
agreed upon combined asset list that is consistent
with each other, and we’d be looking for the trustee
and the receiver to confirm our understanding
that anything that’s sold at this auction is subject
to the 50/50 split, and, if that’s not the case,
obviously we need to understand that, if there
are separate assets that are being sold as part of
this auction. But in considering the process and
allocation issues potentially, we would want to
make sure that it’s absolutely clear what’s being
sold and that whatever is being sold in this auction
is subject to the 50/50 split proposed settlement.
The other thing that struck us in terms of the
process was, our assumption is that the trustee
and the receiver are trying to gain maximum
flexibility in the conduct and timing of this
auction. We’d like to hear a little bit more about
pressures on timing, you know, why the auction
is suggested to occur in the middle of August.
There is an objection that has been lodged to the
timing of the conduct of the auction. And it seems
to me that it may be a concern for the trustee
and the receiver that the underlying settlements
that are proposed, the 50/50 split, and then in
the bankruptcy case the carveout and the other
agreements that have been reached between the
SEC and ADEC are approved prior to the conduct
of the auction so potential third—party bidders
will know that there aren’t underlying issues
that have to be litigated as part of a sale process
that might chill the bidding. We’re interested to
hear about that.

App.175a
And in our view, the best way to proceed from
our perspective, if it’s permitted by the conditions
on the ground, are that we would approve a form
of notice of sale that would allow the trustees to
market and arrange for the auction. We would
establish an objection deadline and a hearing
date for approval of the settlements that would
underpin the ultimate arrangement on the division
of proceeds. That would be acted on prior to the
auction, and then the auction would be conducted
after that with the parties returning to the court
for approval of the final winning bid.
And as part of the notice of sale and the qualification process for bidders, the expectation would be
that I think there’s a $50,000 good faith deposit
that has been proposed, which seems adequate
under the circumstances. We didn’t see any mention of the ability to close the transaction. I think
the proposal for the terms of sale at auction are
closing 14 days after the auction. So that would
be probably modified to be closing, you know,
after the order approving the sale becomes a final
order. But it’s a pretty short timeframe, so you
would think that the receiver and trustee would
want some evidence of ability to close.
And we would think that as part of the qualification process any affiliations or connections between
a bidder and either of these estates would have
to be disclosed, using kind of standard definitions
of affiliates that pick up officers and directors and
other connections that would basically disclose if
Mr. Masiz is involved in the bidding. And perhaps
the trustee and the receiver would want some
written statement from Mr. Masiz in connection

App.176a
with how the money was going to be raised, that,
you know, the injunction would be complied with
and he’d comply with applicable law if he was
raising money from the public. And that would
be—if he were the successful bidder, that would
be reviewed at that time for compliance by Judge
Wolf and he could ask whatever questions associated with that that he would ask.
Obviously we have several objections, one of which
relates to the ownership of a patent, which I’m
sure raises some issues for the trustee and the
receiver. And then there’s the claimed security
interest by Bio Strategies on the assets that were
transferred to Inpellis. And so that’s the general
structure of what we’re thinking and some of the
questions that we’d like addressed, and what I
would suggest is that either the receiver or trustee
counsel first address them.
MR. FARRELL: Your Honor, Don Farrell on behalf of
the trustee, if Mark’s not going to jump in. The
procedure that we had envisioned is not too
dissimilar from what you’ve just outlined. We
put a date on the notice of sale which we
thought would be an on and after date so that
we could move it if the sale hearing took longer, the
9019 motion took longer. But clearly, obviously,
we weren’t going to have an auction sale until after
the approval of the 9019 motion and the approval
of sale.
As to your question as to whether there’s any
pressures as to timing—
JUDGE WOLF: Excuse me. Let me interject for just
a moment. What is a 9019 motion?

App.177a
MR. FARRELL: I’m sorry, Your Honor. Vernacular is
for the motion to approve the agreement between
the trustee ADEC and the SEC with the releases,
I apologize. The motion to approve the compromise
among those three parties.
JUDGE PANOS: And between the estates.
MR. FARRELL: And between the estates. There’s no
real—maybe Mr. Aquino and Mr. DeGiacomo
want to jump in here if I’m misstating. I don’t
think there’s any real timing issues other than
we want to keep the process moving along because
there are accruing maintenance fees and costs of
maintaining the IP.
So, for example, Mr. Monaghan suggested that he
would prefer a 60-day date rather than a 40-day
date as was in our notice of sale. The trustee has
no objection to that. I believe the receiver has no
objection to that. So that’s really a fairly minor
issue.
I have not—what we did not anticipate—let me
say this. I think you’re absolutely right that the
notice of sale could be enhanced by having more
information as far as disclosure of—requiring
disclosure as to associations of any prospective
bidders. It’s not uncommon, as you know, in the
bankruptcy procedures, and we can include that.
I don’t have a problem with that.
What we hadn’t anticipated was a secondary
confirmation process, and I’m not sure that I
have an opinion on it. I don’t know if the trustee
and the receiver do. But what we had anticipated
was, we’ve had the approvals for the compromises
and the sales so that we can go forward. We per-

App.178a
form the auction. We have our deposit. We can
get proof of ability to close, and then there would
be a closing. We did not anticipate coming back to
the court a second time. I understand you may
want that, and that would be fine if you want that.
JUDGE PANOS: The procedure that has been proposed
is more akin to where you’re, by public auction,
auctioning off the contents of a warehouse. This
IP auction really feels more like the sale of the
basics for a company, which is more analogous to
conducting the auction, coming back, talking about
how the auction went and disclosing insiders.
And I think both Judge Wolf and I are much more
comfortable with that process for this set of assets.
MR. FARRELL: Understood, Your Honor.
MR. DEGIACOMO: Mark DeGiacomo, receiver. I have
no problem with having a confirmation of the
sale hearing afterwards. We can certainly do
that. Attorney Farrell and I have discussed that
now that we’re doing this jointly with the courts,
the thing that probably makes the most sense
is—he proposed one notice; I proposed my notice.
They’re very similar but not identical—is that
we come up with one notice that we would send
out to all of the parties that would incorporate
all of the things that we have in there and any
changes that we talk about today. And I also
have no problem adding requirements concerning
disclosure of affiliates, source of funds, ability to
close, that type of thing. So that’s acceptable to me.
JUDGE PANOS: And would it work for the trustee
and for the receiver to actually notice out a date for
a sale to conduct the auction, and then we could

App.179a
schedule a sale hearing with the understanding,
and it would be disclosed in the notice, that the
auction date could be moved if in your determination that’s necessary? But at least that way
we have some fixed dates and we’ll know how to
schedule the settlement hearing, and people will
have notice of the timeframe that they have to
accomplish what they need to accomplish.
MR. DEGIACOMO: Right. And we agree—Attorney
Monaghan’s objection suggested kicking this out,
my understanding, for another 30 days. So we
agree to set it at September 15, assuming that’s
not a Saturday or a Sunday, and work with that
as the auction date. That should give everybody
plenty of time to accomplish what needs to be
accomplished and what the courts have discussed
today.
JUDGE WOLF: And let me ask you this. It’s extremely
helpful, and I’m sure—Mr. Farrell and Mr. DeGiacomo have really been highly professional in
very difficult circumstances, so in concept this
makes sense. But the question I had at the outset,
do you think there’s a realistic prospect that
anybody is going to bid or anybody who is not an
affiliate of Mr. Masiz and Biochemics is going to
bid?
MR. DEGIACOMO: Well, Your Honor, how do you
define “realistic”? We have heard from other
people. A Series E creditor I spoke with the other
day indicated that he was going to talk to some
others about potentially putting a bid forward and
then maybe one or two other people that have been
considering bidding, and then of course we’ll be
sending this notice out to everyone who expressed

App.180a
any kind of an interest. When Gordian Group
marketed these assets several years ago—
JUDGE WOLF: Actually, that just occurred to me,
that I don’t know whether those efforts to sell to
entities approached by Gordian, an investment
banker, failed because the terms weren’t right or
because there was no interest, but I do think
that’s a universe of potential bidders that should
be targeted.
MR. DEGIACOMO: I’m sorry, Judge.
JUDGE PANOS: I’m sorry. You’re probably going to
do just what I was going to ask you to do, which
is, I heard at the last status conference what your
intentions were for marketing, I specifically asked
if you were going to use any of the online marketing resources. And you and Mr. Aquino represented
that your intention for marketing the notice of sale
was to identify all of the contacts that had been
identified by Gordian Group as potential bidders,
not just those that expressed interest but their
original solicitation list. You were going to notify
them. You obviously were going to put the notice
on the bankruptcy court’s asset auction website,
and you were going to provide notice to everyone
in this case.
Is there any other marketing effort that you’re
going to undertake, any advertising, any trade
magazine advertising or website notice?
MR. DEGIACOMO: We’re going to do everything that
you just mentioned, and I believe the trustee
was looking into some other types of periodicals
or websites. And last I recall, it was still taking
a look at that.

App.181a
MR. AQUINO: Yeah, and I can expand on that, Judge.
JUDGE WOLF: Excuse me. Whoever—stop, stop.
Whoever is speaking should identify themselves
for the stenographer.
MR. AQUINO: Excuse me. This is John Aquino. I am
the Chapter 7 trustee for Inpellis, Inc. And in
response to Your Honor, we’ve looked at the online
type of marketing companies, and they fall into two
different categories, those in which there are relatively modest listing prices to list intellectual
property as if you were listing a piece of real estate
that could go on for days, weeks, months, in
theory, years, it’s just listed there, and it’s exposed,
people can reach out and contact you—we don’t—
we’re not looking at that kind of timeline, given
the 30 days.
The other type of website is one in which the companies themselves conduct an auction. They claim
to be able to reach out to interested parties.
However there is a fairly substantial buy—in, so to
speak, and then beyond that there are commissions
that are payable both on the buying side and the
selling side that total about 25 percent of the total
transaction costs.
So unfortunately, we think for both of those reasons, one, the auction we think would be just too
costly on our side to be paying effectively 25
percent. The listing we just think would be window
dressing because we just don’t think there would
be enough time to reach appropriate people.
With respect to what Mr. DeGiacomo mentioned,
we have gone back to the Gordian Group. We
have looked at all of their notes, seen who they

App.182a
contacted, what the levels of interest were. In some
cases that interest was a little early for them,
and in some cases it was too late. For those that
were too early, we do think bringing this back
up to their attention will be potentially fruitful.
We also know that there are other interested
parties who may be, for strategic or other reasons,
not necessarily disclosing exactly where they
stand today. As everyone knows, ADEC has been
involved for quite some time, made in excess of a
$3 million investment. We know that Mr. Monaghan’s client, Bio Strategies, made something like
a $5 million investment, the Series E people. So
we do think—
JUDGE WOLF: Stop just a minute. I don’t know that
Bio Strategies made a $5 million investment. If
they gave $5 million to Biochemics, it should have
been applied to pay the judgment that the SEC
obtained. So I don’t know when you first heard
of Bio Strategies, but I first heard of it this
week, and I’ve been involved in this far longer
than you. Why do you think Bio Strategies—I
mean, do you have a record paper trail of $5
million going from Bio Strategies to Biochemics?
MR. AQUINO: Well, they filed a proof of claim under
the pains and penalties of perjury, Your Honor, in
the bankruptcy court. I have seen a note, I believe,
an mended note. There’s a narrative describing
the timing of the initial loans. There were loans
that were made to Inpellis’ predecessor, Alteryx,
loans made to Biochemics, at least as represented
by the parties.

App.183a
JUDGE WOLF: And actually, I may—just one moment.
I see. I want to be careful and not confuse Biophysics with Bio Strategies, because I think it
was Biophysics that was formed in June 2017. I
see, Bio Strategies, its payment was made prior
I think to the judgment.
MR. AQUINO: I believe it was made—and Mr. Monaghan can certainly jump in, but I believe it goes
back to 2013, which—well, I believe it goes back
to 2013. Let me put it that way.
JUDGE WOLF: That rings a bell with me, too.
MR. MONAGHAN: Your Honor, would you like me to
jump in to state what I believe is the case?
JUDGE WOLF: I’m sorry, who is this?
MR. MONAGHAN: I’m sorry. Good point. This is John
Monaghan, Holland & Knight, counsel for Bio
Strategies.
THE COURT: Sure. Go ahead.
MR. MONAGHAN: The Bio Strategies $5 million debtbased investment was evidenced by a note that
was executed by Biochemics on December 4, 2013.
The security interests that were granted were
granted contemporaneously also in December of
2013, and the interests granted to the extent that
they were perfected—and there’s an issue there—
are evidenced in part through filings with the
United States Patent and Trademark Office dated
December 15, 2014.
JUDGE WOLF: Okay. Thank you. That amplifies—
reminds me of something I had read and amplifies

App.184a
my understanding of it. I appreciate it. Let me
give this back to Judge Panos.
JUDGE PANOS: Mr. Aquino, let me just ask a couple
of questions about what you said about Gordian
Group. We know from dealing with the investment
bankers they maintain a number of different
lists. The first list is their tickle list, you know, to
whom they send the initial, you know, inquiry of
interest. The second list are those who respond.
The third list are those who sign confidentiality
agreements.
Are you planning to solicit the entire tickler list?
MR. AQUINO: We’re planning to solicit all those for
whom Gordian provided contact information
beyond just the name of a company. For example—
I’m just saying this by way of example. If they
simply said on their tickler list, Johnson &
Johnson is a company we would reach out to, but
we don’t have any further information beyond
that, beyond the name of a person to contact, an
email address or any evidence that there was
any response, no, it wouldn’t be expanded to
include all of those companies.
JUDGE PANOS: But are you and Mr. DeGiacomo—I
heard that you are going to consider other obvious
entities that might be interested. So, you know,
companies like Johnson & Johnson, they’re not
that hard to find, and they might have an interest,
and I’m assuming that you’re going to develop
your own list in addition to the Gordian list or to
fill in the blanks on the Gordian list.
MR. AQUINO: I think that’s fair, Your Honor, but to
be—what our intention was to review all of the

App.185a
Gordian documents, and they are fairly extensive.
This was done over a period of time. They were
updated frequently. In some cases it would be—
well, they were updated frequently, and we’re
going to—we’re certainly not going to—we’ll be
over- rather than under-inclusive.
JUDGE PANOS: Anything else you’d like to talk about,
the process? Because it sounds to me like the
trustee and the receiver, in terms of a process
where we have a notice of sale, we have qualifications, we have—you know, the disclosure of ability
to close and affiliations, there’s a diligence room
that’s now been set up and presumably is ready
to go when a notice of sale could be issued, there’s
not a pressing timing on the actual conduct of the
auction, but we can choose a date, and that date
would follow the consideration of the settlement
of all of the inter-estate claims and the claims in
the bankruptcy court that need to be settled in
order for this to move forward. It sounds like we
have a process that’s acceptable in concept to
both the receiver and the trustee with a final
approval of the sale occurring at a joint hearing.
JUDGE WOLF: And it sounds that way to me, too.
I’d be interested in hearing at least briefly from
the SEC and ADEC as to why they believe this
is a desirable approach and why this 50/50 split
will be in the interest of the parties that you
represent. Maybe from the SEC first.
MS. SHIELDS: Good morning, Your Honor. This is
Kathleen Shields for the SEC. I think the SEC’s
view is that it is well passed the time to try to
monetize these assets and that despite trying for
many years to achieve a higher price through a

App.186a
private sale, all reasonable attempts to do that
have not succeeded. And so this is really the
only way left to try to monetize these assets to
obtain some recovery for investors.
In terms of the settlement between the SEC and
ADEC, I think that we have negotiated hard and
for a lengthy period of time, and we think that
the costs of ongoing litigation are such that they
threaten to diminish the available assets for
investors even further, and so this is a reasonable
compromise that will allow a sale to proceed and
money to be repaid to investors as soon as practicable. And we think that that is at this point in
investors’ interests because it’s the best way
through a process to get some money returned to
them.
THE COURT: Okay. That’s very helpful. Were you
aware of this Bio Strategies lien before very
recently?
MS. SHIELDS: So it’s my understanding that we knew
about it but did not believe it was an effective
security interest because it was not perfected,
and so therefore it was—that the security interests
that the SEC obtained in its settlements was
superior to—that it would take priority over and
was superior to anything else that existed, so we
believed that it was not something that we
needed to worry about.
JUDGE WOLF: Okay. And what about from ADEC’s
perspective? ADEC is not a party in my case, but
I have been concerned about ADEC’s interests.
MR. CACACE: Thank you, Your Honor. This is Joseph
Cacace on behalf of ADEC, and we essentially

App.187a
agree with everything that’s been said. You know,
we’ve litigated hard for a while, particularly on a
number of issues, including the ownership of
intellectual property between and among the
two estates and affiliated parties and, you know,
attempted through lengthy negotiations to try to
reach a private sale. Unfortunately that did not
work, and so we’re at a point where ADEC believes
that an auction laid out generally as the trustee
and the receiver have laid it out and has been
discussed today is a way to, you know, maximize
the value of the estate given where we find
ourselves today.
And as far as Bio Strategies is concerned, ADEC’s
understanding is the same, that the security
interest is not properly perfected and so ADEC’s
security interest is also ahead of that behind the
SEC.
JUDGE WOLF: Okay. Now I’ll go back to Judge Panos
to inquire initially of the others who are interested
and represented today.
JUDGE PANOS: I think we should probably hear from
Mr. Monaghan about the modified sale procedures.
And I know that in the objection that was filed
your client has reserved on the proprietary of the
settlement and ultimately the sale issues. Do
you have any objection to the procedure that has
been suggested at this hearing to conduct the
auction?
MR. MONAGHAN: I do not, Your Honor. And to be
clear, both Mr. DeGiacomo and Mr. Aquino are
extraordinarily skilled and well regarded estate
representatives. And I do agree with the statement

App.188a
that has been made by all that it is time to monetize these assets. The idea of a joint sale and
conducting that joint sale cooperatively is one
that Bio Strategies supports.
Now that the timing issues have been taken care
of and there is general agreement that that sale
isn’t going to take place before the middle of
September, the primary objection that Bio Strategies stated to the sale process itself has been dealt
with.
The other objections that Bio Strategies stated
were largely sequencing. I believe Judge Wolf,
when he took the bench, said he perceives them
to be procedural. And I agree; they are largely
procedural. It was an instance of the cart being
put before the horse.
Under the proposed sale procedures, the $150,000
carveout, the 50/50 split and the withdrawal as
opposed to avoidance of the SEC’s lien in the
Inpellis case was stated to be a fait accompli. As
I understand in the current process that the two
courts have now suggested and that the estate
representatives have now agreed to, the sale
process, that is the notice that a sale will take
place, will get underway, but the final resolution
of the substantive aspects of the settlements, the
$150,000 carveout, the 50/50 split and the withdrawal rather than avoidance of the SEC lien will
be dealt with on another day and prior to the
time that either the auction takes place or the sale
approval order enters. And if I have perceived
that right, Your Honor, I believe that the courts
have addressed the concerns of Bio Strategies
for now.

App.189a
I do suggest that there is a high likelihood that
there will be an objection by Bio Strategies to parts
of the proposed settlement, but as I understand
it, the day in court will come when those will be
addressed, and with that, Bio Strategies is satisfied.
JUDGE PANOS: Thank you. Just to give us a little
preview, what’s the relationship of Bio Strategies
to the receivership estate and the debtor estate?
MR. MONAGHAN: Sure. So Bio Strategies is a creditor
of the receivership estate for $5 million. It has
documents in hand that suggest that it has a
secured—that its $5 million obligation is secured
or the debt holds is secured. There’s an executed
security agreement.
JUDGE PANOS: No Article 9 perfection?
MR. MONAGHAN: Well, there is an Article 9 perfection
that was—the answer to your question is yes,
there is an Article 9 perfection, but the effect of
that Article 9 perfection was not until after the
SEC lien was filed.
The SEC is correct; when the SEC lien was
granted, Bio Strategies had a granted lien. It had
filed documents with the United States
Securities—excuse me—United States Patent
and Trademark Office. It had also filed a UCC—1
in a state that was not the state of incorporation
of Biochemics. It subsequently did file a UCC-1 in
the state of incorporation of Biochemics but did
so after the SEC lien was effected and perfected.
As to the Chapter 7 estate, it is Bio Strategies’
position that the transfer of the assets from

App.190a
Biochemics to Inpellis was in effect conversion of
Bio Strategies’—sorry. There’s a loud noise in
back of me; I apologize.
The transfer of the intellectual property was the
conversion of Bio Strategies’ collateral without
authority, without release and with notice by
both the transferor and the transferee of the
existence of the Bio Strategies lien.
JUDGE WOLF: Mr. Monaghan, let me ask you this.
MR. MONAGHAN: Yes, Your Honor.
THE COURT: Which transfer are you referring to, the
transfer from Biochemics to Inpellis?
MR. MONAGHAN: Yes. As I understand it, Your
Honor, the acquisition by Inpellis—excuse me—the
portfolio of patents and other intellectual property
that Inpellis has originated from Biochemics.
That’s the information I believe I have.
Now, if I’m incorrect about that, I apologize, but
I believe there’s evidence suggesting that Inpellis’
intellectual property portfolio was generated and
transferred to it by Biochemics.
JUDGE WOLF: You might want to look at my January—well, I think this is described there—my
January 17, 2020 order, 435 F. Supp. 3281, which
has a summary of some of the relevant procedural
history. And I’m saying this without having had
a long time to get reimmersed. But essentially,
my understanding—and I’m articulating in part so
if and when the time comes you can argue that
it’s incorrect or clarify it. But when Biochemics
reached a consent judgment with the SEC, they
agreed to pay many millions of dollars, I expressed

App.191a
concern that Biochemics—I wasn’t going to enter
the order unless I thought there was a way for
Biochemics to pay the judgment to the SEC, and
Biochemics proposed installment payments.
And in connection with that, I understand now, as
I recall, that there was a transfer or sale of Biochemics’ assets that might have been held at the
time by something called Shareholder Resolution
Trust to Inpellis which already had a worldwide
free license to use it. And Inpellis provided funds
to Biochemics, and I believe those funds were
used to make the $750,000 payment on the judgment in the SEC’s case, but ADEC contends that
those are funds that it and other lenders provided to Inpellis for an IPO based on representations that Inpellis was independent of Biochemics.
So you can read what I’ve written before, and you
probably can reconstruct this, but that’s my
memory. So there was a question ADEC was
arguing, as I recall, that there was—the SEC was
arguing that there was an improper conveyance.
And then when that issue arose, Inpellis transferred or gave the SEC a lien on that intellectual
property, which ADEC, as I recall, claims was
without consideration. I don’t know if that’s going
to prove to be helpful to you or confusing. You
might want to take a look at my decision.
MR. MONAGHAN: Thank you, Your Honor. I will do
so.
JUDGE PANOS: Mr. Monaghan, in the motion I think
you described Bio Strategies as an affiliate. What’s
the affiliation?

App.192a
MR. MONAGHAN: If I did that, Your Honor, I mistyped. I was of the position that Inpellis is an
affiliate of Biochemics, not of Bio Strategies. If I
have a typo in there, I apologize.
JUDGE PANOS: I just may have misread it. So is Bio
Strategies in any way related to either Inpellis
or Biochemics or Mr. Masiz?
MR. MONAGHAN: I know that Bio Strategies is a
creditor of Biochemics. I believe that the principal
of Bio Strategies also has—or an affiliate of Bio
Strategies also has an equity investment, made
an equity investment in Biochemics and therefore
is—again, this is my recollection, and I apologize,
but I’m working from recollection here—is
therefore also a beneficiary of the SEC’s judgment.
And I am unaware of a relationship between Bio
Strategies and Inpellis other than the debt that
is owed to it there, that Bio Strategies and Mr.
Masiz have spoken about potentially Bio Strategies
or principals of Bio Strategies investing alongside
with Mr. Masiz. That’s all I know, Your Honor.
JUDGE WOLF: Investing in what?
MR. MONAGHAN: In an acquisition of the assets of
these two estates.
MR. AQUINO: Your Honor.
JUDGE WOLF: I want to let Mr. Monaghan go and
then Mr. Schlictmann, if he wants. Mr. Monaghan,
say that again. What is your understanding—
MR. MONAGHAN: I believe at one time, I believe at
one time that Bio Strategies or a principal of Bio
Strategies and representatives of Mr. Masiz were

App.193a
talking about putting together a transaction to
acquire assets of these estates.
JUDGE WOLF: And what time was that?
MR. MONAGHAN: I don’t know. I mean, two years
ago, a year ago. Not recently, to the best of my
knowledge.
MR. AQUINO: Your Honor.
JUDGE WOLF: Go ahead.
MR. AQUINO: This is John Aquino, Chapter 7 trustee.
I just want to add, it’s my understanding that
Mr. Lattimore, the principal of Bio Strategies,
served as chief operating officer or in some
capacity operated Inpellis for a period of time
which I believe was approximately five or six
months. I don’t have the exact dates. I believe
this was in the 2015—2016 range, but I believe
that’s an additional affiliation.
THE COURT: Was it 2015—2016, or was it before or
after the executives of Inpellis resigned, as I
recall, and when intellectual property was being
transferred back to Biochemics or a lien on it was
being given to the SEC?
MR. AQUINO: I believe—and I’m going to correct
myself. I believe it was 2014 and 2015. This was
in connection with the IPO. I just—I could find
those dates for you, but I believe it was—I believe
the settlement with the SEC was in 2016. I don’t
believe Mr. Lattimore was serving at that time,
but I’d have to double check my dates.
JUDGE WOLF: All right. These are questions that
may arise when we get to the point of hearing

App.194a
objections to the settlement from Bio Strategies.
And Mr. Schlictmann may be in a position to
respond to some of this.
Okay. Judge Panos, should we go to—
JUDGE PANOS: I think Mr. Schlictmann has filed an
objection to the sale procedures, a limited objection.
And so Mr. Schlictmann, any comment or objection
to the sale process that has been outlined in the
course of this hearing?
MR. SCHLICTMANN: So our objection, Your Honor—
thank you very much. Our objection is as stated
in our filing, which is detailed in our Rule 59(e)
and 60(b) motion and is the subject of our appeal
to the First Circuit. We feel that and based on
this hearing it appears that we will be treated,
Mr. Masiz will be treated differently than other
parties who are participating in the process, and
we feel that that’s unfair, unjustified and without
authority.
Our position is laid out. I don’t need to repeat it
here. But we don’t want to—we want, us, we want
Mr. Masiz to be treated like any other party so that
he can participate in the process like anybody
else, but under the present circumstances, he has
burdens on him that we feel are unfair and wrong
and that we’ll have to address. We do want to—
JUDGE WOLF: Just one moment. When you say you
will have to address—
MR. SCHLICTMANN: Yes.
THE COURT: When and where?

App.195a
MR. SCHLICTMANN: Well, presumably, Your Honor
has indicated you’re filing a response or a ruling
on our Rule 59(e) and 60(b) motion. We have a
reporting obligation I think on Monday, July 13,
to the First Circuit. So if you’re issuing your
opinion today, that will—
JUDGE WOLF: I don’t know whether you’ll get it
today, and there’s a lot going on in many cases,
but you might, or you might get it Monday. So you
have to provide a status report to the First Circuit?
MR. SCHLICTMANN: Yes, I’m supposed to on July 13,
but I’m assuming, you’ve made the statement
that you have made a ruling so I can report that
the ruling is imminent or maybe it will be issued
by Monday, whatever. But at least they’ll know
the opinion has come down and now the appeal
can go forward. We have to decide what procedural
things we need to do, if we have to do anything
between now and the sale, if we feel that Mr.
Masiz is not being allowed to participate freely.
I think it’s a detriment to the estates, frankly,
and it’s unfortunate, but, you know, again, it’s
not something we have to address here. Mr.
Masiz has been in compliance and should not be
singled out for any reason and has been cooperative, as the record shows.
I also want to correct some misapprehensions, Your
Honor, that I think would be quite unfortunate
if it’s part of the decisionmaking by you and Judge
Panos.
Number one, Bio Strategies was formed by Mr.
Lattimore in I believe 2013 and he became—
between December 2013 and June 2014, he

App.196a
became the chief executive, the president, put
together a board, et cetera. This is all fully documented in the record before you, but it’s been
many years and everything, and so much has
happened.
But just to be clear, Bio Strategies is Mr. Lattimore’s
creation. He used it to put his investment in as a
Series E. He’s one of the largest Series E investors.
I believe almost 25 or 30 percent of the total amount
invested came from Mr. Lattimore.
THE COURT: Investor in what?
MR. SCHLICTMANN: Series E investor, which is the
subject of the judgement.
JUDGE WOLF: Of which company?
MR. SCHLICTMANN: Bio Strategies. He put his
investments through Bio Strategies, and so they
are the largest Series E investor that is the subject of the judgment.
THE COURT: Are you talking about in Biochemics?
MR. SCHLICTMANN: Yes, in Biochemics, exactly. And
he did that in—of course at that time Biochemics
and Alteryx were the same company. The plan
was to split off Alteryx and then to conduct an
IPO. Again, it’s all part of the record. The SEC is
fully aware of all of these facts. All the parties
are, frankly. So I wanted to clear that up.
So the affiliation, I think you can say yes he was
an executive during those months, so to that extent
there was an affiliation, I guess. But he’s always
conducted himself as an independent entity and
considers him to be an independent creditor.

App.197a
And we—when I say “we”—when Mr. Masiz took
back the company in 2014 and continuing, we have
had continuous interaction with Mr. Lattimore and
his attorneys over that period of time and constant
communication back and forth and negotiations,
various agreements, all part of the record, all
fully disclosed, all the parties know about that.
THE COURT: You say “all part of the record.” What
record?
MR. SCHLICTMANN: Well, the record that’s before
you, for sure, Your Honor, and the record that’s
been fully disclosed to all of the parties during
all of the ADEC litigation before you and then
the litigation by ADEC through the 2004 process.
So there’s not a stone that has not been turned
over. There’s not a record or a transaction that
has been the subject of anything that’s been said
today that has not been fully gone over in
minute detail.
THE COURT: Well, I did a word search. It may not be
perfect. I didn’t see Bio Strategies mentioned in
any of the transcripts of the proceedings before
me. Perhaps it’s in memos or perhaps the SEC
knew and it wasn’t relevant to me. It was just a
question.
MR. SCHLICTMANN: Okay. Your Honor, just to be
clear here, the draft registration statements which
were the subject of the litigation before you with
ADEC were all part of the record. And in the draft
registration statements, Bio Strategies’ claim to a
lien was fully disclosed. It was all part of that
process. ADEC was fully aware. They went over

App.198a
the registration statements before, during and
after.
So this whole record of this relationship, Your
Honor, I think it would be unfortunate if you
think somehow there was something untoward or
undisclosed or something that would get involved
in the decisionmaking here. It would be unfortunate.
JUDGE WOLF: This is why we’re having the hearing.
This is why we’re pleased to hear from you. There
are questions and you have responses, and some
of them are answered.
With regard to Mr. Masiz—and you’re of course
entitled to appeal my decisions, and I have a now
published decision with regard to the authority
to require that he respond if I’ve got questions
about whether he’s obeying the injunction, and
he’s not barred from participating in the sale.
But at a very fundamental level, he’s not similarly
situated to I hope the other potential bidders
because he’s under two injunctions not to violate
the securities laws and to make—if he’s raising
money, to make certain disclosures. So if he
makes—if he complies with the injunction, then
he’s not disqualified.
MR. SCHLICTMANN: Right. And I appreciate that,
Your Honor. And there has been disclosure to
the SEC. They have found compliance. All of
that disclosure record, which is quite extensive,
was also submitted to you and is now part of the
public record.
JUDGE WOLF: It is.

App.199a
MR. SCHLICTMANN: And we’re still under investigation, Your Honor.
JUDGE WOLF: Under investigation by?
MR. SCHLICTMANN: By you.
JUDGE WOLF: Well, here, two things. One, there are
some redactions from the documents filed before
me, but they don’t appear to be material. And
two—
MR. SCHLICTMANN: I know what you’re referring
to. It’s the form that was signed by the investors
in Biophysics that shows that they were given—
the part that was redacted was stuff that was
nonrelevant, but what was provided was their
disclosure, that they read the disclosure and the
attached disclosure, which was the issue before
the SEC.
JUDGE WOLF: And I ordered you to file unredacted
copies, so if you want to make redactions for
some reason, and there might be privacy reasons,
legitimate privacy reasons, you’ve got to ask me.
If I give you an order to file unredacted copies, it
doesn’t give you discretion to redact some information, even if I might agree with you that it
didn’t have to be in the public record.
But I’ve got these, and so far, you know, I haven’t
said that there’s a failure of compliance. There’s
a concern that the SEC had about some that
were in a Dropbox. But this is procedure, and
you have my decisions, and they haven’t changed,
and the arguments that were made—essentially,
just so you have it in mind, there are certain
standards for motions to reconsider. They’re stated

App.200a
by the First Circuit in a case called Allen, among
others, and I haven’t found that any of the standards for reconsideration are met.
But what I guess I’m trying to—we’ll cross this
bridge if we come to it, but it seems to me that
at least everybody else agrees that the procedure
that Judge Panos explained and that he and I
think is appropriate they agree also is appropriate,
including coming back for the confirmation.
And just to explain it, if Mr. Masiz is a bidder—
an organization and a company that Mr. Masiz is
associated with is a bidder and it’s not the highest
bidder, doesn’t win, prevail in the auction, then
these issues may be moot. If he does prevail in the
auction, at the moment—and Judge Panos tells me
that this is familiar in bankruptcy proceedings—
this would be essentially an affiliate or insider who
might be required to make more disclosures. Some
of those will come, if I understand it right, in the
qualification phase even before the bidding, but
it is foreseeable that I will want to see again, if
Mr. Masiz raises money, whether the required
disclosures were made.
And if you showed that the injunction was obeyed
and the required disclosures were made and people
were given accurate, complete, not misleading
information and they invested and Mr. Masiz has
the money or one of his entities has the money,
properly, then if he’s the winning bidder and everything else is in order, he will I guess get the
property. But you’re right, because he’s subject
to the injunctions, including mine, there are
questions that may need to be answered.

App.201a
MR. SCHLICTMANN: Your Honor, I appreciate that,
and, you know, this is—all I can tell you is it seems
to be just so unfortunate because, under the
present circumstances, it is in the estate’s interests
to have Mr. Masiz involved in this bidding process
for lots of reasons. And his uninvolvement—I
also will state clearly to you and to Judge Panos
that there will be no attempt to try and bid
through a dark horse or a third party or anything
else. That’s not going to happen here.
If Mr. Masiz is involved in the bidding process,
that’s going to be fully disclosed. We’re not going
to set up a situation where someone can come back
and say, Oh, this was undisclosed or collusion or
anything like that, so I wanted to make that very,
very clear. He wishes to participate freely, like
anyone else. And we think—you know, we would
just ask Your Honor to consider, we had this compliance issue, which is a compliance issue in which
information was submitted showing compliance,
which the SEC agrees with, unless they’re changing their mind, and it’s not right—
JUDGE WOLF: Excuse me. As you may have noticed
going back to when I didn’t just sign off on the
consent judgment, I don’t always agree with the
SEC.
MR. SCHLICTMANN: I appreciate that, Your Honor,
but they are—
THE COURT: And, and, just to be clear about this,
ADEC charges that the SEC was complicit in a
fraudulent conveyance, taking a lien, dropping—
a different unit, dropping an investigation of the
documents submitted for the proposed IPO. So I

App.202a
have—and I expect the SEC to analyze matters
carefully, and that’s why I had you submit the
documents in the first instance to the SEC, but
I’m not relying exclusively on the SEC’s judgment.
MR. SCHLICTMANN: Okay. And Your Honor, that’s
where we take issue, Your Honor. I just want to
be clear on that. We feel it’s—first of all, I have to
say, Your Honor, I think it’s being very unfair to
the SEC truly in this circumstance and especially
to be relying on ADEC’s allegations, which I think
the record shows very, very clearly should not be
taken for something to cast aspersions on either
how the SEC did their work or how we interacted
with the SEC. We think it’s unfair. I’ve made that
clear before. But I think it’s unfortunate that
you are relying on your decisionmaking on that
point. So I would ask that you reconsider that.
JUDGE WOLF: I didn’t—this is a settlement, and
nobody’s going to decide whether there were
fraudulent conveyances to Inpellis or from Inpellis.
There are questions.
MR. SCHLICTMANN: Right, but you approved that
settlement. And unless you think that there’s
sufficient information to reopen that settlement
really and say somehow that there was collusion
between us and the SEC, I just think it’s completely unfair to them and to us. We’ve been
conducting ourselves quite professionally and we
believe carrying out your directives, Your Honor,
truly, doing the things that you thought were
appropriate of parties who are in a dispute and
who you encourage to settle.

App.203a
The record has been gone over in minute detail
by ADEC, by the receiver, by the trustee. And if
there was anything untoward, the receiver and
the trustee have an obligation to you and to Judge
Panos to bring that to your attention. They have
not done so to date. I challenge them to do it now
because these unsaid things, these things that
were said by ADEC and now they’re not pursuing
anymore, at least not in this particular context—
by the way, yes, we agree that those two other
actions should be dismissed because the parties
are not in dispute anymore, so I don’t think we
have to clutter the docket with that.
But if the receiver and the trustee who has gone
over all of these things in detail, everything
you’ve talked about, have a question or problem
or assertion of a claim, they have an obligation,
Your Honor, to bring it to everybody’s attention,
including yours, so that this does not clog up, get
in the way of or prevent the free participation of
Mr. Masiz or anyone else in the—
THE COURT: Mr. Schlictmann, you know, to some
extent you’re an interested party as well as a lawyer here given the history of the case, and we’ve
discussed that at times. But I don’t think it’s
profitable to repeat this. Mr. Masiz is not disqualified from participating, but if he has a unique
history, there may be questions put to him as to
whether, if he raised money, he did it in a way that
was consistent with the injunction or injunctions,
but mine particularly. And if the answer is that
he has obeyed the injunctions and succeeded in
raising money and was the highest bidder, at a
very general level, I’ll have to see what other

App.204a
complications develop, but I expect the sale to an
entity in which he’s involved will be approved.
MR. SCHLICTMANN: I do want to assure Your Honor
that he was in compliance, has not been raising
money, to avoid this entire issue. He has been in
compliance in the past and is not raising money,
so there’s no compliance issue going forward, and
he will maintain that because he just doesn’t wish
to be subjected to being a target of more investigation. So I assure you that that is the case.
JUDGE PANOS: If I could just focus back on the
process for the benefit of the trustee and the
receiver on this issue. The expectation as part of
the notice of sale would be that there has to be
disclosure of any connections and affiliations.
There’s no expectation that either the trustee or
the receiver are going to do any inquiry as to
whether Mr. Masiz is complying with Judge Wolf’s
order.
You have to understand the affiliations, if there
is an affiliation, if Mr. Masiz is a bidder. You
have to obtain proof of the ability to close as part
of that. And then, as part of a sale hearing, if the
winning bidder is Mr. Masiz, there will be questions that go to the good faith conduct of the
auction and whether he’s in compliance. But it’s
not part of the process where the trustee is going
to screen Mr. Masiz to determine whether he’s
in compliance with an injunction. That’s Judge
Wolf’s job.
MR. SCHLICTMANN: And I understand that. Thank
you, Judge Panos. I appreciate that. Thank you.

App.205a
MR. DEGIACOMO: Your Honor, in connection with
that, if the two courts put together the notice, if
you wanted to put in a provision also that any
bidder discloses the source of funds, that’s not
an unusual provision, that might help move the
ball forward.
JUDGE PANOS: That’s what we contemplate, evidence
of ability to close and source of funds.
MR. DEGIACOMO: I think that may moot this whole
issue. That would be great.
JUDGE PANOS: I think we also contemplate that
you and Mr. Aquino are going to put your heads
together and consolidate your proposed notices
of sale, incorporate what we’ve discussed today
and then submit them to us.
MR. DEGIACOMO: Yes, that’s fine, we can do that.
And I think as far as the date, the September 15
date that we discussed, that’s a Tuesday, and if
we could have that date or around that date, it
will be helpful.
The problem here, which Attorney Farrell
addressed earlier in this hearing, is that it is
very expensive to maintain all of these patents
for both estates. And every once in a while we
get notice that another $7,000, $8,000 is owed or
else we’re not going to have the patent effective
in Europe or wherever. And the funds available
are running low, so we would like to move the
process along. We have no problem kicking it out
to the September 15 date but would like to get it
in around there.

App.206a
And then lastly, at the beginning of the hearing,
one of Your Honors asked about whether, on the
50/50, whether everything that was going to be
sold would be subject to the 50/50. The answer is
yes.
JUDGE PANOS: Thank you. What about—the one
issue we haven’t addressed at all is Mr. Masiz
has asserted that he has an ownership interest
in one of the assets that’s being sold. I think the
trustee and the receiver need to have some strategy to deal with that.
If it were purely a bankruptcy case, it might be
the sale of a jointly owned asset with the claims to
attach to the proceeds. You know, if it’s a claim
that’s in a bona fide dispute, there’s a provision of
the bankruptcy code that addresses that directly,
and you’d seek approval of the sale, again with
the claims to attach to the proceeds. But that
raises allocation issues. So what’s the strategy to
deal with that claim?
MR. DEGIACOMO: Well, as I understand it, what
Attorney Schlictmann is saying is that this socalled combination drug, which is the ownership—
that’s one of the ownership issues between
Inpellis and Biochemics, that Mr. Masiz is the
inventor, which he very well may be, and that he
did not assign his rights over to Biochemics. So
we will be—we’re looking into that. And what he’s
asking is that that be disclosed at the auction so
that everybody understands that this contention
is out there. I think that’s the relief Mr.
Schlictmann is looking at. We’ll do some more
investigation into that, and certainly the trustee
and I will discuss the approach.

App.207a
JUDGE PANOS: I guess my question was really more,
I understood the claim, and I’m assuming that
you’re going to look to see if there’s a conventions
agreement that would require him to assign it
over and all the typical diligence that will go
into that, and I’m sure there have been disclosures made by Mr. Masiz or at his direction that
talked about the ownership of the intellectual
property assets. And whether he did or didn’t
claim an interest at that time, I don’t know.
But it seems to me that if we’re going to get to a
sale hearing and this is an asset, that there are
two ways to go. You can disclose the adverse claim
which might show the bidding on the asset by a
third party, or you can seek approval of a sale free
and clear of that claim under relevant provisions
of the bankruptcy code and by analogy into the
receivership. But if you do that, it seems to me
you have to amend your motion at some point to
do that.
MR. DEGIACOMO: Yeah. Again, we’ll review it. I
understand, I think the court is correct, I think
option one is probably the way we will go with
this, but we will review it.
JUDGE PANOS: Okay. So let me ask Judge Wolf,
would it make sense to ask anyone else if they’d
like to be heard; and, if not, would you like to go
into a separate session for a moment and then
come back?
JUDGE WOLF: Yes. I’ll say the following with regard
to the September 15 date. Judge Panos and I
share your interest in not seeing the assets
diminished by unnecessary delay. But if it’s

App.208a
going to be 60 days, it will have to be 60 days
from the date of notice, and you’re going to have
to rewrite the notice to comply with the discussion
we’ve had, one notice addressing whatever Judge
Panos said. So it may not be September 15. It
might be the following week because you’ll need
to submit the proposed form of notice to us again,
and we’ll review it and either approve it or edit it.
My availability next week is very limited, nonexistent after Monday for a couple of days. But I
would strongly encourage you, unless Judge
Panos wants to draft the notice himself, to work
with the trustee to get a notice that makes sure
it covers all of the patents in a consistent way
and that you’re satisfied with it and then submit
it to us, and the hearing date or the auction date
will derive from when you issue the notice.
MR. DEGIACOMO: Thank you, Your Honor.
THE COURT: Is there anybody else who would like
to be heard on anything before Judge Panos and
I confer and come back to you? Apparently not.
Then the deputy clerk can either exclude you or
put us in a breakout room so we can confer.
COURTROOM CLERK: Yes, Your Honor, I’ll put you
all in the breakout room.
THE COURT: Thank you.
(Recess 12:22 p.m. to 12:40 p.m.)
JUDGE WOLF: We’re back in session, and Judge Panos
will tell you where we are and where we’re going.
JUDGE PANOS: We took the time to try and lay out
a schedule looking at the courts’ calendars so

App.209a
that dates coordinated with availability of both
courts, which as you might expect isn’t always
an easy task.
The contemplation in terms of the sale process is
that by the 14th of July, the receiver and the
trustee will file a notice of proposed form of
notice of sale that proposes to the court a form of
notice of sale that is consistent with what we’ve
discussed at the hearing today. The contemplation
is that the auction would occur on September 22
and that a report would be filed with the court
regarding the auction and any issues or information that the trustee and the receiver need to get
on file that would support approval of the sale,
like affidavits, or, you know, issues if there were
an insider, any disclosures associated with that,
so that would be by September 24, and the hearing
on confirmation and consideration of approval of
the sale would be at 2:00 p.m. on October 2.
On that September 24 date, we would also expect
any parties that object to the procedures that were
employed at the auction or the buyer or any other
objections to the sale that haven’t been already
raised to be filed as well. We also contemplate that
we could hear the motion to approve the settlements between the two estates as a joint hearing,
and I would also hear the settlements that are
part of the bankruptcy motion to compromise at
the same time on August 27. And I don’t think we
set a time for that, but it will be in a scheduling
order, and the contemplation is that any objections
to the proposed settlements in either case be filed
by August 5 with any replies filed by August 14.

App.210a
JUDGE WOLF: And we’re ordering you to order the
transcript of today’s hearing so we can all refresh
ourselves at the appropriate time. But does that
schedule work for counsel? We’re coming up to or
in seasons when sometimes people have planned
vacations. Does anybody have a concern with any
of those dates, particularly the hearing dates?
Apparently not.
JUDGE PANOS: Anything else anyone would like to
raise before we adjourn?
MR. FARRELL: Can I just—I have a question of clarification, Judge. This is Don Farrell on behalf of
the Chapter 7 trustee.
You set the date of August 4 for objections to the
compromise. Would that also be a date for objection to the sale motion itself also?
JUDGE PANOS: So August 5 I think was the date I
gave for objections to the settlement.
MR. FARRELL: Yes.
JUDGE PANOS: I think that there are two opportunities to object to the sale. We can set that as a sale
objection deadline, but there will also be another
opportunity to object through the conduct of the
auction, the identity of the winning bidder. That
would be filed by September 24 on the same date
that the trustee and receiver’s report regarding
the auction and supporting affidavits will be filed.
MR. FARRELL: That’s fine. Thank you, Your Honor.
THE COURT: All right. If there is nothing else today,
we’ll recess, and I’ll talk briefly with Judge Panos
again, but thank you all very much.

App.211a
DECLARATION BY JOHN MASIZ REGARDING
THE PUBLIC FILING OF A COPY OF THE 9-12-19
MASIZ DISCLOSURE SUBMISSION PROVIDED
THE SEC (DOC. #562, #567)
(NOVEMBER 22, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., ET AL.,

Defendants.
________________________
Civil Action No. 12-12324-MLW
I, John Masiz, make the following statement under
the pains and penalties of perjury:
1. I am a Defendant in this matter. I make this
Declaration to supplement my sworn statement dated
9-12-19 (Doc. #562-1) pursuant to the Court’s 9-5-19
Order (Doc. #557), and pursuant to the Court’s 11-5-19
(Doc. #574) and 11-20-19 (Doc. #579) Orders. It is also
provided in support of my motion for an order extending
the due date for me to respond to the Court’s 11-5-19
(Doc. #574) and 11-20-19 (Doc. #579) Orders to publicly
file (with or without redactions) the 9-12-19 submission
I provided to the SEC referred to in Doc. #562-1.

App.212a
2. As I stated in my 9-12-19 Declaration (Doc.
#562-1), subsequent to the settlement with the Commission and entry of the 8-17-17 Judgment (Doc. #339,
#339-1, and #344), I made it a practice to provide the
disclosures required by Section II of the Judgment.
Pursuant to the Court’s 9-5-19 Order (Doc. #557, #559)
I submitted three volumes of information to the
Commission which listed the people and the written
disclosures that I provided from August, 2017 through
the date of my Affidavit.
3. In reply to the Commission’s 9-19-19 Response
(Doc. #566) to my submission, I provided additional
information documenting that in the one instance
identified by the Commission where there was a “risk”
that the disclosure might have been “buried” in a larger
collection of due diligence materials, in fact, the disclosure was made in a similar manner to other instances
that the Commission had found was sufficient. With
that one exception (subsequently further documented
by me as referred to in Doc. #566) the Commission
found that “Masiz has complied with the written
disclosure requirements of his final judgment.” See,
9-19-19 Commission Response (Doc. #566) p. 3.
4. The Court’s 9-5-19 and 9-6-19 Orders (Doc. #557
& #559) requiring me to make a submission demonstrating that I had complied with Section II of the 8-1717 Judgment (Doc. #339, #339-1 & #344) was issued
by the Court on its own and not in reference to any
assertion by the Commission or any other party that
1 had in any way failed to comply with the disclosure
obligation. The submission Order came out of the blue
during the 9-5-19 Hearing regarding the Receiver’s
7-31-19 motion for approval of a stalking horse bid
that my company, BioPhysics Pharma, Inc. had entered

App.213a
into in an effort to assist the marketing and proposed
sale of the BioChemics’ intellectual property (Doc.
#541, #542)—assistance I and my company had been
providing since the Receiver was appointed by this
Court by Order dated 10-9-18 (Doc. #452), a fact well
documented by the record (see, e.g. 1-7-19 Receiver
“Liquidation Plan” (Doc. #484-1). In response to nonparty ADEC’ s “Opposition” to the sale in which ADEC
accused me and others of having committed acts
involving the “stealing” of BioChemics and Inpellis
intellectual property and perpetrating a “fraud” on the
court (Doc. #548)—assertions that this Court characterized as “only allegations” which the BioChemics’
court had “no way ref assessing the validity,”1 the
Court issued a series of rulings including: declaring
the Receiver’s 1-7-19 “Liquidation Plan” (Doc. #484-1)
“moot” (taking it “off the Docket”2) and denying the
Receiver’s motions regarding the marketing and
bidding of BioChemics’ assets; allowing ADEC’s
motions to lift the court’s stay so ADEC could bring
its “claims” against Appellants, serve a Rule 2004
subpoena on the Receiver, and that “ADEC may assist
the Inpellis Bankruptcy Trustee in pursuing claims of
Inpellis” against Appellants. 9-6-19 Order (Doc. #559).
Because the Court believed that there was need for
discovery before any plans could be considered (“a lot
of issues have been raised [by ADEC] about a lot of
transactions” (emphasis added))3 the Court directed
the Trustee with ADEC’s “assistance” and the Receiver

1 9-5-19 BioChemics ’ Hearing p. 45.
2 9-5-19 BioChemics ’ Hearing p. 86.
3 9-5-19 BioChemics ’ Hearing p. 91.

App.214a
to conduct an investigation of ADEC’s accusations.4
These actions coupled with the inexplicable unpredicated demand by the Court that I, in short order, make
the 9-12-19 submission regarding whether I complied
with Section II of the Judgment, combined to make it
clear to any observer that I was a target of the Court’s
concern that required extensive investigation and
examination.
5. Throughout the months of September and
October, 2019, pursuant to the FRBP Rule 2004 proceedings initiated by ADEC, a substantial amount of
technical and business records of BioChemics, Inpellis
and BioPhysics Pharma Inc. was produced and three
full days of depositions were conducted by ADEC, in
which the Trustee and Receiver also participated.
The depositions were conducted over October 28, 29,
and 30, 2019. Subsequent to the production and
depositions, on November 6, 2019, the parties came
to an agreement to move to stay the various actions
in which they were parties to allow the parties an
opportunity to mediate their disputes. Unfortunately,
as is natural to such multi-party situations, it took
much longer than was anticipated to file the appropriate motions with the Court. Because of the delay,
I in good faith, provided a one-party notice to the
Court of the situation and requested that the Court
temporarily indulge the parties while they worked
out the procedural details of how best to proceed (1115-19 “Respondents’ Notice” (Doc. #578). The parties’
good faith efforts led to the 11-21-19 filings seeking a
stay of the various actions so that the parties can
focus on the settlement discussions and to conserve the
4 9-5-19 BioChemics ’ Hearing p. 91.

App.215a
Court’s and the parties’ resources. See, 11-21-19
“Joint” stay request (Doc. #580). As detailed in the
parties’ filings requesting the stay, the parties are
benefitting from the agreement of Hon. Joan Feeney
(Ret). to act as the Neutral and Neutral Feeney has
complied with the attendant rules. Pursuant to that
mandate, Neutral Feeney will be reviewing all
aspects of the parties’ disputes and their extensive
factual and procedural context.
6. Unfortunately, during this sensitive time in
the parties’ private deliberations regarding moving
this matter to mediation, the Court issued its 11-20-19
Order requiring me to publicly file the unredacted
submission on pain of being held in civil or criminal
contempt. 11-20-19 Order (Doc. #579).
7. As detailed in the Memorandum in support of
my motion, it is my strongly held belief for the reasons
stated, that the Court’s requirement that I publicly
file the submission whether redacted or unredacted
is an unjustified penalty that amounts to a “public
shaming” that was not agreed to or contemplated by
me in connection with the 8-15-17 “Joint Motion” by
the Commision and myself to enter into the Section
II “equitable relief’ in question. The public filing
requirement substantially interferes with my ability
to function in the marketplace and unnecessarily and
undeservedly subjects 3rd parties who have dealt
with me or contemplating dealing with me to public
scrutiny. The requirements unnecessarily interfere
with my right to conduct business free of unnecessary or inappropriate scrutiny by public officials or
the courts, and contributes to making me a pariah in
the marketplace. Requiring me to file the submission
under the pains of civil or criminal contempt, under

App.216a
these circumstances will cause irreparable harm to
my Constitutional rights to privacy as well as to be
free from imposition of penalty without due process.
Requiring me to file under these circumstances will
cause me and others who in good faith have dealt
with me to suffer unjustified and unnecessary harm.
If the Court does not grant the relief requested, and I
am forced to make the filing as ordered, 1 will have
no ability to rectify the damage that will be done.
8. As importantly, as detailed in the accompanying
Memorandum, Defendant believes that the Court’s
11-5-19 (Doc. #574) and 11-20-19 (Doc. #579) Orders
implicate substantial statutory and Constitutional
issues regarding the permissible scope of the injunction
entered by the Court’s Order dated 8-17-17 Section II
(Doc. #339-1). I therefore submit this Affidavit and
accompanying Memorandum in further support of my
request to continue consideration of the requirement
as requested. I do not believe that this request in any
way implicates any interest, either of the parties or the
public in a negative manner. In fact, as I have testified
and as detailed in the accompanying Memorandum,
such interests will only be promoted and protected by
this request.
/s/ John Masiz
Dated: November 22, 2019

App.217a
REPLY BY DEFENDANT JOHN MASIZ TO
COMMISSION’S RESPONSE (DOC. #566)
TO MASIZ’S REGULATORY DISCLOSURES
(SEPTEMBER 20, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., ET AL.,

Defendants.
________________________
Civil Action No. 12-12324-MLW
Defendant John Masiz makes the following reply
regarding the Commission’s concern that in one of the
solicitations at issue there was a “risk” that the disclosure might have been “buried in the larger collection of
due diligence materials” at the dropbox “Due Diligence”
link. 9-19-19 Commission Response (Doc. #566) p. 2.
The Commission appreciated that this concern was in
other instances ameliorated by the fact that reference
to the disclosure material was usually made in cover
emails. Masiz wishes to assure the Commission and
the court, that the required Disclosure was not in
that instance, or any other, “buried” among a “larger
collection.”

App.218a
As documented by the material in Masiz’s
Appendix Volumes I-III referred to in his 912-19
Affidavit (Doc. #562), the Masiz Disclosure was, as
part of regular practice, referenced in cover emails,
referenced in or made a part of attachments to the
emails, as well as being provided at the dropbox “Due
Diligence” link. The dropbox “Due Diligence” link
provided in the one “transmittal email” that was of
concern to the Commission, led to just 12 readily
identified Folders one of which was identified as
“Regulatory-Masiz Disclosure” which contained two
disclosures, both of which contained the Masiz Disclosure. See, Exhibit A. In addition, regarding that
one instance of concern, Masiz has supplemented the
Appendix material provided to the Commission with
the addition of the follow-up cover emails that pertain
to that particular instance. The follow-up cover emails
provided as a supplement were similar to others that
the Commission found were ameliorative of its concern.
The emails that immediately followed up the one of
concern contained two attachments, one referenced
the “Regulatory history & disclosure” and the other
the “detailed summary of the regulatory history and
disclosure regarding BioChemics and its founder,
John Masiz” at the “Due Diligence” link provided. In
addition, the follow-up cover emails provided as a
supplement referenced that one of the email’s attached
documents: “summarizes the opportunity and provides
links to Due Diligence, videos regarding the technology,
and regulatory history and disclosure.” Therefore, as
in the other instances, it was part of regular practice
to reference the regulatory history and disclosure
regarding Mr. Masiz and BioChemics.

App.219a
Respectfully Submitted by his attorney,
/s/ Jan Schlichtmann
(BBO #445900)
Attorney for Defendant John Masiz
PO Box 233
Prides Crossing, MA 01965
O: (978) 804-2553
Email: jan@schlichtmannlaw.com
Dated: September 20, 2019

App.220a
COMMISSION’S RESPONSE TO JOHN MASIZ’S
REGULATORY HISTORY DISCLOSURES
(SEPTEMBER 20, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,
CRAIG MEDOFF, and GREGORY S. KRONING,

Defendants.
________________________
Civil Action No. 12-12324-MLW
On September 9, 2019, the Court ordered John
Masiz to file an affidavit regarding his regulatory
history disclosures and further ordered the Commission
to review the affidavit and report to the court by
September 19, 2019 whether it believes Mr. Masiz
has complied with the relevant requirements of his
final judgment. See Dkt. No. 559, at ¶ 5. The final judgment against Masiz required that he could not solicit,
or accept, investments for an entity that he owned
controlled, consults for, or is employed by, without
making a specified written disclosure to any actual
or potential investor about his prior regulatory history.
See Dkt. No. 345, § II.

App.221a
On September 12, 2019, Masiz filed an affidavit,
Dkt. No. 562, and he also provided the Commission by
hand delivery with an appendix1 of documents comprising his written records of the written disclosures
he has provided to investors and potential investors
as required by the final judgment, Dkt. No. 345, § II.
The appendix provided documentation relating
to 80 instances in which Masiz participated in soliciting
an investment for BioPhysics Pharma Inc. (“BPI”),
which the Commission understands to be an entity in
which he has an ownership interest. The appendix
also documents that in 73 of those 80 instances, Masiz,
or someone working with Masiz, either emailed, or
delivered in person, a written copy of the disclosures
required by the final judgment. The appendix discloses
that in seven of the 80 instances in which Masiz participated in an investment solicitation on behalf of
BPI, Masiz, or someone working with Masiz, provided
the potential investor with a link to a dropbox that
contained the written disclosure required by the final
judgment. The link was provided so that the potential
investor could review a larger collection of “due diligence” items, including the written disclosure required
by the final judgment. While the Commission has
concerns about the potential that an important written
disclosure like that required by the final judgment
could be buried by simply providing a link to a much
larger collection of documents, in six of the seven
solicitations here, that concern is ameliorated because
Masiz, or someone working with Masiz, specified in the
cover email to the potential investor that the dropbox
1 Masiz also filed, with the Commission’s assent, a motion to
file the appendix with the Court under seal. Dkt. No. 565. That
motion remains pending.

App.222a
due diligence materials included Masiz’s regulatory
history and disclosures.
The Commission does have concerns about one
solicitation where a person working with Masiz emailed
a potential investor, stating “As a follow-up to our
discussion earlier, I am transmitting coordinates to
the dropbox which contains due diligence materials
about the technology, patents and clinical data.” That
transmittal email does not specify that the dropbox
includes disclosures about Masiz’s regulatory history.
As a result, there remains the risk that—as to that
particular potential investor—the disclosures required
by the final judgment are buried in the larger collection
of due diligence materials.
Based on the Commission’s review of Masiz’s affidavit and the related appendix, the Commission overall
believes that, other than the single instance specified
above, Masiz has complied with the written disclosure
requirements of his final judgment.

App.223a
SECURITIES AND EXCHANGE COMMISSION
By its attorneys,
/s/ David H. London
Kathleen Burdette Shields (BBO #637438)
David H. London (BBO #638289)
Securities and Exchange Commission
33 Arch Street, 24th Floor
Boston, Massachusetts 02110
Telephone: (617) 573-8904 (Shields direct)
Telephone: (617) 573-8997 (London direct)
Email: shieldska@sec.gov
londond@sec.gov
Dated: September 19, 2019

App.224a
AFFIDAVIT OF JOHN MASIZ REGARDING
REGULATORY HISTORY DISCLOSURE
(SEPTEMBER 12, 2019)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., ET AL.,

Defendants.
________________________
Civil Action No. 12-12324-MLW
I, John Masiz, do solemnly swear that the following
are true statements to the best of my knowledge and
belief:
1. On September 5, 2019 the Court ordered me
to do the following:
Defendant, Masiz, shall, by 9/12/19, produce a
list of people he has solicited money from and
written disclosures he provided as required
by Section II of the Judgment entered in this
case (Docket #345) and the contemporaneous records showing that such disclosures
were made.
9-5-19 Order (Doc. #557).

App.225a
2. I make the following statement and make the
following submission in response to the Court’s 9-5-19
Order:
a.

Subsequent to the settlement with the Commission and entry of the Final Judgment, I
made it a practice to provide the disclosures
detailed in Appendix Volume IA to this Affidavit, as required by the Final Judgment
entered in this case;

b.

Appendix Volume IB through Volume IIIA
lists the people and the written disclosures
that I provided from August, 2017 through
this date; and,

c.

Volume IIIB lists the people, who are not
insiders, that BioPhysics Pharma, Inc.
received investment from after August, 2017
to the present, and the disclosure that they
acknowledged being provided prior to making
their investment.

3. I have arranged with the Commission, this
date, hand delivery to the Commission of Appendix
Volumes I-III for their review.
/s/ John Masiz
Dated: September 12, 2019

App.226a
JOINT MOTION FOR ENTRY OF
PROPOSED FINAL JUDGMENT AGAINST
DEFENDANT JOHN J. MASIZ
(AUGUST 15, 2017)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
SECURITIES AND EXCHANGE COMMISSION,

Plaintiff,
v.
BIOCHEMICS, INC., JOHN J. MASIZ,
CRAIG MEDOFF, and GREGORY S. KRONING,

Defendants.
________________________
Civil Action No. 12-12324-MLW
Pursuant to the Court’s Order dated June 22, 2017
(Dkt. No. 328), Plaintiff Securities and Exchange
Commission (the “Commission”) and defendant John
J. Masiz (“Masiz”) jointly move that this Court enter
the attached proposed Final Judgment as to Defendant
John Masiz (“Final Judgment”). The Commission
and Masiz have agreed to all terms in the Final
Judgment. In support of this motion, the Commission
also files the attached Consent signed by Masiz,
memorializing his agreement to the terms of the
Final Judgment. Specifically, Masiz admits that he
violated Sections 17(a)(2) and 17(a)(3) of the Securities

App.227a
Act of 1933 (“Securities Act”) [15 U.S.C. § 77q(a)(2),
(3)], and consents to:
1. A permanent injunction against violations of
Sections 17(a)(2) and (3) of the Securities Act [15 U.S.C.
§ 77q(a)(2), (3)]. Section 20(b) of the Securities Act provides that the Commission may seek, and the Court
may grant, permanent injunctions against violations
of the federal securities laws. 15 U.S.C. § 77t(b);
2. An injunction that permanently restrains and
enjoins Masiz from providing information to, soliciting,
or accepting investments or funds from, any investor
or potential investor regarding the offer or sale of
any securities issued by any entity that Masiz directly
or indirectly owns, controls, consults for, or is employed
by, without first providing such person with a written
disclosure regarding Masiz’s prior regulatory history,
and keeping a written record that he provided such
written disclosure to that person. The Court has the
authority to order this type of conduct-based injunction
under Section 21(d)(5) of the Securities Exchange Act
of 1934 (“Exchange Act”) [15 U.S.C. § 78u(d)(5)] (“Equitable Relief.—In any action or proceeding brought or
instituted by the Commission under any provision of
the securities laws, the Commission may seek, and any
Federal court may grant, any equitable relief that may
be appropriate or necessary for the benefit of investors”). This injunction provides meaningful protection
to investors or potential investors who, in the future,
receive information from Masiz about his companies
or their technology without imposing an undue
restraint on Masiz’s ability to work or to discuss the
technical aspects of his companies’ technology. The
injunction specifies the particular language of the
disclosure that Masiz must make, so that there is no

App.228a
ambiguity about whether the disclosure is sufficient.
The injunction further specifies the circumstances in
which Masiz must make the disclosure, so that there is
no uncertainty about when the disclosure is required.
The injunction also specifies that Masiz must keep a
written record of providing the disclosure to all individuals to whom he provided it so that it will be easy
to determine whether Masiz has complied with the
Court’s injunction;
3. An order barring Masiz from acting as an
officer or director of any issuer that has a class of
securities registered pursuant to Section 12 of the
Exchange Act [15 U.S.C. § 78l] or that is required to
file reports pursuant to Section 15(d) of the Exchange
Act [15 U.S.C. § 78o(d)]. Under section 20(e) of the
Securities Act [15 U.S.C. § 77t(e)], a court may bar
an individual found guilty of securities law violations
from serving as an officer or director of a public company. The parties have reached agreement that an
officer and director bar is appropriate here in light of
Masiz’s admissions to securities law violations and
his history of prior regulatory sanctions; and
4. An order to pay a civil penalty of $120,000.
Under Section 20(d)(2) of the Securities Act, the Commission may seek, and the Court may order, civil
penalties for violations of the federal securities laws.
See 15 U.S.C. § 77t(d)(2). The parties have reached
agreement that the requested penalty is appropriate
in light of the other relief provided as a result of this
settlement.
These substantive terms are located in the Final
Judgment, Sections I through IV, and in paragraph 2
of Masiz’s Consent. The remaining items in the Consent
and Final Judgment relate to compliance with the

App.229a
terms, including, for example, payment terms and
potential future distributions (Final Judgment § IV
and Consent ¶ 3), acknowledgments concerning the
bankruptcy implications of this resolution (Final
Judgment § VI), agreements regarding limitations on
the source of funds to pay the civil penalty and tax
implications (Consent ¶ 4), waiver of rights of appeal
(Consent ¶6), notice of potential collateral consequences
(Consent ¶ 11), Masiz’s agreement not to deny that
he violated Sections 17(a)(2) and (a)(3) of the Securities
Act (Consent ¶ 12), and a waiver of rights under
statutes relating to attorneys’ fees (Consent ¶ 13).
Many of these items relating to compliance with the
terms of the judgment mirror the same items in the
Commission’s settlement with defendant Craig Medoff,
which the Court approved and entered last year. See
Dkts. 204 (Medoff Final Judgment); 198-1 (Consent
of Craig Medoff).
Filed along with the proposed Final Judgment is
the Commission’s motion to dismiss voluntarily its
claims in Counts 1, 3, and 4 of the Complaint that
Masiz violated Sections 10(b), and 20(a) of the Securities
Exchange Act of 1934 (“Exchange Act”) [15 U.S.C.
§§ 78j(b), 78t(a)] and Rule 10b-5 thereunder [17 C.F.R.
§ 240.10b-5], and Section 17(a)(1) of the Securities
Act. These offenses require proof that Masiz acted
with scienter.
The Commission and Masiz submit that these collective settlement terms are fair and reasonable under
the circumstances. Together, these terms implement
the Court’s partial ruling on summary judgment and
provide additional meaningful relief and protection for
investors. Sums paid by Masiz towards this judgment
may be combined with other moneys paid on judgments

App.230a
in this case and distributed to investors. The injunctive
relief serves to place prospective investors on notice
of Masiz’s disciplinary history and thus serves the
public interest. The parties believe that the settlement
represents an equitable compromise of their claims
and conserves the parties’ resources appropriately.
See SEC v. Citigroup Global Markets, Inc., 752 F.3d
285, 294 (2d Cir. 2014) (“the proper standard for
reviewing a proposed consent judgment involving an
enforcement agency requires that the district court
determine whether the proposed consent decree is fair
and reasonable, with the additional requirement that
the public interest would not be disserved”) (internal
quotation omitted).
For the reasons outlined above, the Commission
and Masiz jointly request that the Court enter the
attached proposed Final Judgment as to Defendant
Masiz.
SECURITIES AND EXCHANGE COMMISSION
By its attorneys,
/s/ Kathleen Burdette Shields
(Mass Bar No. 637438)
David H. London (Mass. Bar No. 638289)
Securities and Exchange Commission
33 Arch Street, 24th Floor
Boston, Massachusetts 02110
(617) 573-8997 (London direct)
(617) 573-8904 (Shields direct)
Email: shieldska@sec.gov
londond@sec.gov

App.231a

JOHN MASIZ,
By his attorneys,
/s/ Jan R. Schlichtmann
(BBO #445900)
PO Box 233
Prides Crossing, Massachusetts 01965
(978) 927-1037
jan@schlichtmannlaw.com
Dated: August 15, 2017

